<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2016
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                 ________



     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  ROBERT B. ADERHOLT, Alabama         CHAKA FATTAH, Pennsylvania  
  JOHN R. CARTER, Texas               MICHAEL M. HONDA, California   
  JAIME HERRERA BEUTLER, Washington   JOSE E. SERRANO, New York  
  MARTHA ROBY, Alabama                DEREK KILMER, Washington  
  DAVID W. JOLLY, Florida               
  STEVEN M. PALAZZO, Mississippi        

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
                     Colin Samples, and Taylor Kelly
                            Subcommittee Staff
                               ________
 
                                  PART 6

                                                                   Page
  Federal Bureau of Investigation...........................          1
  Inspectors General (DOJ, Commerce, and NASA)..............         59

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ________
  
          Printed for the use of the Committee on Appropriations
                                 ________



                    U.S. GOVERNMENT PUBLISHING OFFICE

  96-083                  WASHINGTON : 2015







                     COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey    NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama            MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                     PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho              JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas            ROSA L. DeLAURO, Connecticut
  ANDER CRENSHAW, Florida                DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                  LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                SAM FARR, California
  TOM COLE, Oklahoma                     CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida             SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania          BARBARA LEE, California
  TOM GRAVES, Georgia                    MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                    BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas                 STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska             TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida              C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee      DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington      HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio                   CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California           MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland                  DEREK KILMER, Washington    
  MARTHA ROBY, Alabama                          
  MARK E. AMODEI, Nevada                         
  CHRIS STEWART, Utah                                    
  E. SCOTT RIGELL, Virginia                          
  DAVID W. JOLLY, Florida                           
  DAVID YOUNG, Iowa                                   
  EVAN H. JENKINS, West Virginia                  
  STEVEN M. PALAZZO, Mississippi                    


                William E. Smith, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2016
                               ________

                                         Wednesday, March 25, 2015.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

HON. JAMES B. COMEY, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order. It is a 
privilege to have with us today the Director of the FBI, Jim 
Comey. We are delighted to have you today with us, sir.
    I want to also before we start, though, take a moment to 
recognize our newest member Mr. Palazzo from Mississippi. We 
are delighted to have you with us, Steve. I know we miss Alan a 
great deal. But we are delighted to have you, and very pleased 
to have with us the Chairman of the full committee. Thank you, 
Mr. Rogers, good to have you with us. And Mr. Fattah, we are 
going to go ahead and crank it up.
    This is particularly appropriate today to have you with us, 
Mr. Chairman, because the 9/11 Commission has issued its 
findings this morning and we will talk a little bit about that 
today. But we are privileged to have you with us here in front 
of our subcommittee to present your 2016 budget request. It is 
a very important, complex and critical mission that the FBI has 
to perform. We have on this subcommittee over the years helped 
the FBI fulfill its mission. You are the lead agency in 
domestic anti-terrorism, counter intelligence, national 
security efforts, so a vital law enforcement effort.
    And as you mentioned the other day, once criminals got hold 
of automobiles and could cross state lines and someone could 
hold up a bank in three different states on the same day it 
suddenly made the role of the FBI in fighting crime very, very 
important to the Congress in the 1920s and thirties. And your 
role has only grown over the years, and particularly in the 
light of the 9/11 attacks, the growing danger of cyber crime, 
the ongoing cyber warfare that is taking place invisibly 
against the United States and private industry. Your role in 
fighting human trafficking and financial fraud is just vitally, 
vitally important. And we have a responsibility to help make 
sure that you are able to do your job but also be sure that our 
constituents' hard earned tax dollars are wisely spent.
    So we want to be sure in the budget request that you submit 
today on behalf of the FBI and the President that the 
subcommittee wants to be certain that we have scrubbed your 
budget and done everything we can to make certain that again 
our constituents' hard earned tax dollars are wisely and 
prudently spent. Particularly in light of the tremendous budget 
pressures we face in this very difficult budget year.
    The report that was issued this morning by the 9/11 
Commission, we are pleased to see the progress that the FBI has 
made in transforming itself, in light of the continuing 
challenges posed by terrorism and other global threats. I want 
to particularly thank the members of that Commission, Ed Meese, 
former Attorney General; Tim Roemer, former Congressman; and 
Bruce Hoffman with Georgetown University for their superb work. 
This Commission was put together at the instigation of my 
predecessor, Frank Wolf, and it is comforting to see the 
progress that the FBI has made in transforming itself in light 
of the 9/11 attacks.
    We will be working through some tough questions in today's 
hearing, Mr. Director. And we want to make sure that the 
investments that we make in the FBI have a real impact in 
enhancing national security and reducing crime. We deeply 
appreciate your service to the nation and I would like to 
recognize Mr. Fattah for any comments that he would like to 
make.
    Mr. Fattah. Let me thank the chairman, and thank the 
Director for being with us today. You said recently that we 
have, in every single state the Bureau has active 
investigations around terrorism. And obviously it is a major 
concern given the activities taking place in all parts of the 
world. And part of the big discussion in the 9/11 Commission 
was whether or not, how we kind of recalibrated ourselves to 
deal with these challenges. Because heretofore it was about 
catching people after they had done something wrong. And in the 
case of terrorism it is really a much different approach, where 
you are trying to prevent something catastrophic from happening 
by people who in many instances have no desire to get away. So 
it is a much different, you know, circumstance.
    So it will be interesting as we, you know, talk about, you 
know, cyber crime, which is a big deal, and you know, a lot of 
these other issues. Obviously this is something that from a 
national government perspective the decision of the Commission 
was that we should not have kind of a terrorism only entity, 
that the FBI was quite capable of dealing with this challenge. 
And the Bureau has proven to be. But you have also faced 
criticism from some of the processes that you have had to 
utilize, which in some cases you know the question of whether 
or not people who are espousing ideas but taking no action, you 
know, where the line falls.
    So I will be interested in your comments. Obviously, your 
budget and the appropriations, the committee, as it has in the 
past, will do everything necessary to make sure that you have 
the support needed to protect the country. Because you are 
really not trying to protect the FBI, you are trying to have 
the FBI protect the nation. And so we have a responsibility to 
find the resources. But I will be looking forward to your 
comments on the subjects that I have raised. Thank you, Mr. 
Chairman.
    Mr. Culberson. Thank you. I am privileged to recognize the 
chairman of the full committee, Mr. Rogers from Kentucky.
    Mr. Rogers. Thank you, Mr. Chairman. Mr. Director, welcome, 
and to your staff. I was looking at your resume, your work 
record as a prosecutor. I did that for 11 years myself on the 
state level, state district level, so I commend you for your 
education and your experience in that regard.
    Pardon my raspy throat, I have caught it.
    The chairman rightly said that the FBI has a critical 
mission in protecting the homeland. And frankly the charge of, 
to the FBI, has changed absolutely dramatically over the last 
decade or so. When I first came to Congress in 1981, you know, 
we were focused on catching armed robbers and all of that. But 
now it is such a sophisticated and complicated new charge that 
you have, dealing with counterterrorism, hostile foreign 
intelligence agencies, espionage, domestic and foreign cyber 
threats. Cyber is a new word, now it is a new challenge. And 
then of course the traditional catching of crooks and thieves 
and dangerous criminals here at home, particularly drug related 
and especially prescription pill attacks that CDC says is a 
national epidemic.
    So you have a hefty load. And we are going to try to give 
you what we can afford to help you fight all of these charges. 
And it will not be enough. But there is a limit on what we can 
appropriate. We are confronting an extremely difficult 
budgetary climate here. In fact we are debating today on the 
floor the budget, which is severe and strict. It stays within 
the sequestered levels. So we are not dealing with a lot of new 
money, hardly any.
    It is extremely important for you and others like your 
agency, which relies so heavily on intelligence information, to 
leverage and maximize the partnerships forged at the local, 
state, and even international level to ensure that every penny 
the taxpayer spends is targeted, efficient, and effective. In 
fact last week I visited with the Interpol headquarters over in 
France, had my second visit with them. And in the last several 
years that agency has grown.
    When I was there the first time ten or 15 years ago, the 
difficulty I saw at that time, that our agencies over here were 
not participating in Interpol as they should. Now they are. And 
it is imperative that we continue that work with Interpol, as I 
am sure you will agree.
    You have been taking strides in recent years to streamline 
and optimize your intelligence components. But I think we can 
all agree that much work is still to be done there. Last year 
you requested and we granted permission to restructure the 
FBI's intelligence program to more seamlessly integrate 
intelligence and operations. And I hope you can provide us with 
an update on those efforts in a minute. Particularly as we all 
begin to assess the report evaluating the FBI's implementation 
of the 9/11 Commission recommendations.
    Finally I want you to provide the committee with some 
information about how the Bureau is working to combat the 
threat of homegrown domestic extremism. ISIS has demonstrated 
very sophisticated recruiting techniques through the internet 
and social media. And by some accounts as many as 20,000 
fighters have traveled from 90 different countries to fight in 
Syria, including some 150 I understand from the U.S. that we 
know about.
    It is imperative that we work to prevent the radicalization 
and recruitment of American citizens who could later return to 
the U.S. and cause us harm. And I know the FBI has an important 
role to play in that regard. We would like to hear about it.
    So Mr. Director, thank you for your work and your career, 
and we thank you for your dedication to your country, and your 
service to your country, and all that you command. Thank you, 
Mr. Chairman.
    [The information follows:)
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Culberson. Thank you, Mr. Chairman. Director Comey, I 
really appreciate, as the chairman said, your service to the 
country. Thank you for being here today. And we will of course 
submit your written testimony in its entirety as a part of the 
record, without objection. And welcome your testimony today, 
sir. And to the extent you can summarize it, we would be 
grateful. And again, we look forward to hearing from you, sir. 
Thank you.
    Mr. Comey. Thank you, Mr. Chairman, Mr. Fattah, Chairman 
Rogers, members of the committee. I will be very brief. I want 
to start by thanking you for your support of the FBI over many 
years.
    The FBI's budget request for 2016 is about maintaining the 
capabilities you have given us, which is mostly people. The 
magic of the FBI is its folks. Over sixty percent of our budget 
goes to agents, analysts, scientists and surveillance 
specialists. And my goal for 2016 is to be a good steward of 
the taxpayers' money, because I know the kind of times we face, 
and sustain that capability.
    We have asked for two small enhancements, one that relates 
to cyber and the other that relates to our effort to integrate 
our systems better with the rest of the Intelligence Community. 
Each of those is about a $10 million request. But we are about 
sustaining what you have already given us. And you have 
supported the FBI in ways that we are extremely grateful for.
    The threats that we face and are responsible for protecting 
this great country from are well known to this Committee and 
you have alluded to them in your remarks. Counterterrorism 
remains our top priority. The counterterrorism threat has 
changed dramatically since I was Deputy Attorney General in the 
Bush Administration. They have actually changed in the 18 
months I have been on this job.
    The shift has been the growth of the group that calls 
itself the Islamic State from a safe haven in Syria and 
portions of Iraq. They are issuing a siren song to troubled 
souls to travel to the so-called caliphate to fight in an 
apocalyptic battle, as they have styled it. Or if you cannot 
travel, kill someone where you are. And that siren song 
increasingly goes out in English. It increasingly goes out on 
social media, and reaches into our country where it is consumed 
by people who are very hard for us to see because they are in 
their basement. They are in some space that we do not have 
visibility into consuming poison, and either deciding whether 
they want to travel or whether they want to harm somebody here 
at home.
    Increasingly the focus of this threat is on people in 
uniform. This week we saw ISIL calling for harm to be brought 
to over 100 members of our military services. And so the threat 
we face is global. It moves at the speed of light. And it is 
increasingly difficult for us to see because it goes through 
the complex spider web of social media.
    We spend all day every day worrying about this and working 
on it. To answer Mr. Fattah's question, yes we focus an awful 
lot on trying to find those needles in our 50-state haystack 
who might be radicalizing and responding to this poison, and 
either planning to travel or planning to do harm here at home. 
We have investigations focusing on these people we call 
homegrown violent extremists in all 50 states. Until about a 
month ago, it was 49 states--no Alaska. That has changed. We 
have got all 50. And that is no cause for celebration. But we 
are working with our partners in state and local law 
enforcement and in the rest of the Intelligence Community to 
find these people and disrupt them.
    Counterintelligence has been mentioned. A lot of folks tend 
to think the spy game is a thing of the fifties, sixties, or 
seventies. It is alive and well. That threat comes at us 
through human beings and through the internet. Nation state 
actors are trying to steal what matters to this country and we 
are about trying to prevent that.
    And then you mentioned our criminal responsibilities. We 
are responsible for protecting children in this country, 
protecting people from fraudsters, protecting people from the 
ravages of drug abuse and drug dealing, and violent crime. And 
I have got folks all over this country, in 56 field offices, 
and in nearly 400 total offices, doing that work every single 
day.
    And a word about cyber. Every single one of the threats I 
mentioned increasingly comes at us through the internet. Mr. 
Chairman, you mentioned the modern FBI in a way was born with 
the great vector change of the 20th Century. The automobile and 
asphalt made it necessary to a breathtakingly fast criminal 
element, 50 miles an hour, 60 miles an hour. We now face a 
vector change that dwarfs that. Because Dillinger could not do 
1,000 robberies in the same day in all 50 states from halfway 
around the world. That is the threat we face through the 
internet. It moves at the speed of light. Everybody is next-
door neighbors to everybody else on the internet.
    So we are working very hard to make sure that my criminal 
investigators, my counterintelligence investigators, my 
counterterrorism operators, and all of our international 
operations are growing our ability to be good in cyberspace. 
Because to protect kids, to fight fraud, to fight everything we 
are responsible for, we have to operate there. So that is about 
people, training, technology, and smart deployment.
    I will mention one thing that most folks do not know much 
about. I had a chance to visit our facility down in Alabama. 
Most people do not realize the FBI trains all the nation's bomb 
techs and we do that down at the Redstone Arsenal in Alabama. 
And we also spend time there building the world's greatest 
library of improvised explosive devices. Another thing the 
American people do not realize their hard earned tax dollars 
have bought, and it is worth the money. We now have the ability 
when a device is detonated or found anywhere in the world, to 
compare the forensics of the tool marks, the hairs, the finger 
prints to thousands of samples we have collected in the 
operation called TEDAC, which is also centered in Alabama. Work 
that is kind of hidden from the taxpayers, not intentionally, 
it just doesn't get a lot of headlines, but makes a big 
difference.
    And then I will close, with what Chairman Rogers 
mentioned--state and local partners. They are essential to 
everything we do. I have been to all 56 field offices and I 
have met with sheriffs and chiefs in all 56 to build those 
relationships. And I do something else, which I think every 
member of a family, like the law enforcement family, should do. 
When an officer is killed in the line of duty, I call that 
sheriff or that chief to express our condolences and offer 
help. I make way too many calls.
    I have had three officers killed in this country, two 
yesterday, another one earlier this week. Totally different 
circumstances; Navajo Indian Reservation; Fond du Lac, 
Wisconsin; and San Jose, California. Except united by the fact 
that they were all murdered by thugs and they are people who 
certainly did not deserve that and leave behind families. I 
mention this because it leaves me today with a heavy heart. And 
we are having important conversations in this country, 
especially about race and policing which I am a huge fan of 
having. But I am keen to make sure that when we have 
conversations about law enforcement, we understand what is at 
stake and the sacrifices made by the men and women in law 
enforcement, and the kind of people who sign up to do this sort 
of work. And especially today with the loss of so much life 
just in the last 24 hours, it is on my mind. So I thought I 
would mention it.
    But I will close with thanking you for your support. The 9/
11 Review Commission, as we told the world today, released 129 
pages of their report. We declassified as much as we possibly 
could. And their message is, you have done great. It is not 
good enough. And that is exactly my message to the FBI. I said 
that is what it means to be world class. To know you are good, 
and never, never be satisfied with it.
    So we have made a lot of progress in transforming our 
intelligence capabilities. We still need to go farther. And the 
American people deserve us to be even better than we are today. 
And my pledge is, I have eight and a half years to go, and I 
will work everyday to make us better. So thank you for your 
time.
    Mr. Culberson. Thank you, Director Comey. I think it is 
especially appropriate you remind us all to keep your officers 
in our prayers. And our hearts go out to the families of those 
three agents who lost their lives. And that is something that 
all of us I know keep in the forefront of our mind, the 
sacrifice, the risk that all of you take in protecting us and 
the country from these incredibly complex and varied threats.
    It is also apparent in this new era, the scale of the 
problem is so huge that you really do have to rely obviously on 
state and local authorities. It is a team effort. And the 
genius of America is, the founders envisioned a system where 
protecting lives and property, police powers, is vested 
originally in the states, and in the good hearts and common 
sense of individual Americans. So there is also a vital role I 
think for individual Americans to play in helping defend the 
country. It is really the most important role quite frankly 
since one thing our enemies will never be able to defeat is the 
good hearts, the good common sense of individual Americans 
defending their families, their homes, their neighborhoods, 
their communities. The work that our local police and sheriffs 
and state police officers do is just indispensable and that 
partnership with you is vital and I appreciate very much you 
mentioning it to us today.
    And the evolving threat that we face was important 
motivation of course behind Chairman Wolf's amendment to create 
the 9/11 Commission, which released its unclassified report 
today. As I mentioned, former Attorney General Ed Meese, 
Congressman Tim Roemer, and Bruce Hoffman were authors of the 
report and I appreciate you mentioning it in your opening 
testimony.

                         INTELLIGENCE ANALYSTS

    One of the key recommendations they made that I know you 
have already begun to do and wanted to ask you to elaborate on 
a little more is the vitally important role that intelligence 
analysts play in the new world the FBI now confronts. And could 
you talk a little bit more about the work that you are doing to 
implement the recommendation of the 9/11 Commission to 
professionalize the intelligence analyst position within the 
FBI?
    Mr. Comey. Yes, thank you Mr. Chairman. The FBI did not 
have an intelligence career service as recently as 13 years 
ago. And so we have made great progress, but transforming an 
organization and creating an entirely new element to the 
organization, I believe, is a generational project. And Bob 
Mueller spent a decade on it.
    I announced as soon as I started, I was going to spend my 
decade pushing on that same change. Because it is about 
attracting great talent, training them and equipping them 
right, but it is also about having the rest of the organization 
accept them and learn to work well together with them. And we 
are doing that extremely well in some places, other places not 
so much. And so what I am doing is a bunch of different things; 
but I am training our leaders on what effective integration 
between operations and intelligence looks like.
    I am making it a personal priority so that I review monthly 
a series of projects to drive that forward. I grade our leaders 
on it and I am working very hard to make sure that people 
understand that this is something the FBI has always done. We 
have always been in the intelligence business. This is about 
making us better. It should not be a threat to anyone. It is 
about making this great organization better.
    So it is one of my three personal priorities at the FBI, to 
make sure that I drive that integration between intelligence 
analysts and our operators, particularly our special agents, 
and make it good everywhere in the United States.
    Mr. Culberson. And in particular in making the analyst 
positions, moving them into senior management level. Making 
sure they are integrated as far as possible, into your career 
service and in senior management positions?
    Mr. Comey. Yes, sir. One of the things I did again with the 
support of this committee when I started is create a separate 
Intelligence Branch. So the leader of the Intelligence Branch 
was much closer to me, I could see that person and drive it. I 
appointed a very talented Special Agent to that role. But I 
said I love him as a person, do not like him as a concept. 
Because that role should be someone who came up through the 
intelligence career service. And I have got talent coming up 
towards that but I will not know that we have made material 
progress until the Intelligence Branch is led by an 
intelligence career service professional.

                        FIVE-YEAR STRATEGIC PLAN

    Mr. Culberson. Talk to us if you could also sir about the 
panel's recommendation that the FBI adopt a five-year plan like 
the Defense Department, a strategic plan, and your work to 
implement that recommendation? And do you agree with the 
concept?
    Mr. Comey. Yes, that is one I told the Commissioners I need 
to give more thought to. I do not want to create plans just for 
the sake of creating five-year plans. I have been at a lot of 
institutions where people spend a lot of time writing them and 
then they sit on a shelf. We have got all kinds of plans in the 
Bureau. What I promised to do is go back and figure out whether 
there is a missing overarching strategic plan that ought to be 
written covering a five-year period. And so I told them I would 
get back to them on that. I do not know yet whether that makes 
sense for me.

                          INFORMATION SHARING

    Mr. Culberson. The Commission also wanted to be sure that 
we recognized and point out to the public that your information 
sharing with state and local police departments and law 
enforcement authorities is a good news story. Talk to us a 
little bit more about that.
    Mr. Comey. Yes, that is a very good news story. We have, I 
think, broken down a lot of the barriers, both technological 
and regulatory policy between us and state and local law 
enforcement we share information with. Most of all, the culture 
has changed. We now lean forward and push things out as a 
matter of reflex, which is so great to hear.
    I ask about it everywhere I go in the United States, all 50 
states. I say how are we doing to the sheriffs and the chiefs, 
and the answer is you are doing extremely well. We have seen a 
dramatic change. And it is the right thing to do but there is 
also a very practical reason, we need these folks.
    Our joint terrorism task forces are made up predominantly 
of state and local law enforcement that contribute their talent 
to us. So I do think that is a good news story. But as I have 
said to folks, look, I have a great marriage but I believe I 
can always find a way to be a better spouse. We have a great 
relationship with state and local law enforcement. I want to 
continue to try and improve that if we can.
    Mr. Culberson. Yes, I am confident that the first time we 
are going to spot someone who has come here to do us harm from 
overseas, a terrorist, it is going to be an average American, 
using their good judgment and their instincts to spot something 
peculiar and/or a local police officer or a local sheriff 
having spotted something that just their instincts as a good 
law enforcement officer tells them is out of place and wrong. 
So it is a good story. And frankly the entire 9/11 Commission 
recommendations, it is very encouraging to see that the sum of 
what they have sent the Congress in the unclassified version 
and the classified version is a good news story for the FBI, 
that you have done a good job in responding to 9/11. And we 
appreciate that very much, sir. Let me recognize Mr. Fattah.
    Mr. Fattah. Thank you. When I became ranking on this 
subcommittee one of my first visits was out to the Center for 
Missing and Exploited Children, which is one of the places 
where you do joint operations looking for children. And the 
Innocence Lost Project, which the committee has supported, you 
have now been able to rescue some 4,350 children. But as you 
know there are thousands and thousands of children who are 
missing, many of whom are being exploited in all kinds of 
terrible circumstances. So as, you as the Director, you have to 
prioritize, you know, where are you going to place you said 
your greatest resource are your people, your agents, right? You 
have got, you know, I have also been out to the Joint Terrorism 
Screening Center. There is very important work going on there. 
You have to make these decisions about whether somebody is 
tracking down a child who has been exploited, whether somebody 
is looking after, you know, chasing down a terrorist, and so 
on. Could you just share with us as you are working through 
these issues how you have prioritized this under your 
leadership?

                          PRIORITIZING EFFORTS

    Mr. Comey. Yes, thank you Mr. Fattah. The work involving 
kids, by the way, is some of the most important and meaningful 
that we do. As the father of five I have gone out and visited 
NCMEC. I have gone and met with all of my folks who do this 
work and told them there is nothing with deeper moral content 
than that work. And I tell them that I want you to take care of 
yourselves, because I worry that it eats my people up.
    But the way we approach it generally is--this is kind of a 
homely metaphor and I was not a football player but I am a 
football fan and I view the FBI like a safety in football. We 
have certain assigned coverages, right? Counterterrorism, 
counterintelligence, non-negotiable, every game, every 
opponent, that is our responsibility. But beyond that, what I 
want to do is look to the primary line of defense and say 
``where do you need us in this game?'' Do you need us in the 
flats? Do you need us over the middle? Should we play run 
support? Should we play deep? That is going to be different in 
every game against every opponent.
    And so the way the metaphor works is, I have told my 
Special Agents in Charge, in the cities in which you operate, 
figure out where we can make a tackle. Right? I do not want to 
jump on piles where people have already been tackled. I do not 
want to be speared in the back. But figure out where we are 
needed, right? Because we are a big agency but we are small 
compared to state and local law enforcement. So figure out 
where they need us to make a tackle.
    And that is institutionalized in a process we call Threat 
Review and Prioritization. It is a very disciplined and very, 
very complicated process where we figure out what threats to 
the United States we are needed to make a tackle on. And in 
Philadelphia where are we needed, in Phoenix where are we 
needed, and in Birmingham where are we needed? And then we come 
up with an annual list.
    Mr. Fattah. Well you mentioned, you know, that the taxpayer 
may not know about the explosive bomb detection training you do 
in Alabama. I do not think most Americans have any idea that 
thousands of children go missing every week in our country. And 
some of them end up in circumstances in which they are 
exploited for years, you know, on the internet and in other 
ways. And so, you know, if you have got, and you mentioned the 
officer who was shot this week and killed in Wisconsin by a 
suspect in a bank robbery. One of the things you do is you 
chase bank robbers, right? So somebody, and it was a special 
agent in charge, says, you know, we are going to go after bank 
robbers, or we are going to go after this little girl who is 
being exploited. And you know, and making very tough decisions 
with limited resources. And I am just trying to understand, 
because we have to make decisions about what we are funding, 
you know, how are you making these decisions? And none of them 
are, you know, I mean, none of them--I guess you would want to 
do it all but you have got to decide.
    Mr. Comey. Well, the way in which we make a decision is sit 
down and talk to people like NCMEC; talk to social services 
agencies; talk to law enforcement and say, ``Okay, I am the 
Special Agent in Charge in Philadelphia. Who is doing what to 
address that problem here?'' Given that, I would rank my 
priorities,'' and align my resources against it according to 
where it fits on the priority level.
    We do the same thing at the national level. In Washington, 
we sit there and say, What are the bad things that could happen 
in the United States that the FBI might be able to help with? 
Not to be depressing, but there are 304 bad things. Then we 
say, Okay, given who else is helping with those bad things and 
the harm that flows from those bad things, how would we rank 
them? And then we do that and come up with a national threat 
ranking of all the threats we could face; it is imperfect, but 
it is a way in which we try to balance it.
    Mr. Fattah. Right.
    Mr. Comey. We do the work you are talking about in every 
field office.
    Mr. Fattah. And the chairman mentioned--the chairman of the 
full committee mentioned Interpol. You know, Ron Noble, who is 
a friend of mine, runs the Interpol and he has been doing a 
terrific job. The Europeans have something magical going on 
because they can make arrests and prosecutions throughout these 
28 countries with no extradition and none of these other 
issues. They kind of have a seamless system that we cannot do 
state to state, I mean, in America, which is interesting, that 
I have been able to jump over language and sovereignty issues 
and nationalities to work law enforcement in a much more 
seamless way. It is something that we can learn, I think, as we 
go forward.
    Thank you very much, and thank you, Chairman.
    Mr. Culberson. Thank you, Mr. Fattah.
    Chairman Rogers.

                           FBI TRANSFORMATION

    Mr. Rogers. The biggest change that I have seen in my 
experience, as far as the FBI is concerned, over the years has 
been the graduation from investigating already-committed crimes 
and preparing evidence for prosecution and then there is 
today's world where you are working more in preventing, trying 
to prevent events, including crime, before it takes place; 
counterterrorism, trying to prevent terrorism; trying to keep 
spies away; the constant barrage of cyberthreats, foreign and 
domestic; prevention, rather than prosecution, although it may 
eventually may be prosecution. That is a significant change, 
and it has taken an effort on the part of the FBI leadership 
over these last few years to try to get it through the agency's 
head about this new world in which we live and the mission of 
the FBI, more in prevention, actually, than prosecution.
    Do you agree with that?
    Mr. Comey. Very much. The transformation that is happening 
in the FBI is one from a place where we were criticized with 
some justification for working our in-box. A call came in, we 
responded to it, and we investigated it. Now we step back and 
have lots of thoughtful people say, ``So what are the bad 
things that are going on here that might happen and how do we 
find out more about them so we can address it before it 
happens?'' And that is the intelligence transformation.
    I am the director of the FBI and I say this with pride: I 
think we are the best in the world at finding stuff out. What 
we are getting much better at is being thoughtful about what 
stuff we need to find out, who else needs to find out the stuff 
that we found out, and what might we not know; what stuff are 
we missing, and being much more thoughtful about that. That is 
taking the intelligence talent and connecting it to the great 
talent resident in my Special Agents.

                     RECRUITING OF FOREIGN FIGHTERS

    Mr. Rogers. Well, and the current world war, frankly, the 
war of terrorism and violence is a worldwide event, so we are 
in a world war. And we are up against a very sophisticated, 
capable enemy. The recruiting of foreign fighters into Syria 
and Iraq, we have not found a way yet, in my opinion, to 
effectively stop or even slow it down. And it is more than a 
law enforcement and it is more than an FBI mission, but it 
certainly is an FBI mission.
    But just last week we learned about a 47-year-old Air Force 
veteran who tried to join ISIS, and before his apprehension, 
Tairod Pugh worked for a number of American firms overseas, 
including a U.S. Defense firm, in Iraq for whom Pugh performed 
avionics on U.S. Army aircraft. We have had several stories 
like that, that have appeared. Is there a magic bullet to try 
to get at that kind of a problem that the FBI can do?
    Mr. Comey. Yeah, there is not a magic bullet. To us, it is 
about a full-court press, making sure that we have sources 
where we need them to be; that we have both the know-how and 
the technical capability to play in the online space where they 
are meeting and recruiting and radicalizing; and that we are 
closely connected to state, local partners--I agree with the 
chairman, they are far more likely to hear about a guy thinking 
about leaving the community and going to Syria--and that we are 
connected with our intelligence partners and our foreign 
partners who are tripwires for us.
    What happened with that guy is the Egyptians spotted him 
when he was sent back from Turkey, alerted us, and then we were 
able to lay hands on him.

                       PRESCRIPTION DRUGS/HEROIN

    Mr. Rogers. We switch completely to the prescription drug 
problem which has been devastating in my part of the state and 
the country, particularly Oxycontin, but now that we are 
beginning to make a dent in the pill mills, closing them down 
in Florida and Georgia and other places and finally getting FDA 
to change the formulation of drugs like Oxycontin to make them 
non-abused, a lot of the country shifting to heroin, and the 
drug cartels in Mexico, I am hearing, are now getting into the 
pill business because of the enormous profits there.
    What can you tell us about that?
    Mr. Comey. I think you have identified something that does 
not get the attention that it deserves. DEA, obviously, has the 
lead here, but we do a lot to support them, so I know a fair 
bit about this. We see the Mexican traffickers increasingly 
shifting to heroin, white heroin--it used to be that brown 
heroin was coming out of Mexico--white heroin is highly pure, 
and is being pushed into the United States to gain market 
share. So what is happening is, as you said, Mr. Chairman, it 
is supplanting pill abuse because it is cheaper, easier to get, 
and it is extraordinarily deadly. The people using it--sounds 
like an odd thing to say--do not know how to use heroin, do not 
realize it is 93, 97 percent pure, and so kids and adults and 
people of all walks of life are dying all over this country. 
And as I travel the country, I see it sweeping south and west.
    When I became the FBI director 18 months ago, I heard about 
it a lot in the Northeast and the North Central; now I am 
hearing about it everywhere I go. For economic reasons, it is 
cheap and the traffickers are pushing it in. So we are spending 
a lot of time to work, again, with DEA and our local partners, 
to disrupt the traffickers to impose costs on them so we can 
shorten the supply and then drive the price up so we do not 
have the--I think there were 6,000 deaths from heroin overdoses 
or more in the United States last year--so we can push those 
numbers of tragedies down.
    Mr. Rogers. Well, still, more people are dying from 
prescription pill abuse than from car wrecks. So even though a 
part of the country is switching to heroin, the pills are still 
a problem in a big part of the country.
    Mr. Chairman, I have abused my time.
    Mr. Culberson. Not at all. Not at all.

                             CYBER THREATS

    Mr. Rogers. Quickly, and finally, cyberthreats, where are 
we?
    Mr. Comey. Cyber is a feature of every threat that the FBI 
is responsible for. I describe it as an evil-layer cake. At the 
top level we have nation-state actors who are looking to break 
into our corporate systems and our government systems to steal 
all kinds of information for their commission advantage or for 
their intelligence advantage. Then we have organized criminal 
groups, very sophisticated hackers looking to steal Americans' 
information for criminal purposes. Then we have all manners of 
thugs and criminals and pedophiles down below, and the reason 
is obvious: Our lives are there. My kids play on the Internet. 
It is where we bank. It is where health care is. It is where 
our critical infrastructure is. So those who would do harm to 
children or money or credit card information or our banks or 
our critical infrastructure, that is where they come.
    So, there is not a single cyberthreat; it is a feature of 
everything that the FBI is responsible for. The bad guys have 
shrunk the world, right, because Belarus is next door to 
Birmingham on the Internet, and so we are working very hard to 
shrink it back. I can forward-deploy my cyber experts to make 
the globe smaller so we can impose some costs. Because right 
now, everybody thinks it is a freebie to steal Americans' 
information. We have to impose costs on these people, so even 
though they are in their pajamas halfway around the world, they 
are afraid to break into an American's life and steal what 
matters to us.
    Mr. Rogers. Do we have absolute evidence, absolute proof 
that these attacks, many of these attacks are from states?
    Mr. Comey. Yes.
    Mr. Rogers. Countries?
    Mr. Comey. Yes.
    Mr. Rogers. Governments?
    Mr. Comey. Yes.
    Mr. Rogers. Military?
    Mr. Comey. Military intelligence.
    Mr. Rogers. Russia?
    Mr. Comey. Russia is a significant player in cyber 
intrusions, as is China, obviously, two huge operators in that 
world.
    Mr. Rogers. We have proof that Russia and China and other 
Governments are attacking our country's cyber information 
databases?
    Mr. Comey. Yes.
    Mr. Rogers. What are we doing about it?
    Mr. Comey. Well, a lot of different things, only some of 
which I can talk about here. One of the things that we are 
trying to do is name it and shame it. We did it last year by 
indicting five members of the People's Liberation Army and 
publicizing them on posters indicating they were stealing 
information from American companies, stealing our innovation.
    And people say, well, indicting them is not going to do any 
good, you will never catch them, and I always say, we have more 
flaws at the FBI because we are humans. We are dogged and never 
say never. People like to travel, like to have their children 
educated in the United States or Europe. Never say never. We 
are trying to impose costs, and part of the costs, though, is 
the naming, the calling it out. The Chinese are stealing our 
innovation, our ideas, our creativity, our jobs.
    Mr. Rogers. In fact it was this subcommittee, Frank was the 
chairman many years ago, who first brought attention to foreign 
governments hacking into his files and he sort of led the way, 
but, boy, it has come a long way, and I am not satisfied at all 
that we are doing what we need to do to try to stop it or 
counteract it.
    Thank you, Mr. Director.
    Mr. Comey. Thank you, Mr. Chairman.
    Mr. Culberson. Mr. Chairman, I think it is a top priority 
for us on this subcommittee, of keen interest to all of us in 
the Congress, but of particular interest to me in the work that 
you have done. I have had a chance to come out and hear some of 
the work in a classified setting; it is very impressive.
    What advice could you--before we move on to Mr. Honda--very 
quickly, just, if you could, tell the American public out there 
listening just some good basic rules to protect themselves, 
good hygiene practices against cyber attack on their own 
computers or smart phones at home.
    Mr. Comey. Folks should exercise the prudence wandering 
around the electronic neighborhood that they would wandering 
around any other neighborhood. I have tried to train my 
children on this, when they cross a parking lot at night in a 
shopping mall, they are alert. They are thinking about where 
they are going. They are walking a certain way. They lock their 
car. People should behave the same way on the Internet. It is 
actually a bigger neighborhood, a bigger parking lot.
    Mr. Culberson. And more dangerous.
    Mr. Comey. And in some ways, more dangerous.
    And so what I tell folks is very simple: An email is a 
knock on your front door. Opening the attachment to an email is 
opening your front door. You would never open your front door 
without looking through your peephole and seeing what is there, 
but all the time folks get an email, they open the attachment 
and their whole life can be stolen in that moment.
    And also know where your children are. You know where your 
children go to play, right? At least I do. Folks need to know 
what their kids are doing on the Internet; where are they 
going; who are they interacting with? It is the kind of 
parenting and common sense that we seem to exercise in all 
aspects of our life, except when we are sitting at a keyboard, 
which makes no sense at all because we just made the entire 
world our neighbors when you are behind that keyboard.
    Mr. Culberson. And I heard your wonderful analyst tell us 
at a hearing in a classified setting we had, Mr. Chairman, with 
some of your cyber folks, that 80 percent of protecting 
yourself against a cyber attack is good hygiene, like washing 
your hands after a meal or some of the basic things that you 
have just mentioned to us. Thank you, Director.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    And, Director Comey, thank you for coming in today to 
testify before the subcommittee.
    As you know, a key tool in combatting crime is the use of 
Combined DNA Index System, better known as CODIS, and CODIS 
blends forensic science with computer technology to accurately 
identify suspects and assist in a successful prosecution of 
criminals.
    Last year's budget hearing, I brought up the nationwide 
backlog of untested sexual assault kits, which was around 
500,000. Shortly after that hearing, Alameda County District 
Attorney, Nancy O'Malley, and your office began discussions 
about the backlog that occurs prior to the upload of CODIS. And 
I am pleased that the FBI laboratory staff have met with the DA 
several times regarding a pilot project that may facilitate the 
CODIS upload of DNA profiles linked to suspects of accused 
sexual assault crimes.
    And having said that, I just want to add, also, my thanks 
to the past chairman, Frank Wolf, who really carried us and 
helped us see it entirely through.
    The fiscal year 2015 CJS appropriation bill included $41 
million for just the first point of the backlog in police 
evidence rooms, and I am hopeful that will continue to program 
in fiscal year 2016, and I am aware that this is outside your 
purview, but I wanted you to know that we are committed to this 
issue. Alameda County in my district has been out in front on 
this issue and I encourage you and your staff to continue to 
work with them on the pilot project that will focus on another 
point of the backlog, that is the technical review by 
government labs of a private lab's work upload to CODIS.
    I would like to now turn to how the second point of the 
backlog can be addressed. Namely, the implementation of rapid 
DNA instruments in the police booking stations. And I am a firm 
believer that having an arrestee sample tested quickly by a 
rapid DNA instrument while that arrestee is still in the 
booking environment, that will reduce the burden on government 
labs, and I am hoping that you will be able to continue, 
because I raised this issue last year, as well.
    And I know that the FBI is supportive of rapid DNA 
technology, but since last year's budget hearing, tell me about 
what problems has been made to amend the law, protocols and 
policies to allow the use of rapid DNA instruments in police 
booking stations and once the relevant requirements have been 
amended, what is your approximate timeline, assuming it has 
been amended, for implementing the rapid DNA instruments in law 
enforcement agencies booking stations?

                    COMBINED DNA INDEX SYSTEM--CODIS

    Mr. Comey. Thank you, Mr. Honda, and thank you for your 
continued focus on the rape kit backlog. There are rapists out 
there who will victimize more women and the key to stopping 
them sits on the shelves in a whole lot of police departments, 
and so I appreciate your focus on that, and I promise that we 
will remain focused on it, as well.
    With respect to rapid DNA, you are right, we are big fans 
of the idea of the capability being in booking rooms, that a 
sample can be taken when someone is arrested and uploaded to 
CODIS immediately. I have talked to my DNA experts. They have 
continued to work with the companies--it is a private-company 
enterprise, as you know, making these devices--to give them 
guidance on what will be needed to make it able to connect to 
our database in a way that preserves the sterling reputation of 
our database.
    My folks tell me there are all kinds of challenges around 
making sure we have the right software and the right hardware 
to connect the devices, but good progress is being made. They 
think we are probably two to three years away, though, from 
being at a place where this is a common feature, even in our 
biggest cities. I understand that it does require legislative 
authorization. I do not know exactly sitting here today where 
that sits inside the Executive Branch. I think perhaps with the 
Office of Management and Budget being looked at for privacy 
reasons, but both are marching along at the same time, the 
technical fix and the legislative fix; that is my understanding 
today.
    Mr. Honda. Okay. Because we have to understand that there 
are 500,000 kits that have been used, 500,000 cases that are 
being left without the great evidence that DNA will provide, so 
victims and arrestees are at bay in order to get their justice, 
and I think the quicker we move and be able to implement this, 
then we can reduce these backlogs and have people really enjoy 
the benefits of our technology, but also our rapid response to 
justice.
    Mr. Chairman, if I may just indulge with one quick 
question? I just wanted to thank you very much for adding to 
the FBI training manual, which will include the guidance, just 
as law enforcement identifying and reporting hate crimes 
directed at Sikhs, Arabs and Hindus, and I think that is going 
to be able to produce a great deal of information. I do have a 
concern, though, about the comment that you had made last month 
on race policing. You said that it is ridiculous that I cannot 
tell you how many people were shot by the police last week, 
last month, last year. It may be taken out of context, but that 
was the quote. So, as I understand it, currently, police 
departments can on a voluntary basis, report incidents to the 
data that the FBI keeps on justifiable homicide. This, however, 
is problematic, according to one Justice Department 
statistician who was quoted in a news article said that the 
FBI's justifiable homicide and estimates from arrested-related 
deaths both have significant limitations in terms of coverage 
and reliability that are primarily due to agency participation 
in regard to this issue.
    Could you discuss what the situation is currently with 
voluntarily reporting and what approaches we could take to get 
better data on--since it is a very high level problem of public 
notice.

                     JUSTIFIABLE HOMICIDE REPORTING

    Mr. Comey. I agree very much, and it was not out of 
context. I think it is ridiculous that I cannot tell you with 
any confidence how many people were shot by the police in any 
period of time--yesterday, last week, last year--because we do 
not have uniform reporting that is universal. We have 17,000 
police departments in the United States and they are not all 
reporting to us violent encounters with suspects, so I do not 
have any confidence in my data.
    And what I meant was I think it is ridiculous that I can 
tell you how many books were sold on Amazon and how many people 
went to the hospital with the flu last week, but we do not have 
data. So every conversation about police encounters with 
citizens is, by definition, uninformed in this country, and 
that is a crazy place to be.
    It is a voluntary system and it requires the support of 
local and state law enforcement, and so I am working with the 
sheriffs and the chiefs who all agree with me, to give us this 
data. What do you need for us to be able to help you give the 
data? We are going to be talking to Congress I think more down 
the road about are there incentives that Congress could offer 
to have folks give us the data, but we are not in a good place 
now, and it is one of the things I am trying to do, after the 
speech I gave, to try and improve the records.
    Mr. Honda. Perhaps through our good chairman, we might be 
able to look at this and see if we can be of assistance to help 
the FBI to acquire this information because voluntary reporting 
of police shootings, it just does not seem to be acceptable, 
essentially in today's environment and the kinds of things that 
we know what is going on and what is not going on in our 
country right now.
    Mr. Culberson. We will explore that and also the level of 
violence police officers encounter every day in their difficult 
and dangerous work on our behalf.
    Let me recognize the State of Mississippi and our newest 
member, Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    And before I get into questions, I would briefly like to 
express my gratitude and appreciation to the Appropriations 
Committee and the Members of Congress for allowing me to serve 
in the seat of our friend and colleague Alan Nunnelee held. I 
know everyone who knew him was heartbroken of his passing, and 
although I do not believe his shoes can be filled, I hope to 
serve this Committee with the best interests of the United 
States in mind, just as our good friend Alan did for four 
years.
    With that said, Director Comey, I appreciate your being 
here and I appreciate the sacrifices that your people and the 
magic in your agency, as you so eloquently said, provides for 
our security and protection here at home, and I am sorry for 
your loss, too, as well as the three FBI agents. We, too, have 
lost a U.S. Marshal, Josie Wells, in the past month, and he was 
from south Mississippi, and it was in the line of duty and he 
left a wife and unborn child to carry on his legacy. So we know 
what you all sacrifice day in and day out and some of the best 
people in the world serve in our law enforcement. I would like 
to follow up real quick on something that Chairman Rogers 
mentioned; he brought up China, and China is something from 
Armed Services and Homeland Security, my former committees, as 
always, have piqued my curiosity. They seem to be aggressively 
building up their military and their space capabilities. And it 
sounded--and I do not want to put words in your mouth--that we 
know China, the government of China is involved in cyber 
attacks on the American Government and American enterprise. And 
so knowing that, and just indicting five individuals to kind of 
expose them and shame them I do not think really works with 
China, since it has the consent of their government.
    So with that, how do we counter these cyber--what would you 
recommend to us on how we counter these cyber threats, both 
internally and externally? And I guess you can focus on China 
or an unnamed country, if you do not want to pound on them; I 
would just like to hear your thoughts.

                            CYBER INTRUSIONS

    Mr. Comey. Thank you. And I should have said--I may have 
misspoken--the three lives that were lost were police officers; 
one state trooper and two police officers. I agree, it does not 
make any difference, it is still great people lost in the line 
of duty.
    With respect to China or any nation/state actor that is 
engaged in cyber intrusion activity in the United States, the 
question about what can be done more broadly about them is one 
that is both beyond the ken of the FBI and one that even if it 
was the FBI's, we would not discuss it in an open forum. But 
what we are trying to do is make sure--our responsibility is to 
investigate cyber intrusions to the United States to make sure 
that our government has a full understanding of who is doing 
what so we can figure out, as a country, what to do about it.
    One of the things that we have been involved in is bringing 
criminal charges against some of those actors as part of a 
toolbox approach to try and change behavior with the Chinese. 
There are a lot of other things that are beyond the FBI, that I 
know have gone on, diplomatic, for example, and it is part of a 
lot of international forums, our government, I know, is working 
to trying to adopt some norms to try to get the Chinese to go 
along with them. But it is my function or the FBI's, to 
understand what they are doing, develop the facts, and then 
show our government, here is what we see.
    Mr. Palazzo. And I understand the cyberthreat is real and I 
think Congress and the American people are recognizing that it 
is real and it is a clear and present danger. I hope that we 
are doing everything that we can, as Members of Congress, to 
provide your agency, as well as others with the resources to 
counter this threat, because it is not just illegally 
downloading music, but it is a huge fear that if they engage in 
some form of cyber attack, that it could, you know, cripple our 
critical infrastructure and the last thing I would want to see 
is the lights go out and your ATM does not work, your 
navigation on your car and your phone, I think it would cause a 
huge amount of panic in our country. You also mentioned 
something about the siren song of the radical Islamists and 
these people you mentioned, we really do not see them, they are 
not obvious to us in the large extent because they are in their 
basements consuming this form of poison. Can you, for lack of a 
better word, profile, what this person would be, and is there a 
certain, you know, something about their demographics that make 
them vulnerable to this poison? Because I agree with you that 
it is a poison and we do not need our young--we do not need 
anybody in America consuming it.

                      FOREIGN FIGHTER RECRUITMENT

    Mr. Comey. In a way, I wish I could. That is one of the 
challenges of this threat. When we talk about travelers, the 
people that we know, who have gone to Syria to hook up with 
ISIL, the ages range from 18 to 62. They are from any part of 
the country, any background. They are or were raised in the 
Islamic faith or are converts--but they may have all different 
kinds of backgrounds, be in all different places in the United 
States, consume this, and develop this view that this is how 
they will find meaning in life. So the one common 
characteristic they have, which unfortunately is not a great 
marker for me finding them, is they are people who are troubled 
souls seeking meaning in life. But there is not a poverty 
marker, right? Some of them have jobs. They just have a 
misguided sense that they need to participate in the 
Apocalyptic battle. Some of them are kind of losers who have 
had trouble with jobs or petty crimes. But there is not a 
particular pattern. We have studied it pretty closely, very 
closely, and searched for the pattern, but so far I cannot 
offer you one.
    Mr. Palazzo. Thank you, Director.
    I yield back. Thank you, Mr. Chairman.
    Mr. Culberson. Following up very briefly on Mr. Palazzo's 
point about China. A back door, a Trojan horse, can be created 
into a computer system either with a piece of software that you 
might be able to detect, or it can be hardwired into a computer 
device, a computer chip, or a piece of telecommunications 
equipment as a piece of hardware, and it is invisible, and you 
cannot see it.
    And the problem is so bad with the Chinese in general, and 
Huawei in particular, and these Chinese owned companies, that 
the Australian government actually just prohibited the purchase 
of any Huawei telecommunications equipment by any governmental 
entity in Australia.
    Let me recognize at this time, Mr. Aderholt, and the State 
of Alabama.
    Mr. Aderholt. Thank you. Mr. Chairman, it is good to be 
here today and for this hearing. Thank you for mentioning what 
we do down in Alabama. We appreciate the way to mention 
Huntsville and also Birmingham.
    I met with the folks, some of the folks, from the 
Birmingham facility just recently and one of things that we 
talked about, and they had mentioned to me was that the new 
iPhone, the new iPhone 6s, have an encryption in it that you 
cannot get into the--they are encrypted and there is no back 
door key.
    And just wanted to know what--and, of course, this is 
different from their predecessors, the other phones you were 
able to get into--what is your--or what is the FBI's position 
on Apple and Google's decision both to encrypt these smart 
phones?

                         SMARTPHONE ENCRYPTION

    Mr. Comey. We have a huge problem for law enforcement--
state, local, and federal--and in national security work. We 
have court process, where judges issue search warrants or 
interception orders, and we are unable to execute on those 
orders because the device is locked or the communications are 
encrypted. And so we are drifting to a place where a whole lot 
of people are going to look at us with tears in their eyes and 
say, what do you mean you cannot? My daughter is missing, you 
have her phone, what do you mean you cannot tell me who she was 
texting with before she disappeared.
    You know, I keep saying to folks, this is a democracy, we 
should never drift; maybe that is where we want to go, but I 
think we need to have a conversation in this country about 
where we are going. I do not want back doors, right? I want, 
with court process, the ability to gather evidence after I have 
shown probable cause to believe on that device there is 
evidence of a crime. The Fourth Amendment is clearly in play, 
and I follow it, and I get authority. We need to discuss if we 
are going to go to a place where we cannot get access.
    So it is a huge feature. Sheriffs and chiefs raise it with 
me everywhere in the country and say, these are important in 
domestic violence cases, child exploitation cases, car wrecks, 
and I do not know exactly what the answer is, but it is 
something we have to talk about.
    Mr. Aderholt. So, you know, you mention about the mother 
shows you the phone and say you cannot get into it, what 
programs had it affected and can you just let us know the 
damage that it has done to the FBI?
    Mr. Comey. Yeah, we have encountered it in drug cases, all 
of our work we have encountered it. I am not in a position 
where I can sort of offer a percentage or a number, but it is a 
feature now, an obstacle, in a huge percentage of our criminal 
investigations and it will only become worse. You know, I have 
heard tech executives say, privacy should be the paramount 
virtue.
    When I hear that I close my eyes and say, try to imagine 
what that world looks like, where pedophiles cannot been seen, 
kidnappers cannot be seen, drug dealers cannot be seen. So I do 
not have a number I can express it as, but I hear it, as you 
have heard it from the folks in Birmingham, I hear it all over 
the country. We are drifting to a place and not talking about 
it.
    Mr. Aderholt. Do you need additional resources to work on 
this, or what can we, as this committee, do or as Congress do 
to try to help you with this?
    Mr. Comey. I think one of the things that the 
Administration is working on right now is, what would a 
legislative response look like that would allow us, again, not 
in a sneaky way but with court process, to be able to get 
access to the evidence. And it is complicated because it 
involves both communications carriers and device makers. I 
think ultimately it is going to require some sort of 
legislative fix that if you want to do business in this 
country, we are about the rule of law, but we do not want to 
create spaces that are beyond the reach of the law in the 
United States, right.
    There is no safe deposit box that cannot be opened with 
authority, there is no car trunk that cannot be opened with 
authority. We are getting to a place where there are these huge 
spaces that are beyond the reach of court authority and I think 
it is going to take a legislative fix.
    Mr. Aderholt. So if I understand you, it is really not a 
matter of resources, it is really just a legislative fix 
overall that really that this needs to be dealt with.
    Mr. Comey. I think that is right. I think we, as a 
democracy, need to figure out so what are the trade offs 
associated with the privacy interests, and what are the public 
safety interests, and how do we reconcile them? It is really, 
really hard, but it is not splitting the atom. I mean, we do 
hard stuff and I just think it is a conversation that we have 
to have.
    Mr. Aderholt. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Chairman Aderholt asked a great question. 
Also, I would love for you to talk to us, very briefly, about 
that court case before the Supreme Court recently where the 
phone was seized in a part of a routine police arrest, and the 
police picked up the phone, and looked at it, and the guy said, 
``You can't look at it.'' Talk to us a little bit about that 
case and what, if anything, we could do, for example, cannot 
Apple see what is on here under a court order? Could you not 
get it from Apple?
    Mr. Comey. No, the iPhone 6 is designed so that Apple is 
unable to unlock it. So it becomes the safe deposit box with no 
second key. The bank cannot get into it, a judge cannot order 
access to it, so it is very, very----
    Mr. Aderholt. Let me add there, if I understand it was 
Apple voluntarily made this decision to fix it so the user is 
able to lock it and they are not able to unlock it.
    Mr. Comey. That is correct. And Apple--I am not trying to 
pick on the folks at Apple or Google--their view is they are 
responding to competitive pressures. People want to have a zone 
of privacy, and so do I, but to have a zone of privacy that is 
outside the reach of the law is very concerning.
    But, Mr. Chairman, with respect to the court case, the 
FBI--our practice has always been to get search warrants for 
devices. That makes good sense to me, especially given that I 
do not have a phone with me, but all of our lives are there. It 
is no longer just a phone, it is a suitcase that is carrying 
your kids pictures, and your documents, and so it was good 
sense to me in the Supreme Court's reasoning that this is 
different than it used to be.
    And so it should have Fourth Amendment implications, and 
that is the way we treat it. If I want to look at your phone, 
without your consent, I will go to a judge, make a showing of 
probable cause, get a court order, and, if I can get the phone 
open, then look at it. The challenge is on our side is our 
inability to access it even with a court order.
    Mr. Aderholt. Great question. If I could follow up one more 
question. Has there been any, that you heard of, there is a 
rumor that Apple has made an agreement with China about this as 
a pre-condition to selling their phones there.
    Mr. Comey. Yeah, I do not know anything about that.
    Mr. Culberson. Thank you. Judge Carter has dealt with this 
quite a bit as a District Court judge and----
    Mr. Fattah. Mr. Chairman.
    Mr. Culberson [continuing]. I'd like to turn to our 
colleague from Texas, Chairman Carter.
    Mr. Fattah. Mister Chairman, You know, there is a way 
forward, right? So if life or liberty is in jeopardy and my 
daughter is missing, I want you to get into the phone. If it is 
a battle that doesn't involve life or liberty, I am interested 
in what the fathers have to say about right to privacy and the 
protections of people's personal papers and so on.
    So you can find our way forward and I think that the 
Director is correct that there may need to be a legislative 
activity that kind of, because the people we represent have 
some interest in privacy, and which is why these companies are 
trying to produce a product that gives them that privacy, but 
we also need to protect public safety. So if there is a 
terrorist who has got a bomb, and you need to track where they 
are via their a cell phone, we want them to be able to do it.
    So, you know, we have to find the wisdom of Solomon which 
is why it is good that the Judge is up next.
    Mr. Carter. You will never get away from me that way. I am 
Chairman of Homeland Security appropriations and serve on the 
defense and the defense subcommittees, so we have all the 
national defense issues with cyber and now serve on this 
wonderful committee, and so cyber is just pounding me from 
every direction. So every time I hear someone say that it pops 
into my head. Because I don't know anything about this stuff.
    If they can do that to your cellphone, why can't they do it 
to every computer in the country and nobody can get into it?
    Voice. Logical----
    Mr. Carter. If that is the case then there is a solution to 
that to the invaders from around the world that are trying to 
get in here. You know, if that gets to be the scope, the law, 
and even the law cannot penetrate it, then are we not creating 
an instrument that is the perfect tool for lawlessness?
    This is a very interesting conundrum that is developing in 
the law. If they, at their own will at Microsoft should put 
something on a computer, or at Apple can put something in that 
computer, which is what it is, to where nobody but that owner 
can open it, then why can't they put it in the big giant 
supercomputers, that nobody but that owner can open it?
    And everything gets locked away secretly. And that sounds 
like a solution to this great cyber attack problem we have got. 
But in turn it allows those who would do harm, to have a great 
tool to do harm where a law enforcement cannot reach it. This 
is a problem that has got to be solved.
    And if you are following the Bill of Rights, you have every 
right to be able to go before a judge, present your probable 
cause, and (indiscernible) get into that machine. And I do not 
think there is a right of privacy issue at all that prevents 
you following the law to do it.
    And so if that is what they have created, they have created 
a monster that will harm law enforcement, national security, 
and anything else in this country, and this really needs to be 
addressed. And I would not have even talked about that, but 
that upsets the heck out of me, because I do not think that is 
right. Thank you.
    Mr. Culberson. Judge, if I could ask you about--and 
Director Comey, you can pitch in--if you had a case in front of 
you where you had evidence that there was evidence of a crime 
in a safe that was locked and only the owner had the 
combination to the safe, how would you handle that?
    Mr. Carter. I think I would probably--if anybody had an 
affidavit of probable cause, and if I found that they got 
probable cause, I would issue--give them the right to make the 
search. And if they made it search proof, then--and you cannot, 
even the guy that created the monster cannot get in there, that 
is bad policy.
    Mr. Comey. There is no safe like that in the world.
    Mr. Culberson. Yeah, you can crack the safe, right? You 
just get a court order, you go crack the safe.
    Mr. Carter. Sir, but if you cannot crack the safe--
    Mr. Culberson. Right.
    Mr. Carter [continuing]. Which is what they have created 
here, that is a real crisis.
    Mr. Culberson. The analogy seems valid, doesn't it? It is 
like a safe that is locked up they are holding evidence of a 
crime.
    Mr. Carter. On our issues of privacy, those issues of 
privacy are protected by the Bill of Rights.
    Mr. Culberson. Yeah, it is a great question.
    Mr. Honda. Mr. Chairman?
    Mr. Fattah. I knew we would find wisdom from the Judge.
    Mr. Honda. The question I would ask them, and distinction I 
would ask through the Chair, to the Administrator is this. Then 
you get a court order, the court order would be a court order 
for hardline, you can get a court order for tapping the line. 
Under FISA we can now get a court order to tap into information 
that is used with a digital phone.
    Accessing information on a digital phone that has what we 
might want to call our intelligence also, accessing that would 
be like accessing a person under oath giving any information 
they may have inside of them. And so we may have to look at the 
kind of legislation that equates that with, you know, our 
intelligence and transacts as our own privacy. So there would 
be a sanction if we lie under oath. And if we have a choice now 
of opening up our own phone, and even the company cannot do 
that, they were--you know, I would just try to make a 
distinction between----
    Mr. Carter. I am yielding my time, go ahead and talk, he is 
a nice guy.
    Mr. Honda. Thank you, Judge. I am trying to make a 
distinction between the kinds of laws that we write or we 
author. In one set of technology, when we are looking at 
artificial intelligence, and we are looking at another kind of 
technology, where we can make safe our own information, 
accessing that is going to have to have another kind of--
another level of thought like we had to do with accessing and 
tapping into technology.
    A safe is, you know, a safe is still the old technology, I 
think----
    Mr. Culberson. I think the (indiscernible) is legal issue 
in a situation that is based----
    Mr. Honda. If you have access to a phone that the 
individual who bought it can open up, then you can--you could 
have certain kinds of force of law that would require them to 
be able to testify.
    Mr. Culberson. It is an interesting question, I do not mean 
to--forgive us, Judge, we----
    Mr. Honda. I just wanted to raise that. Thank you, Judge.
    Mr. Culberson. It is a really interesting conversation that 
Chairman Aderholt started here and I am glad to get the Judge's 
wisdom on this.
    Mr. Carter. I have another question I wanted to ask you 
last time we were here, you said one of things you were 
concerned about is am I going to be able to get the--in the 
workforce the quantity of people that I need in this cyber war 
that we are facing.
    How are you doing in being able to recruit the intelligent 
workforce that it takes to go off in this spatial area of 
national security and crime? How effective have you been since 
our last conversation? It is one of the things you expressed 
the last time we were here and I wanted to give you a chance to 
say how effective you have been and what can we do to make you 
more effective?

                       RECRUITING CYBER PERSONNEL

    Mr. Comey. Thanks, Judge. Pretty good, but it is too early 
for me to give you a high confidence read. I have just been 
climbing out of my gap--my hole from sequestration, so we have 
been hiring lots and lots of people. So far so good, and they 
are staying. Because once you get to do public service it 
becomes addictive even if other companies are throwing a lot of 
dough at you.
    So my cyber division attrition rates are very low. Folks 
are getting in and realizing it is fun to do good for a living. 
But it is early, I do not want to sound over-confident. We 
should talk again in a year when I have a full two years of 
data on my side.
    Mr. Carter. Well, I mean this is not an issue you got, but 
what else you can in what it is you do. And one of the 
questions that has come up for us to discuss is what other 
opportunities to contract with these people who are--have these 
(indiscernible) that all they do is this kind of work and maybe 
is that something that Government can do effectively and safely 
protecting government's interests and sub-contract some of the 
work to the great computer wizards of our world? That is 
something we need to be thinking about.
    And now, we're looking now, at Homeland Security, is 
whether or not that is a safe, appropriate thing to do, to sub-
contract. So that is something you might think about. Because 
there is a lot of--I was in a room full of these smart people 
yesterday morning for breakfast, and they--I understood about 
every fifth word. Thank you.
    Mr. Culberson. Thank you, Judge. It is complicated so it is 
an incredibly complex universe of computer out there.
    Now I recognize the State of Washington, Ms. Herrera 
Beutler.
    Ms. Herrera Beutler. Thank you. And I have three pieces 
here, and I am going to make them as brief as possible, I 
appreciate your time.
    I am going to start with--I am going to start on a 
different track and kind of come back to cyber, because, you 
know, why not mix it up? Actually, this does have a relation. 
In your submitted testimony you mentioned the Internet 
facilitated sexual exploitation of children as an evolving 
threat that your agency is faced with. And as you know, there 
are thousands of children every year, through sites like 
backpage.com and other Internet sites, that are sold.
    Backpage and other sites have acknowledged the existence of 
prostitution and sexual exploitation, and of minors on their 
sites and these sites are accomplices of basically promoting 
prostitution and exploitation of minors. I want to know where 
the FBI--has the FBI prosecuted any of these companies for 
knowingly permitting the exploitation of girls and young women 
on their sites?

                EXPLOITATION OF CHILDREN ON THE INTERNET

    Mr. Comey. It is a great question and a really important 
question because you are right, we are seeing an explosion of 
the abuse of kids through the Internet and the selling of kids 
through the Internet.
    The answer is yes. We have prosecuted the people behind an 
outfit, I think, called Redbook, that was in California. We 
locked up the proprietor of it, running it, one of these 
backpage.com outfits, and that shut down the site. We may have 
taken civil action to shut down the site. So, yes, we have.
    Ms. Herrera Beutler. Follow up, since the online 
facilitated sexual exploitation of children is an evolving and 
prioritized threat, help me understand your allocation to that 
area of investigations. And how does the Internet Crimes 
Against Children Program fund fit into that?
    Mr. Comey. Yeah, we have task forces that focus on this, I 
am going to forget the number, but it is more than my number of 
field offices, so we have two in some places. We do this in 
every field office, we do an operation that I hope you have 
heard of called Operation Cross Country, where we work with 
State and local partners. It connects to this cyber stuff 
because a lot of the ways in which we find the people looking 
to exploit kids is through those advertisements, where we try 
to take down, in a swoop, a bunch of these people, rescue the 
kids, and lock up--I hate the word pimp, because it almost 
sounds like some sort of '70s comedy thing, these are slavers--
we lock up the slavers, and to try and send a powerful message.
    So I do not know the second part, I will have to get back 
to you on the second part of your question, where the funds--
the Internet Crimes Against Children fund fits in, but I am 
sure I can find out quickly.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Herrera Beutler. And I am glad you mentioned that piece 
on Operation Cross Country because I think the demand side, you 
know, a lot of the work we have been trying to do, even at a 
State level, is changing the perception. So first of all, we 
have been much more successful here federally. These are 
victims.
    We are talking about young children who have been brought 
into this slavery, this form of slavery, trafficked and 
exploited, and what we have--now we are turning our eyes to how 
do we beat the demand? How are these people prosecuted?
    There is nothing more frustrating than knowing a 17 or 16 
year old girl who has been prostituted is the one that faces 
the criminal penalty and a John walks free. It makes me--it is 
infuriating to me. So you are focused on the demand side, both 
these portals that these criminals are using, and I agree pimp 
has almost been romanticized in some areas, which is pathetic, 
but these Johns, these slavers, need to be the focus.
    And, too, I think you said name and shame, that is another 
area and a place. I mean, some of the people who are buying 
these children are people that, at times, are amongst us.
    Switching, and this is an area where we are going to 
continue to focus, so we may continue and follow up with your 
staff and your team.
    Cyber, this is my last question. Premera Blue Cross in 
Washington State had a real serious cyber attack last May, but 
the company did not discover the breach until January of this 
year. And then upon the advice of the FBI, and a cyber security 
firm, the company waited until March 17th to provide 
notification of the attack.
    According to the information we have received to date, 
about 11 million customers nationwide and about 6 million in 
Washington State, including my constituents, may have been 
compromised. So I guess I want to hear why would the FBI 
recommend they wait to make that information public when we are 
talking about names, addresses, telephone numbers, Social 
Security numbers, and in some cases medical history, banking 
data, so on and so forth?
    Mr. Comey. Yeah, thank you for that. I do not know the 
facts enough to know whether it was January to March at our 
request, but we do sometimes ask companies to hold off for a 
little while so we do not alert the bad guys. Because as soon 
as it becomes public, whoever was doing it goes to ground.
    Ms. Herrera Beutler. I would assume that is a 24 hour or a 
2 day--I mean, the way we--from some of our previous briefings 
that we have had with cyber security division, that is not a 
two month window, because if it is we are not doing something 
right.
    Mr. Comey. Yeah, I do not--the two month window seems odd 
to me, but it is more than a 24 hour period because often it is 
a search for the ground zero computer, to see if we can find 
where the digital dust is from and where the bad guys entered. 
And in a huge company, sometimes that takes more than just a 24 
hour period. But two months I do not fully understand, so I 
will get smarter about that.
    Ms. Herrera Beutler. I have another follow-up on that 
because that greatly concerns me.
    Mr. Comey. Yep.
    Ms. Herrera Beutler. Thank you. I yield back.
    Mr. Culberson. Thank you very much. Mrs. Roby, you are 
now----
    Ms. Roby. Thank you for being here today. And sitting here 
listening to these discussions all over the place.
    I have an almost 10 year old and a 6 year old. And the 
thought of one of my children going missing, and you are not 
able to do anything about it because of what we already 
discussed, is terrifying. But I can say this, thank you for the 
work that you do for our country, and I just appreciate the 
challenges that you have.
    I am new to the subcommittee, so I too am not an expert in 
cyber security by any stretch and it is like going to school 
everyday to learn more about what you do and the challenges 
that you face.
    I was in Huntsville, I know you touched on, with Mr. 
Aderholt, about Birmingham and I know you mentioned Huntsville 
when I was not here. But it was great to be at the new TEDAC 
facility and, of course, by delivering furniture. I mean, it 
was not completed, there is no bodies there yet, they needed 
some of the equipment. But it is fascinating, it was 
fascinating for me to learn about what they are doing. This is 
the terrorist's explosive device in (indiscernible), and I also 
had the chance to stop by the hazardous devices school while I 
was there, which was great as well, where they train local law 
enforcement.
    So I guess what I wanted to talk to you about was sort of 
the things that they mentioned as challenge was personnel 
recruitment because just nationally it is difficult to find 
individuals that have the expertise to be able to do this type 
of analysis on IEDs and so I just wanted to talk about your 
budget requests, and where you see any shortfalls in personnel 
for this new facility, and, you know, how we can make this 
vital center a reality.

          TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER--TEDAC

    Mr. Comey. Thank you so much for that. And I too visited 
there within the last eight weeks, I forget when I was there, 
and they were just--I could smell the fresh paint and----
    Ms. Roby. Right. Right.
    Mr. Comey [continuing]. It is very exciting, because it 
will make a big difference. It will save lives. That place will 
literally save lives.
    The answer is I think we are doing okay in terms of 
recruiting and hiring back. We were down many, many, many 
vacancy slots in the FBI as a result of sequestration. We hired 
about 2,400 people last year. I am trying to hire 3,000 this 
year. And then my budget request this year is just simply about 
being able to sustain that, to hire those folks then be able to 
keep them on the job.
    I do not think I am going to have a problem staffing TEDAC. 
I am going to transfer people, and I actually went down and met 
with our staff at Quantico and said, ``Wait 'til you visit 
Huntsville.'' You'll think, ``I do not want to be sent to 
Huntsville, wait 'til I try and get you out of Huntsville in 
about two years.''
    So I do not think we are going to have a problem, I think 
the committee has supported us well enough, and--it sounds like 
a corny thing to say--I am lucky enough that the FBI has, 
justifiably, a very strong identity in American life. So people 
want to work for the FBI and they want to do the kind of work 
we are doing in Huntsville. Folks are banging down the door.
    I advertise for Special Agents, and I get 20,000 
applications in two weeks. And so I think we are going to be 
okay there.

                     HAZARDOUS DEVICES SCHOOL--HDS

    Ms. Roby. And that is great to hear. Talking about the 
hazardous devices school, I forget what they call it, but the 
staging areas----
    Mr. Comey. The villages.
    Ms. Roby. The villages, yeah, yeah, yeah.
    Mr. Comey. We blow stuff up in the village.
    Ms. Roby. Right. And we are willing to expand that. Can you 
just--I mean it is an expensive, expensive school to operate 
because of what you are doing, but--and the equipment that they 
use. So if you can just talk about that a little bit.
    Mr. Comey. There is such a demand for that. Again, that is, 
as you said, where we, the FBI, train all State and local bomb 
techs in the United States. There are thousands of bomb 
technicians in the United States, they are all certified, and 
they have been trained at the Hazardous Devices School.
    To be trained effectively, though, you need to work on 
buildings that have a real feel to them, that is what the 
villages are. There is a church, there is a little supermarket, 
things like that you can practice in.
    Ms. Roby. They also put the church next to the liquor 
store.
    Mr. Comey. Is it? They just showed me the church, they did 
not show me the liquor store.
    Ms. Roby. Well, they tried to say it was like Alabama, I 
was not going to accept that, so. Okay.
    Mr. Comey. But thanks to the support of this Committee and 
on the Senate side, Senator Shelby's Committee, we have gotten 
the funding, I forget the number, but to build a number of 
additional villages, which will really help us. How many 
additional villages?
    Voice. Six.
    Mr. Comey. Six additional villages. And people should not 
think that is a whole new town, it is just a little cluster of 
buildings. That will enable us to meet the demand.
    The military, as it is downsizing, is shrinking its 
commitment to the Hazardous Devices School, and so we are using 
again the support we have gotten from Congress to try to make 
sure that we staff up to make sure that we have a net, that we 
stay the same. And I think we are going to be okay there was 
the verdict I got when I was there.
    Ms. Roby. Okay, great. Well, again, thank you for the 
important work that you do, and everybody that is with you on 
your team, we appreciate your commitment to our country and our 
safety. Thank you.
    Mr. Culberson. Thank you, Mrs. Roby. I wanted, if I could, 
to follow up on one of the questions that Chairman Rogers 
brought up about foreign fighters. Director Comey, at--we have 
seen estimates there are as many as 20,000 traveled from 90 
different countries to fight in Syria, and we have heard 
reports there is about 150 Americans that have traveled to 
Syria and Iraq to fight with ISIS or other terrorist groups.
    And could you talk to the committee--and I recognize this 
is an unclassified setting--about your ability to be able to 
identify and keep track of these folks and the Americans that 
may be traveling over there. And what can this subcommittee do 
to help you deal with that threat?

                            FOREIGN FIGHTERS

    Mr. Comey. Yeah, thank you, Mr. Chairman. It is a big piece 
of our work and it is enormously challenging.
    The number of 150 is the approximate number of Americans 
who have traveled to Syria in connection with the conflict. 
Some have gone for humanitarian reasons, some have gone to 
associate with ISIS, some have gone to associate with the Nusra 
front or other groups.
    So one of our challenges is even with those we identified, 
try to understand, so what are they doing there? Because not 
everybody who has gone there went there to be a terrorist, but 
we treat them all like they are, and we cover them like a 
blanket when they come back 'til we understand it.
    Our challenge is trying to make sure that with our partners 
in the Intelligence Community, and our foreign partners, we 
have the tripwires in place to spot Americans who might be, not 
just going towards that area of the world, but heading towards 
Syria. This is hard because there are thousands and thousands 
of Americans every day that fly towards, the Mediterranean 
Turkey for all manner of good reasons. So we need the help of 
our partners in the Intelligence Community and our foreign 
partners to spot those who might transit Turkey. The Turks have 
been a big help to us there, and that relationship has gotten 
increasingly better.
    And then here at home, our challenge, to come back to State 
and local law enforcement is, I am not highly confident that 
150 is 150 of 175, I am only missing 25, or 150 of 300, I just 
do not know because, again, it is so difficult in a wonderful 
free country like ours to know who might be traveling with that 
purpose.
    So that is where it comes into the research we do online to 
spot them and our relationship with state and local law 
enforcement.
    Mr. Culberson. Well, also, we have the benefit of having 
Judge Carter, Chairman of Homeland Security, with us, talk to 
us about in particular, Judge Carter, how is TSA and Homeland 
Security doing? How are they working with you and making sure 
they identify and flag these folks?
    Mr. Comey. Yeah, we have got a great partner in----
    Mr. Culberson. What recommendations would you make to the 
Chairman about anything Homeland needs to be doing?

                    DEPARTMENT OF HOMELAND SECURITY

    Mr. Comey. I think we are in a good place, Judge, with 
respect to CBP. They are our key partner here. They are on our 
Joint Terrorism Task Forces. They are on our National Joint 
Terrorism Task Force. Because we all recognize that they have 
the eyes at the border, outbound and inbound, and so we are 
lashed up with them very, very closely.
    One of the lessons of the Boston Marathon bombing was, we 
needed to make sure that we were even more effective in working 
with them. The TSA has a great relationship, but the key 
partner on this traveler bit, it turns out to be CBP. And I do 
not have a recommendation for improvement on that right now.
    Mr. Culberson. Well, but, my understanding, Judge, is 
that--and Director--that the United States does not have the 
ability to track visas. If they overstay their visa, we are not 
doing a good job, Judge--and correct me if I'm wrong--on 
tracking these guys once they are in the country. We do not 
know exactly when they----
    Mr. Carter. We do not have an exit policy right now. So if 
they overstay a visa, they can know they are overstaying, but 
they do not know if they have left or not. So that is a real 
problem.
    Mr. Culberson. That is why I was asking the question, 
Director.
    Mr. Carter. But that is not really where he is coming from. 
Working together, I think there is a good working relationship 
between the agencies and the FBI and others. Our guys are doing 
a pretty decent job on the law enforcement side of it. The 
(indiscernible)--yeah, we need an exit policy, but it is going 
to cost--you can start counting in billions of dollars when we 
start doing it. And that is one of the problems we have got in 
this particular environment we are living in right now.
    Mr. Culberson. But you can spot them when they leave the 
country if you flag their visa. If you got a reason to track 
somebody, you think they might be a problem, they leave the 
country or enter the country, Homeland Security is able to 
share that information?
    Mr. Carter. Well, we do not have an exit policy right now. 
We do not know.
    Mr. Comey. But if we have an interest in someone, we share 
that with CBP----
    Mr. Carter. Yeah, then we are tracking----
    Mr. Comey [continuing]. Systems----
    Mr. Carter [continuing]. Individuals.
    Mr. Comey. And a flag goes up.
    Mr. Carter. Yeah.
    Mr. Culberson. That is what I am wondering.
    Mr. Comey. Yeah. That is working pretty well.
    Mr. Carter. Now, then if we are tracking individuals, we do 
that every day.
    Mr. Culberson. Sure. Yeah.
    Mr. Carter. But just an average Joe that flies over the, 
you know, a plane for a vacation, if he stays----
    Mr. Culberson. Right. Or overstays.
    Mr. Carter [continuing]. We don't know when he is going to 
leave. He could have left. He did not--we do not necessarily 
know----
    Mr. Comey. Yeah.
    Mr. Carter [continuing]. Whether he left or did not leave.
    Mr. Comey. Yeah.
    Mr. Culberson. We have--I know, also, the Patriot Act 
coming up for renewal here at the end of May, will expire. And 
I wanted to--because our constituents are rightly, as Mr. 
Fattah said, all of us have an interest in protecting the 
privacy of law-abiding Americans, as I know you do as well. And 
remembering Benjamin Franklin's admonition that those who would 
trade a little liberty for a little safety will soon wind up 
with neither. And that is an important lesson for us all to 
remember.
    Could you talk to us about, and also the Americans watching 
today, the protections that The Patriot Act builds into the 
privacy, of making sure that the privacy of law-abiding 
Americans is protected, and the thresholds that you have got to 
cross in order to get a court order or access to people's phone 
records or their conversations and that suitcase that we all 
have with us.

                              PATRIOT ACT

    Mr. Comey. Yep, thank you, Mr. Chairman. I----
    Mr. Culberson. And how important The Patriot Act is to you.
    Mr. Comey. Well, I tell a lot of folks when I talk about 
this in public, Americans should be skeptical of government 
power. The country was built by people who were. I tell my 
British friends it is because of you people that we built it 
the way we built it, to set interest against interest. Because 
you cannot trust people in power. And so I tell folks, ``Look, 
I am a nice person. I am an honest person. You should not trust 
me.''
    Mr. Culberson. Texans can relate to that, so----
    Mr. Comey. Yeah. You should want to know how is the design 
of the founders alive in my life? And so The Patriot Act is a 
great example. If we want to get someone's business records 
using our authority under Section 215, we have to go to a 
federal judge and get that authority. And then we have to make 
a regular report to Congress about how we are using Section 
215, and we discuss it in oversight hearings repeatedly.
    So the Executive Branch, the Judicial Branch, and the 
Legislative are working together, and then my work on 215 and 
all of our Patriot Act authorities is audited by an Inspector 
General on a regular basis, who reports to Congress. So that is 
great. I mean, that is burdensome, but that is the way it 
should be. And so there are judges. There is oversight in every 
piece of the work we do.
    The reason that the Patriot Act authorities matter so much, 
especially the two that I will mention. Section 215 is the 
authority that allows us in our national security 
investigations to go to judges and get authority to get 
documents or tangible things or records. If that expires and we 
lose that authority, we will have a gap in our ability to 
respond to spies and terrorists that I cannot fill with grand 
jury subpoenas or some other manner or process. That is very, 
very worrisome. That is a part of The Patriot Act we do not 
talk about very much.
    And the second I will mention is roving wiretaps. In 
criminal cases, if a drug dealer is swapping phones as they 
frequently do, a judge can issue an order that allows us to 
follow the person, so we do not lose him when he switches 
phones. The Patriot Act gave us that authority when we are 
fighting spies and terrorists. I think people would want us to 
have the same authority in spy and terrorism cases that we have 
in criminal cases. But, again, it involves the authority of a 
judge, where we have to make a showing to the judge or probable 
cause, written affidavits; it is all overseen by the courts.
    So I think those are sensible things. The challenge is it 
just took me two minutes to explain it, and often people just 
sort of nod and say, ``It is terrible what The Patriot Act has 
done.'' I hope folks do not do that.
    Mr. Culberson. And also important for people to remember, 
too, that Mr. Snowden is no hero.
    Mr. Comey. Yeah.
    Mr. Culberson. Can you talk a little bit about in an open 
setting why people should not think that what he did, and of 
him, as a hero?

                                SNOWDEN

    Mr. Comey. Now, I do not want to say too much, because I 
hope Mr. Snowden will realize that the greatest country in the 
world has the fullest and freest criminal justice system in the 
world. And he will avail himself for the rights and 
opportunities of being able to defend himself in our criminal 
justice system, and he will leave Russia and come back here. I 
want him to get a fair trial, so I do not want to dump on him 
too much.
    I guess what I would say is, those who want to describe 
someone like that as a hero, need to take the corpus of his 
work and hug the whole thing.
    Mr. Culberson. I remember he carried out, what, how many 
laptops?
    Mr. Comey. A lot of records. And so you need to take a look 
at the entire damage to our ability to track terrorists, to 
track spies, all of the work--the whole corpus of work has to 
be looked at together.
    Mr. Culberson. Exactly. Thank you for the extra time, 
Members. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. So your budget is 
inside of a Bill. You know, the Bill has got a number on it. 
But the DOJ portion thereof, you know, you're seeking $8 
billion dollars. We have another part of this budget that has 
been growing exponentially. It has moved from $1 billion to $7 
billion. It is the federal prison budget.
    And it is a big concern, because the federal prison system 
is gobbling up this budget that this Committee has discretion 
over. And there is a sense that the country incarcerates people 
that do not need to be incarcerated. In fact, we incarcerate 
more people than any other country in the world.
    And so we set up a commission that has got two former 
members leading it--J.C. Watts out of Oklahoma and Alan 
Mollohan out of West Virginia. We put some experts on it, 
including the head of corrections from the State of 
Pennsylvania, which I think was a very wise choice. And they 
are looking at what it is that we might be doing about 
something that we kind of call Justice Reinvestment. You know, 
what can we do to move away from things that are not working, 
this over-emphasis on incarceration and to move in some other 
direction. And there is some states--Texas has been at the very 
forefront actually--looking at some very aggressive activities 
particularly in terms of their juvenile system and not 
incarcerating so many young people.
    So I would be very interested in your view about who the 
country, you know, that somebody said here, I can't remember 
who, you know, ``People who have done something we don't like, 
we shouldn't put in jail. The people we fear and can do us 
harm, you should put in jail.'' And I would be interested, as 
the lead law enforcement official in the country, what your 
view is about this problem and what we should do about it?

                             INCARCERATION

    Mr. Comey. Yeah, thank you, Mr. Fattah. It is something I 
spent a lot of my life thinking about. And I am still not sure 
I am expert enough to be useful to you, but here is my take on 
it. I think we can always be smarter about how we incarcerate, 
how we use the coercive aspects of the criminal justice system. 
I also think we can be a whole lot better at preparing people 
to re-enter society. That is something I think we as a country 
have done a very poor job of.
    But I also want to make sure that if I am involved in an 
effort like that, that I am thoughtful about what connection, 
if any, there is between the incarceration rate and the fact 
that we have historical low levels of crime. I would not want 
to do anything--and I am not saying people are--but we do not 
want to do anything where we say 20 years from now, ``Gees, we 
really got that one wrong,'' because we had achieved a level of 
reduction that was unprecedented. So I would want to be 
thoughtful about that. A lot of people smarter than I should 
think about that.
    And the second thing is I want to be data driven. I would 
want to know who are the people who are in jail in federal 
prison and why are they there and what are the risks associated 
with them? Because the reason I say that is, oftentimes I hear 
people talk about the low-level, non-violent drug offenders in 
federal prison. I have never put anyone there by that 
description. And I cannot find a whole lot of federal 
prosecutors who say, ``Yeah, I prosecuted a low-level, non-
violent drug offender.'' And so there may be a lot of folks 
like that, but I would want to make sure that the data is 
scrubbed.
    But other than that, I am agnostic. I am not a ideological 
person. I want to be effective.
    Mr. Fattah. Well, this is almost an equal part of our 
budget to what your request is now. And at one point, it was, 
you know, at $1 billion. The number of inmates actually has, as 
the crime rate nationwide, the number of inmates have been 
going down, and the crime rate is going down. A lot of that 
actually is happening at the state level, though, not 
necessarily where we are.
    And but, let me move onto a different subject, but the 
Committee would be interested in your thoughts as we go through 
this process and as the recommendations from the Colson Group 
comes back. I am sure the Chairman would be interested in your 
thoughts.
    So Sandy Hook took place a little while ago, but it was a 
tragedy. And they are, you know, every year not just the loss 
of a police officer, there are literally, I mean, thousands and 
thousands of Americans just being shot and killed. And the 
access to firearms, which the Supreme Court has said, you know, 
people have a constitutional right to, and that is the law of 
our land.
    As a law enforcement official, how do you, and we, Todd 
Jones is now leaving as the head of the, you know, one of your 
sister agencies. What is your thought about what we should be 
doing, or thinking about, as a nationwide, vis-a-vis, the 
question of firearms?

                                FIREARMS

    Mr. Comey. Another big, hard question. Probably all aspects 
of that are beyond my expertise and my authority, except for 
one piece. I spent a lot of my life as a prosecutor trying to 
make sure that criminals were deathly afraid of getting caught 
with a gun. And that if a criminal is caught, obviously, 
committing a crime with a gun or just possessing it, there is 
severe, severe consequences.
    I have long believed that most homicides are happenstance 
homicides. What would otherwise be a fist fight or a rock 
fight, becomes a shootout because the gun is an article of 
clothing. It is there in the waistband. The felon has it there 
or the drug dealer has it there. And that if we can make the 
criminal--criminals are very good at rational calculation--fear 
that as an article of clothing, then we will have more fist 
fights, more rock fights, maybe more stabbings. We will have 
fewer shootings.
    So in Richmond, Virginia, we did an effort to really try 
and drive into the criminal mind that you should think more 
about your gun than about your socks and your shoes when you 
get dressed to go out and deal drugs or hang on the street 
corner. And I think that is very, very effective.
    And so I am a big supporter--not a big part of the FBI's 
work--of maniacal enforcement of felon-in-possession, drug-
dealer-in-possession crimes like that. Because there is no 
excuse for a criminal to have one. None.
    Mr. Fattah. And one last question, Mr. Chairman. There have 
been a lot of debate here on the Hill about prosecution of 
people that you have locked up as terrorists in Article 3 
courts. As best as I can tell, there have been no incidents. 
There have been no issues. These prosecutions have proceeded 
during the normal course and justice has been served. Is that 
your sense of this? Is there some--I mean, because we have this 
debate. The Administration wants to close Guantanamo and get 
out of the business of incarcerating people without a trial 
and, you know, just incarcerating without having any due 
process, because they think it is a problem for our country 
internationally. Is there any concern you have about the 
ability of our court systems to handle these cases?
    Mr. Culberson. But distinguishing--I know as Mr. Fattah 
would--between foreign nationals captured on a battlefield 
overseas versus an American citizen.
    Mr. Comey. Well, as I understand your question, it is just 
about the effectiveness of the criminal justice system in my 
experience.
    Mr. Fattah. Yeah, I am not trying to get you in the middle 
of this.
    Mr. Comey. (Indiscernible)----
    Mr. Fattah. I am just trying to make sure that you----
    Mr. Comey. Part of a harder conversation.
    Mr. Fattah. Whether or not there should be any concern from 
our standpoint as a country that our court system is capable.
    Mr. Comey. No, none.
    Mr. Fattah. Of prosecuting?
    Mr. Comey. None. Now, that doesn't mean that----
    Mr. Fattah. (Indiscernible).
    Mr. Comey [continuing]. That doesn't mean that ends the 
policy conversation, which is one the FBI should not be 
involved in, but yeah, in my experience, our courts are very, 
very good at offering people a fair trial and then 
incapacitating them for the rest of their lives in a safe way.
    Mr. Fattah. Thank you. Thank you.
    Mr. Culberson. Expertly done. I want to be sure to 
recognize Mr. Palazzo.
    Mr. Palazzo. I am good, Mr. Chairman. Thank you.
    Mr. Culberson. Mr. Honda.

                        2016 SUPER BOWL THREATS

    Mr. Honda. Thank you, Mr. Chairman, and let me just say I 
appreciate your flexibility and the Judge's flexibility, too. I 
just have a real quick question. In 2016, my area will be 
hosting the Superbowl. And in the past three, four years 
probably, we have been tracking the Superbowl activities in 
terms of human trafficking. And in that light, you have the 
arena of trans-national organized crime, which addresses 
trafficking of women and children internationally. You also 
have a discussion around the Child Sex Tourism Initiative and 
addressing child--instead of saying prostitution, I just say 
child sex slavery, because prostitution has another connotation 
in my mind.
    Is there staff that we can collaborate with and speak with 
to anticipate the 2016? We are already working on cyber systems 
with our local entities in terms of light rail, high-speed rail 
and those kinds of activities, in airports. It would be great 
if we can work with some of your staff to check and double 
check on the kinds of things that we are doing and to see if 
there is anything else that we can do and collaborate 
(indiscernible).
    Mr. Comey. Yeah, and I am sure that we can, Mr. Honda. This 
is something we have a lot of expertise----
    Mr. Honda. Yes.
    Mr. Comey [continuing]. Practice in, all aspects of the 
threats around a Superbowl, but we can equip you with that. We 
do a lot of work around Superbowl events. In fact, I would tell 
people come to the Superbowl for all kinds of good reasons. If 
you are coming to try and pick up kids or engage in 
prostitution involving children, we will be there, and we will 
be looking to lock you up. So we will get you what you need on 
that.
    Mr. Honda. And we like to look at public education and 
engaging the other agencies to be aware and trained on visual 
kinds of surveillance, too, so we greatly appreciate it. Thank 
you, Mr. Chairman.
    Mr. Comey. Sure.
    Mr. Culberson. Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. Now, let us have a 
little judge/prosecutor discussion here.
    Mr. Comey. I am too rusty.
    Mr. Carter. We (indiscernible)--I am not a law professor. 
This is the kind of thing we are going to have to be thinking 
about. We're telling our industry. Okay? The cyber attacks are 
real. They are coming. Home Depot got attacked. Sony got 
attacked. We just heard about Blue Cross getting attacked. You 
got to build your fort, where part of our plan for cyber 
security is to tell industry, ``Build a fort. Protect yourself. 
Be prepared. We are helping you, assisting you, but be 
prepared.''
    Now, whether this attack is a criminal act or an act of war 
is an interesting debate to have. I would ask everybody in the 
cyber field, what is your opinion of when a cyber attack 
escalates above a criminal activity and becomes an act of war? 
Most people say it is a policy decision. I understand that is a 
good cop-out. But just a discussion, it is an interesting 
discussion.
    But then there is even a more interesting thing, because 
what you are going to have ultimately is almost we are going 
back to the Middle Ages. We are building a bunch of little 
forts around our industry. Some of these forts are going to be 
very powerful. I would bet the fort around Microsoft is going 
to be extremely powerful. The fort around Apple is going to be 
extremely powerful.
    Not only powerful in defending themselves from an attack 
outside, but they'll actually have the ability to counter-
attack. And when they counter-attack, they could start an 
international incident. They could start we don't know what--
and that is a question we have to ponder, because quite 
honestly, we are as a government permitting them to build that 
fort. And that fort is nothing more than build your own castle 
and protect your castle.
    Now, there is so little to be always able to be in the 
defensive posture. But those with the offensive capability may 
go offensive. And for the criminal justice system, we may have 
to decide, has that person gone too far, just like the security 
guard that protects--uses his gun in the protection of the bank 
or so forth? Some of it is going to be self-defense, maybe some 
of it is not. We have to make that determination. We may have 
to make that determination in the cyber world sometime in the 
future if a private entity protecting its own property decides 
to counter-attack in a cyber attack, which we sort of have the 
ability to do.
    And which we would preserve to do as a government, though, 
they would have to preserve some of these big monster tech 
industries that have the ability to counter-attack. How is that 
going to affect us in the criminal--the world of criminal 
justice? Or have you ever thought about that?
    Mr. Comey. Oh, I thought about it. From the private sector, 
where I was before coming back to this great job, and on the 
government side. The answer is we, as a country, cannot allow 
it. Right? It is against the law. And it, in my view, should 
remain against the law. It is great to build a fort, but if you 
start throwing rocks off the parapet or throwing barrels of oil 
down, it can have knock-on effects that are very, very hard to 
predict. It could drag us into a place we do not want to be.
    So it is unlawful for a private entity to hack back, and it 
makes good sense to me. But I also agree that there is a crying 
need from a lot of private enterprise for our government, then, 
to fill that space. And that is a harder policy question. But 
we cannot have each of these castles start throwing stuff out 
into the square. That public space is a place where the 
government ought to be operating.
    Mr. Carter. And I would agree with you, but if you look at 
the Dark Ages, that is exactly what happened. The folks could 
not control the individual castles. Any of them, they could not 
control the individual castles. It caused all kinds of social 
turmoil in the Middle Ages. And, arguably, we could be going to 
cyber Middle Ages with everybody defending their own. Because 
the government is (indiscernible) right now--we are taking care 
of the government and in some instances, we are taking care of 
our body politic of commerce.
    But the individual, actually with the ownership, it is 
going to protect their own. And I think that on the horizon we 
got real issues, because the government has got to come in and 
say, ``How far can this person go to protect their own?''
    Mr. Comey. Right.
    Mr. Carter. And they are developing an ability for us that 
is--I am making this up, because I do not know anything about 
cyber--that the minute you hack into me, it fries everything--
every computer you--attached to you all over the world. If 
somebody can just--comes up with that, that is going to be a 
very large offensive tool that somebody could use.
    It is a question that the government has got to start 
thinking about, because this is a big deal. And at some point 
that is an act of war. Then, the government has to go to defend 
the individual's property. If they bombed Microsoft or bombed 
in Dallas, I think we would be--if they fly an airplane, 
dropped a bomb, we call it an act of war. The question is, when 
we get the point where it is an act of war by basically 
destroying my business? That is a tough question.
    Mr. Comey. Yes, it is.
    Mr. Carter. And we in the criminal justice system have to 
think about it, and our professors back in law school have to 
think about it, and we have to come up with a solution.
    Mr. Comey. Yeah. Why is a criminal justice analog right in 
the Old West? If the marshal does not provide safety for the 
folks living in those communities, in those towns, well, then 
they are going to defend themselves to protect their families 
from the bad guys. So the government has to fill that public 
space and defend the citizens (indiscernible).
    Mr. Carter. I think you are probably right.
    Mr. Comey. Yeah.
    Mr. Carter. And that is a huge task. Thank you.
    Mr. Culberson. And a great question and a good analogy, if 
the government is unable to defend that public space and 
provide protection if the marshal cannot be there for the 
little homestead outside of town, out in the Indian country, 
how--we have got all of us the right to self-defense to what 
extent does an individual or business have the right of self-
defense, for example, in the cyber world? [No response.]
    There is no clear answer, I guess.
    Mr. Comey. Hard question.
    Mr. Culberson. It is really an interesting question.
    Mr. Carter. Yes, but it is a question that I think we are 
literally creating those castles today. There is no doubt about 
that. (Indiscernible).
    Mr. Culberson. Sure.
    Mr. Carter. (Indiscernible).
    Mr. Culberson. And to follow up a little bit on the analogy 
earlier, the conversation about the Apple 6, in the case of a 
safe where you ordered--you have got a court order to go in and 
get the contents of a safe that you have probable cause to 
believe contains evidence of a crime, if the safe is 
uncrackable and either the owner cannot, or will not, open it, 
as a general rule, does the company that built the safe have 
the ability to open the safe? Is there any requirement with a 
physical safe, that they be--the company that built the safe--
open it? Do you have the ability to open it? Is there any legal 
requirement? How did that work, Judge and Director, in your 
experience?
    Mr. Comey. I do not know of a legal requirement. We could, 
with a court order, almost always get information from the 
manufacturer, or we just blow the door off.
    Mr. Culberson. But the manufacturer could tell you.
    Mr. Carter. I have got to go. I want to thank you for----
    Mr. Comey. Thank you.
    Mr. Carter [continuing]. What you do, and we are very proud 
of the FBI and all the good work you do. Thank you.
    Mr. Culberson. Thank you, Judge. That is absolutely true, 
and I will not keep you too much longer, but you could either 
blow the safe or in your experience, the manufacturer always 
had the ability to open it----
    Mr. Comey. Yeah.
    Mr. Culberson [continuing]. In some way, shape, or form.
    Mr. Comey. But I'm hesitating, I do not know whether I have 
ever seen a circumstance where we use lawful process to compel 
a manufacturer to give us assistance. I just do not know 
enough.
    Mr. Culberson. Just drill it or blow it.
    Mr. Comey. Yeah.
    Mr. Culberson. Yeah. Okay. Because that is another problem 
we are going to have to--again, protecting people's individual 
privacy, but recognizing if you have got evidence of a crime 
locked up in that suitcase, how in the world do you get at it?

                 INSPECTOR GENERAL--INFORMATION SHARING

    Let me ask about, before we wrap up, and I will follow up 
with other questions for the record, the importance of 
information sharing with the Inspector General. It is a 
question that is ongoing with every agency under our 
jurisdiction. The Inspector Generals have a vital role 
notifying us of that they do audits and if the Inspector 
General is ever denied access to information, they have to 
notify the Committee, and we have gotten several notices from 
the Inspector General.
    I know we have mentioned this to you and your folks before 
about the FBI's failure to comply with the access-to-
information requirement, and I know that the FBI has a 
disagreement on what the law requires. And Mr. Fattah and I 
have both written a letter to the Attorney General asking the 
Office of Legal Counsel to help resolve a particular matter--I 
do not think involving a whistleblower's--to resolve this 
matter as quickly as possible.
    I would just like to ask, sir, what steps are you taking to 
ensure the Inspector General gets the information they need in 
a timely manner and what, if any, conflict of interest, may 
there be in the agency being investigated by the Inspector 
General being in a position to decide what information the 
Inspector General needs? Particularly, since the Inspector 
General has, as you did, as a prosecutor, the ability to review 
things in a confidential manner and in camera, so to speak, as 
a judge would, since the Inspector General has criminal 
investigative authority and can maintain the confidentiality of 
that information, should not the IG be the one?
    Are you be able to work with them in a confidential, 
behind-closed-door manner to decide what information they need? 
What are you doing to help them get what they need in this 
case, for example, in particular?
    Mr. Comey. No, no. Thank you. It is an important issue. I 
love my IG, as he knows. The only thing I clearly love more is 
the rule of law. And so I am in a situation where the FBI, 
Office of General Counsel, has given us legal advice over 
several General Counsels about what The Wiretap Act and The 
Grand Jury Secrecy Act provides with respect to our ability to 
give information to the Inspector General. And so we just have 
to solve that problem, which should be fairly easy. As you 
know, the Office of Legal Counsel is looking at the question. I 
think the new Deputy Attorney General is moving towards 
resolving this question. I just need someone at a high level in 
the Department of Justice to say, ``It is okay. You do not have 
to go to a judge before you can turn over wiretap information 
or grand jury information to the IG.'' And problem solved. But 
I have no interest in obstructing the IG.
    Mr. Culberson. I know that.
    Mr. Comey. But I also do not want to be--us just willy-
nilly turning over stuff that might be protected under the 
statutes and then have someone say, ``Well, how did you do 
that? You were told by your General Counsel that the law 
required this.'' So I just need clarity there. And the other 
thing I am doing in the meantime is just trying to speed up our 
business processes.
    Mr. Culberson. Yes, sir.
    Mr. Comey. So that we just do whatever we think we have to 
do (indiscernible) law, but much more quickly.
    Mr. Culberson. What I am particularly interested in is 
getting it done in a timely fashion. What are you doing to help 
expedite the process so the Inspector General can get the 
information that they need to do their job?
    Mr. Comey. Yeah. I think that is literally a question of 
building better business process to quickly review and copy and 
produce and search for information. I will not go into all the 
boring details, but I have an internal consultant shop that are 
geniuses at business process. I have put them to work on that 
saying, ``Figure out how to do this faster.'' It is like making 
cars. Just figure out how we can do that much more effectively.
    I think he will see dramatic improvement there. That is not 
going to solve this legal question, but I think I can solve the 
business process. Then, if I can get the leadership, the 
Department of Justice, to solve the legal question, then it 
might not all be love, I suppose, with the IG, but it will be 
in a much better place.
    Mr. Culberson. Mr. Honda. [No response.]
    I also on behalf of the Subcommittee and the people of 
Texas that I am proud to represent, I want to express our deep 
gratitude to you and for your service and to the men and women 
of the FBI for all that you do to help keep us safe while 
protecting our privacy and our very precious constitutional 
rights. And as law-abiding Americans, we are your best back up. 
There is no better back up for a law enforcement officer than a 
American using their own common sense, their own good judgment, 
and their good hearts.
    And by the way, you mentioned earlier about the criminals 
with guns, I doubt you have ever had a problem with a concealed 
carry permit holder who is licensed with a background check 
using their good judgment. I am not aware of any problems with 
the Texans that are licensed. Could you comment on that as a 
law enforcement officer and a prosecutor?
    Mr. Comey. Yeah. I have not had situations where there has 
been problems with that.
    Mr. Culberson. With a concealed carry permit holder?
    Mr. Comey. Not that I can remember.
    Mr. Culberson. That is a law enforcement officer's best 
back up, particularly if he is a Texan. Thank you very much, 
sir, for your service to the country, and we will submit any 
further questions for the record, and the hearing is adjourned. 
Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                      Wednesday, February 25, 2015.

                         DEPARTMENT OF JUSTICE

                                WITNESS

MICHAEL E. HOROWITZ, INSPECTOR GENERAL
    Mr. Culberson. Good morning, Members. The Appropriations 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies will come to order.
    I am delighted to start out our hearing schedule this year 
with the inspectors general for the Department of Justice, 
Department of Commerce, and for NASA. Great way for us, I 
think, to set the framework for the year to get an 
understanding of some of the management challenges that each of 
these agencies face.
    We particularly rely on your expertise and good work to 
help us identify where we can make the best use of our 
taxpayers' hard-earned money, make sure it is spent more wisely 
and efficiently to eliminate fraud, waste, and abuse, but also 
to be sure the agencies are accomplishing the purposes that the 
Congress has created them for.
    It is a real privilege for me to be here to serve as 
chairman of this wonderful subcommittee and to succeed Frank 
Wolf who has really been a hero of mine since I got here. I 
really feel very sincerely that I am following Frank in the 
same position as Thomas Jefferson when he followed Benjamin 
Franklin and said no one can replace Dr. Franklin. I can only 
succeed him.
    And that is certainly true. We are going to miss Frank a 
lot. He taught us all a great deal. It is a privilege to serve 
here with each one of you and especially you, Chaka. We have 
had a good time together in this subcommittee. We do great 
things and I am looking forward to a great year serving with 
you, my friend.
    Mr. Fattah. I am looking forward to it also and I am 
committed to make sure that as has been the case in the past 
that we end up with a bipartisan product that we can----
    Mr. Culberson. Yeah.
    Mr. Fattah. Proudly take to the full committee. All right?
    Mr. Culberson. Yes. It is an important bill and feathers 
right in with the work you do, Chairman Carter, on Homeland. 
Looking forward to working with you.
    We have a number of new Members of the committee. I am 
delighted to note that Washington State is so well represented, 
Mr. Kilmer, between you and Ms. Herrera Beutler.
    You have what part of the state?
    Mr. Kilmer. I represent Tacoma and the Olympic Peninsula of 
Washington State.
    Mr. Culberson. The United States' only rain forest, I 
think, right?
    Mr. Kilmer. That is right, yeah.
    Mr. Culberson. You are on that----
    Mr. Kilmer. You bet.
    Mr. Culberson [continuing]. Beautiful part of the country.
    Mr. Kilmer. We say in Washington we do not tan. We rest.
    Mr. Culberson. Unlike England.
    Mr. Kilmer. Yeah.
    Mr. Culberson. Delighted to have you here.
    Mr. Jenkins, delighted to have you here.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Culberson. West Virginia to be well represented. We got 
Martha Roby as a new Member of the subcommittee from Alabama, 
Mr. Jolly from Florida. And, of course, we have got Mr. 
Aderholt returning as a returning Member, of course, Mr. Honda 
and Mr. Serrano.
    And we will be following the five-minute rule for questions 
roughly. I am not going to be exact about it, but we are going 
to try to keep things moving, make sure everybody gets the 
opportunity to ask questions.
    I will recognize Members in order of seniority based on who 
is present at the beginning of the hearing and as Members come 
in, folks who come in a little bit later will go after those 
who came earlier.
    And I know that as Mr. Fattah said, we will work hard 
together to make sure this is a bill that we, I hope, can all 
support in the end and will help, as I said earlier, ensure 
that our taxpayers' hard-earned dollars are well spent which is 
why I wanted to start with our inspector generals.
    We have already got the national debt approaching $18 
trillion and it is a continuing source of concern that with the 
President's budget request, for example, asking for tremendous 
increases in spending in every year in government, but he 
proposes to pay for it with tax increases. And that is 
certainly not going to happen.
    We have a responsibility in the Appropriations Committee to 
be sure that the precious resources that we allocate are 
targeted and well spent.
    So we really appreciate the work that you all do and we 
will hear first from Mr. Horowitz who is the inspector general 
for the Department of Justice and has been since 2012. We will 
next hear from Todd Zinser, the inspector general for the 
Department of Commerce where he has served since 2007 and then 
finally Paul Martin, the inspector general for NASA who has 
been working in that capacity since 2009.
    Of course, we want to hear about your own budget requests, 
but if I could ask each one of you to zero in on, and we have 
received your prepared testimony which we will enter into the 
record without objection, but certainly welcome your 
summarization of that testimony, but particularly interested 
in, if you could, have us focus on recommendations to make the 
agencies more efficient and where we can achieve savings.
    So deeply appreciate you being here, your service to the 
country, and, Mr. Horowitz, you are recognized. Oh, excuse me. 
Yeah. I apologize.
    Chaka, if I could, I want to recognize you, sir, for any 
opening statement you would like to make.
    Mr. Fattah. No. I think you covered it and I think we will 
proceed with the hearing.
    Mr. Culberson. Very good.
    Mr. Fattah. For each of us to say the same thing because I 
agree with what you said. All right?
    Mr. Culberson. Thank you very much. I appreciate it. We are 
ready to roll.
    Mr. Horowitz, thank you very much for being here today, 
sir, and we look forward to your testimony.
    Mr. Horowitz. Thank you, Mr. Chairman.
    Thank you, Congressman Fattah and Members of the 
subcommittee, and thank you for inviting me to testify today 
and thank you for your strong bipartisan support for my office.
    In these tight budget times, making sure that department 
programs are operating effectively and efficiently is critical 
and I am proud of the outstanding value that the OIG at the 
Justice Department continues to deliver to the taxpayers.
    In fiscal year 2014, the OIG identified over $23 million in 
questioned costs and nearly $1.3 million in taxpayer funds that 
could be put to better use by the department.
    And our criminal, civil, and administrative investigations 
resulted in the imposition or identification of almost $7 
million in fines, restitutions, recoveries, and other monetary 
results.
    These savings, however, do not take into account some of 
the most significant reviews that we have done which cannot be 
translated into quantifiable dollar figures but which address 
fundamental issues that the Justice Department touches 
involving national security, civil liberties, safety and 
security of federal prisons, effectiveness of department 
programs, and the conduct of department employees.
    Our ongoing work includes reviews of the department's asset 
seizure activities, ATF's oversight of its storefront 
operations, the FBI's use of bulk telephony metadata obtained 
under Section 215 of the Patriot Act, the department's use of 
drones, the impact of the BOP's aging prison population, the 
department's use of pretrial diversion programs, and the BOP's 
management of its private contract facilities.
    Our fiscal year 2016 budget seeks funding at a level of 
$93.7 million which includes a requested increase of $2.9 
million to expand our oversight of contracting by the 
department.
    Contract spending at the department has grown substantially 
over the years and is now approximately $7 billion, about 25 
percent of the department's budget. The requested program 
increase will allow our office to support an additional ten 
FTEs in our audit division and five FTEs in our investigations 
division, thereby enhancing our ability to audit more complex 
and higher risk contracts.
    In the past, much of the OIG's external audit work has 
focused on grants which at the time far exceeded contract 
spending. While grant spending remains substantial, about $2.3 
billion last year, the amount spent on contracts, as I 
mentioned, is now far greater.
    Given these figures, it is critical for our office to 
develop the same kind of deep expertise and experience in 
contract management that we have in the grant fraud area.
    Over the past five fiscal years, we have issued over 200 
grant-related audit reports containing over 1,000 
recommendations and over $100 million in dollar-related 
findings.
    In addition over the last five years, we have opened over a 
hundred grant-related investigations resulting in 19 
convictions and over $5.8 million in fines, restitutions, and 
recoveries.
    While I could change the focus of these auditors and agents 
from grant work to contract work, given the continuing grant 
management risks we are finding, our commitment to grant 
oversight needs to remain at its current level.
    This is the first program enhancement request that I have 
made since becoming inspector general and as someone whose 
primary responsibility is to be a strong steward of the 
public's money, I recognize the significance of the request and 
make it only after undertaking careful planning and evaluation 
of our needs.
    I do so because adding these positions in our field offices 
around the country would allow us to address potential 
procurement waste, fraud, and abuse, and I am confident it will 
produce stronger returns for the taxpayers.
    Let me mention the top challenges that we have identified 
recently as we are required to do each year at the Department 
of Justice for the coming fiscal year.
    We have identified seven major challenges in our recent 
report. First the department needs to address the persistent 
crisis in the federal prison system; second, safeguarding 
national security consistent with civil rights and civil 
liberties; third, enhancing cyber security in an era of ever-
increasing threats; four, effectively implementing performance-
based management; five, upholding the highest standards of 
integrity and public service; six, ensuring effective and 
efficient oversight of law enforcement programs; and, seven, 
protecting taxpayer funds from mismanagement and misuse.
    I have outlined those in greater details in my testimony 
and I look forward to speaking about them today at the hearing.
    Let me conclude by briefly addressing the continuing 
challenges we face in getting access to information in the 
department's possession. Unfortunately, I sound like a broken 
record on this issue, but it is a matter that is not resolved 
yet and it is an issue of utmost importance to us.
    And the IG Act Congress passed could not be clearer. 
Inspectors general are entitled to complete, timely, and 
unfiltered access to all documents and records within an 
agency's possession. Delaying access imperils an IG's 
independence, impairs our ability to provide effective and 
independent oversight that saves taxpayers money and improves 
the government's operation and erodes the morale of the 
dedicated professionals that make up our staff.
    My office knows these problems all too well. In particular, 
the FBI continues to take the position it first raised in 2010 
that the IG Act does not entitle the OIG to certain records in 
its possession.
    In May 2014, the department's leadership asked the Office 
of Legal Counsel to issue an opinion to try and resolve the 
objections raised by the FBI. Nine months later, we are still 
waiting for that opinion.
    I cannot emphasize enough how important it is that the OLC 
issue its opinion promptly because the existing procedures at 
the department assume the correctness of the FBI's legal 
position which thereby undermines our independence and impairs 
the timeliness of our reviews. The status quo simply cannot 
continue indefinitely.
    We appreciate the strong bipartisan support from the 
subcommittee and the Congress, in particular the inclusion by 
the subcommittee of Section 218 in last year's Appropriations 
Act to try and resolve these issues.
    While the law only recently went into effect, it has had a 
positive effect with several department components. However, 
the FBI is repeatedly failing to comply with Section 218 
because it continues to maintain that the IG Act does not 
authorize OIG access to certain records in the FBI's 
possession.
    As a result, the FBI is continuing its costly, wasteful, 
and time-consuming process of reviewing documents that are 
responsive to our requests in order to determine whether they 
need to withhold them from us only to then go to the attorney 
general or the deputy attorney general for permission to give 
them to us.
    On February 3rd, February 19, and again this morning, we 
have reported to Congress as provided in Section 218 about 
failures by the FBI to provide us with documents in a timely 
fashion with regard to several ongoing reviews.
    As I said, it is time to resolve the legal dispute. The 
FBI's failure to comply with a bipartisan appropriations law 
coupled with the department's seeming lack of urgency in 
issuing an OLC opinion that would resolve this dispute is 
seriously impacting our ability to conduct oversight. Every day 
this continues, taxpayer funds are being needlessly wasted. I 
looked forward to continuing to work with the subcommittee to 
try and resolve this matter promptly.
    Thank you again for your critical support for our work 
which has enabled us to conduct the kind of aggressive and 
thorough oversight that is expected of us and to root out 
waste, fraud, abuse, and mismanagement. I look forward to 
answering your questions today.
    Mr. Culberson. Mr. Horowitz, thank you.
    And I wanted to first start with the FBI's refusal to 
provide you information. It applies to all the inspector 
generals. And for each one of us on Appropriations on the other 
subcommittees, this is highly relevant because it is not just 
the FBI. It is an ongoing problem with the inspector general 
across the spectrum of the Federal Government.
    And every inspector general is essentially a--you have the 
ability to do criminal investigations as well.
    Mr. Horowitz. Correct.
    Mr. Culberson. So you are used to handling sensitive 
information----
    Mr. Horowitz. We have the most----
    Mr. Culberson [continuing]. In your jurisdiction.
    Mr. Horowitz. And with overseeing the FBI, we have done 
Patriot Act reviews, FISA reviews. We have Post 9/11. We have 
the Hanssen matter, the spy matter. We have got some of the 
most sensitive material available and we have been given that 
prior to 2010 with no issues.
    Mr. Culberson. You are essentially like a U.S. attorney's 
office in that you have got obviously top-secret clearance. You 
are used to handling sensitive information and----
    Mr. Horowitz. Right.
    Mr. Culberson [continuing]. Protecting it from being 
disclosed.
    Mr. Horowitz. Correct.
    Mr. Culberson. When Judge Carter served as a district court 
judge, you reviewed, Judge, all the time, complicated material.
    So the FBI's objection here is that the information cannot 
be released to you because they believe they have an obligation 
to withhold it--they are citing a number of different rules.
    For example, the rule of civil procedure regarding grand 
jury materials, that is something you saw, Judge, I would 
imagine, as a part of your function.
    There was not any problem with either Judge Carter 
releasing that or with you or any of the other inspector 
generals. That is standard operating procedure; is it not?
    Mr. Horowitz. And it is standard operating procedure. We 
have raised the question and said if you have any concerns with 
how we have handled it, tell us. That is not the issue. We have 
never been----
    Mr. Culberson. Never had any issue?
    Mr. Horowitz. Never had a breach.
    Mr. Culberson. Never had a breach?
    Mr. Horowitz. Yeah.
    Mr. Culberson. The Wire Tap Act, again, standard operating 
procedure, no big deal. The Bank Secrecy Act, the FBI says we 
cannot give you the information because of the Bank Secrecy Act 
and the Fair Credit Reporting Act.
    Mr. Horowitz. Right.
    Mr. Culberson. Statutes that have been in the book for a 
while.
    Mr. Horowitz. Right.
    Mr. Culberson. And the inspector general statutes were 
probably enacted after these were enacted by Congress.
    Mr. Horowitz. Yeah. It is interesting. So my issue, the 
statutes that they are citing were enacted before the IG Act. 
So the IG Act came and said you get everything. That came 
afterwards. The Peace Corps IG is having the same problem. 
Their general counsel is claiming a law passed by Congress two 
years ago did not override the IG Act. So we are getting on 
statutes that happened before the IG Act.
    Mr. Culberson. Yeah.
    Mr. Horowitz. She is getting it on issues that happened 
after the IG Act was passed.
    Mr. Culberson. I do not mean to keep picking on Judge 
Carter, my good friend from Texas, but I believe, Judge, the 
standard rule of statutory interpretation is that the later 
enacted law supersedes the earlier one.
    Mr. Carter. That is right.
    Mr. Culberson. That is just, again, standard operating 
procedure. We will certainly help you with this. And I hope 
each Member of the subcommittee will take this to heart in all 
our work on our other subcommittees, Mr. Fattah, because this 
is an ongoing problem across----
    Mr. Fattah. I think compliance with 218 is important and I 
would be glad to join in with the chairman in however you would 
like to communicate.
    Mr. Culberson. Right.
    Mr. Fattah. Through either the Office of Legal Counsel, 
their opinion, if they would like to see it move forward or----
    Mr. Horowitz. Exactly.
    Mr. Fattah. However we can move to a resolution.
    Mr. Culberson. Thank you very much. We will certainly do 
that.
    Mr. Horowitz. And I have made clear at this point, I will 
take any opinion from the Office of Legal Counsel because, 
frankly, even if a bad opinion, I am confident Congress will 
quickly fix the statute.
    But what we are all operating under right now is a belief 
in the IG community and from every Member of Congress I have 
spoken to and testified before that the IG Act should apply. So 
we need that decision to fix the statute if that is what the 
department thinks. And obviously a good decision that applies 
to the law as we think it is would resolve it as well.
    Mr. Culberson. And, Mr. Horowitz, if you could, to the 
extent you can do so in this setting, describe to us the type 
of information that the FBI is refusing to provide to you.
    Mr. Horowitz. It is precisely what you indicated, Mr. 
Chairman. We have got grand jury information prior to 2010, we 
were given similar information.
    In fact, there are two federal district court opinions from 
two judges in the western district of Oklahoma from 1998 and 
1999 on the Justice Department's motion that found we were 
entitled to access grand jury information.
    So I am, frankly, not sure why anyone at OLC would overrule 
two Article 3 federal judges who have decided that issue 
already.
    Fair Credit Reporting Act, we are looking at the national 
security letter reviews by the FBI. At the start of our review 
before 2010, we got the information. After 2010, all of a 
sudden, we could not get the information.
    Mr. Fattah. Mr. Chairman, I just want to make sure we can 
clarify the record. I thought what I heard you say was that 
what we were experiencing was that there was a refusal to 
provide and then a kind of a filtering process and then the AG 
or the deputy would then have to go through these documents and 
then provide them and that the issue for you was that at the 
end of the day, they are getting the documents and it has just 
created a process that has wasted money.
    Mr. Culberson. And time.
    Mr. Fattah. And time.
    Mr. Horowitz. Right.
    Mr. Fattah. In getting the documents. And I just want to be 
clear that that is what you said.
    Mr. Horowitz. That is exactly right. It is a clear waste of 
money to have to review these documents, ultimately go to the 
AG or deputy to give them to us. I will add, though, it does, 
and the AG has been supportive, the DAG has been supportive, 
but it then relies on us to get their approval. And clearly 
that is inconsistent with the--no matter how good their 
intentions are, it is inconsistent with the IG Act.
    Mr. Fattah. Right. It threatens your independence, right.
    Mr. Horowitz. Correct.
    Mr. Culberson. So what is amazing about 2010?
    Mr. Horowitz. It is the question everybody asks. And there 
is nothing that happens from a legal standpoint, policy 
standpoint, handling of documents standpoint.
    Frankly, the only thing that has happened is we issued a 
number of very hard-hitting reports in the mid 2005s about how 
folks were handling national security-related issues. And there 
is nothing else that happens in 2010.
    And, frankly, at the Peace Corps, I think the inspector 
general there who I have testified with several times on these 
issues, she would tell you the same thing. There is nothing 
magical about it. It is pretty clear that these are decisions 
that just from our standpoint I will say do not have a basis.
    Mr. Culberson. I will come back with some other follow-up. 
I want to make sure the other Members get a chance to ask some 
questions. So I will recognize my good friend, Mr. Fattah, at 
this point.
    Mr. Fattah. Thank you.
    First of all, I want to congratulate you in becoming chair 
of the Inspector General's Council. And, you know, as a 
freshman Member of Congress, I think working with former 
Congressman Chris Shays, I was one of the sponsors of the 
Inspector Generals Act. I think that it has worked well.
    I have told you this in private. I will tell you again that 
I think it has worked well and it is important that we focus on 
the major issues and the major spending in these departments 
versus kind of cherry picking, you know, at minor issues around 
coffee and doughnuts at conferences, I mean, so we kind of 
focus on the big ticket items.
    But I want to thank you for the cooperation in resolving 
some of the issues related to the national youth mentoring 
grant. There was, you know, some bureaucratic back and forth 
that caused some very significant hardships for some of our 
premier youth servicing entities in the country.
    And through your good work, you know, I think we kind of 
moved the ball down the field. So I want to thank you for that. 
And I do not know why you want to do this job, but I am glad 
you are doing it and good to see you.
    Mr. Horowitz. I have my doubts sometimes.
    Mr. Fattah. Thank you very much, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Fattah.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    First I will comment on what you were talking about there. 
You know, first off, I can tell you at least in state court, 
the district attorney does not have grand jury testimony 
available to the defense. They ask for it every time. They do 
not get it very often. So that is kind of a sacred cow for 
them. I think it probably is a sacred cow for the FBI, too.
    That is part of it. I know that is. And some of these other 
things that concern evidence that they might be using at trial 
is a very sacred cow, too. This is an adversarial position that 
these folks are in. I am not defending them, but I think there 
has got to be something to that effect on some of this.
    Back to my question because this is the world I live in 
right now. Last year, DOJ asked for 24 additional immigration 
judge teams. This year, they've asked for 55 immigration judge 
teams.
    Has there been any progress in identifying how effective 
these immigration judge teams are? With the continuing request 
for additional immigration judge teams, has there been a 
corresponding increase in removal letters considering that 42 
percent of all defendants sentenced in federal courts are non-
U.S. nationals?
    I am concerned about the continual release of non-U.S. 
nationals throughout the country by immigration judge teams and 
the subsequent crimes they commit. Do you track any of that 
data and are you looking into it?
    Mr. Horowitz. Those are all very significant questions, 
Judge. We did a review two years ago, shortly after I arrived, 
on the Executive Office of Immigration Review and their data 
and their success rates in complying with their own time lines 
and found serious issues with how they were counting cases, how 
they were measuring success and had several recommendations on 
how to improve that.
    And let me go back and look at where we currently stand two 
years later on that data and report back to you because it was 
a significant concern to us. A critical question is, are the 
performance metrics there that warrant additional positions 
like that. And that is something we have been focusing more and 
more on.
    With regard to tracking data and getting data, that has, 
frankly, been one of our biggest challenges as we look at our 
prison-related work which is the lack of data available at the 
department. We have essentially started doing that ourselves as 
we undertake our reviews because there is not those 
measurements there.
    So, for example, when we looked at the compassionate 
release programs, we did a sampling to try and figure out what 
recidivism rates were. When we are doing some of our current 
work on reentry and other programs, we are essentially doing 
our own work on those studies because that data is not there.
    So let me follow-up and see if there is such tracking data, 
but my guess is the answer is probably unlikely given what we 
are seeing in some other areas. But I will get back to you on 
that.
    Mr. Carter. Well, it goes to another question I have on 
recidivism rates.
    Mr. Horowitz. Right.
    Mr. Carter. The prison people tell us they are not doing 
any studies on recidivism rates. Recidivism is part of why we 
have----
    Mr. Horowitz. Right.
    Mr. Carter [continuing]. Prisons and why we have punishment 
systems and why we have alternatives to it, incarceration and 
all the other things we come up with.
    How effective is it in preventing crime and preventing the 
individual from coming back----
    Mr. Horowitz. Right.
    Mr. Carter [continuing]. Into the system?
    Mr. Horowitz. Right.
    Mr. Carter. If we are not confident in that data, maybe the 
Congress needs to act to have somebody collect it.
    Mr. Horowitz. Yeah. Yeah. It is a significant issue for us 
as we do this. We do not have enough people to constantly do 
large-scale studies. So what we are doing is taking selected 
samples to try and at least get some measurement.
    But as far as we are aware, the last study done at a 
federal level was a 1994 study. And obviously a lot has 
happened since then.
    Mr. Carter. Yeah.
    Mr. Horowitz. And we are trying to look at, for example, 
halfway houses, reentry programs, work-related programs in 
prisons all in the hope of trying to decide and evaluate, and 
contract prisons as well, who has got the best programs in 
place, what are the best practices out there, where can we make 
recommendations.
    If you have got, and the Bureau of Prisons does, three 
different companies providing contract prison facilities, who 
has got the best programs, which are showing up as the best 
handling of inmates, who has the best healthcare?
    We have seen the riots recently this past week in one of 
the prisons in Texas. Two other prisons had issues. Who is 
doing the best with managing the population, education 
programs. You can go on and on, and it seems to us which 
wardens are managing their facilities in the best ways. There 
are various metrics that we are trying to get and look at that, 
frankly, do not exist as we are doing some of these reviews in 
the prison area to try and figure out where spending can be 
reduced, where efficiencies can be found, and who is managing 
in the most effective way possible.
    Mr. Carter. And this really concerns me because, you know, 
even at our attorney general level in a little old, small 
county relative to the big Federal Government, we have those 
kind of studies in our----
    Mr. Horowitz. Right.
    Mr. Carter [continuing]. Probation departments recidivism 
studies to look at special alternatives to incarceration 
programs and halfway houses can be a headache that you cannot 
believe them because just two or three really bad events come 
out of a halfway house situation where somebody gets killed--I 
tried a capital murder case where two guys from a halfway house 
murdered a UT student. And let me tell you the community rises 
up in arms at that point in time. So it is important to get 
this data.
    Mr. Horowitz. Yeah.
    Mr. Carter. Thank you, John. I went over my time.
    Mr. Culberson. Thank you, Judge.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chair.
    And thanks for being here.
    I wanted to dive into the Government Performance and 
Results Act and the requirements that it has established for 
agencies. I am a firm believer that we should be focused on 
outcomes rather than just inputs.
    And I started looking through the priority goals and 
performance information for fiscal year 2014 and 2015 that 
accompanied the department's budget request. And it seemed to 
me a lot of the goals were, particularly those associated with 
violent crime, financial and healthcare fraud, and vulnerable 
people concentrate a lot more on actions rather than on 
outcomes and on results.
    So just as an example, on the vulnerable people section, 
the department said that it was going to, and I'm quoting, 
``open investigations concerning noncompliant ex-offenders at 
four percent over average in fiscal years 2012 and 2013, sexual 
exploitation of children, three percent over average for fiscal 
years 2011, 2012, and 2013,'' and so on.
    So I want to get a better understanding. How does opening 
investigations represent results-oriented management? And, you 
know, so what do the folks we represent get out of opening more 
cases and should the focus not be on outcomes of those cases? 
And if that is the goal, what ought we do?
    Mr. Horowitz. Right. I could not agree with you more, 
Congressman. And that is why this year for the first time we 
have as one of our top management challenges the performance-
based reporting by the department. This is an issue, frankly. I 
said I was a federal prosecutor in New York for seven and a 
half years. You got a pat on the back for the number of cases 
you did and what jail sentence people got and how many for the 
agents. It was how many people were arrested.
    But there were no measurements on have you reduced crime in 
the community, have you addressed the gang problem, have you 
focused on the corruption issues, whatever they were. And that 
is what led us to look at this year as one of the top 
challenges because when a police chief goes before the 
microphone and talks about crime, they talk about how they have 
reduced it, not how many people they have arrested.
    Mr. Kilmer. Yeah.
    Mr. Horowitz. And that is the same in program after 
program. And I think the department has to focus more in a lot 
of different areas on outcomes rather than just on actions. The 
prison area is one of them.
    And what we are trying to do as we look at these issues, 
and obviously with 170 or so auditors in a 100,000 person 
department, there is only so many reviews and audits we can do 
at a time, but what we are trying to do is make sure that our 
auditors are focused on precisely those questions so that when 
we are issuing reports, we are highlighting and making 
recommendations about the performance-based measures that need 
to be thought of.
    We are doing that. I have talked about that on the grant 
side. We saw that as an example. We did a report a year or two 
ago on grants issued to two local police departments. It turned 
out that, in fact, the departments had used the grant money as 
required under the grant. They bought the drones. It turned out 
they had just never gotten the FAA approval and they were 
sitting in a warehouse.
    So the check the box approach was ``gave you grant money, 
did you buy a drone? Yes, we bought a drone.'' But the next 
question was not did they use it, did it work, does it inform 
our judgment on future grants.
    Mr. Kilmer. Uh-huh.
    Mr. Horowitz. None of those. So those are the kinds of 
questions our folks are now thinking about and focused on. And 
I think, frankly, as you are looking at programs, I think these 
are the kinds of questions that need to be asked because it 
will reinforce and certainly support the kind of questions we 
are asking as well.
    Mr. Kilmer. Thank you.
    I think that is valuable feedback and I think we would have 
a strong appetite for working with you to drive that.
    Let me ask one other thing if time permits. So in 2013, the 
Congress reauthorized the Violence Against Women Act. And one 
of the key provisions of that was giving tribes the authority 
to exercise jurisdiction over domestic violence criminals 
regardless of their Indian and un-Indian status. And that 
provision goes into effect on March the 7th.
    Has your office looked into how the department has worked 
with tribal authorities to prepare for that, for implementing 
that new authority, and is funding needed or anything else 
needed to see that move?
    Mr. Horowitz. We actually have not. I am certainly happy to 
follow-up and see what we can learn about it. It is a very 
important issue. The Indian country issues, grant-related 
issues with Indian country are very significant.
    It is something that as the new chair of the Council of 
IGs, I am actually working with several other IGs to try and 
think about a cross-cutting initiative on Indian country 
issues.
    We have at the Department of Justice money that goes to 
Indian country. Interior, Education, HHS, Education, HUD, I can 
go on and on, Labor, and we have all come together and to meet 
to try and talk about how we can advance some of these issues. 
And I will follow-up on this one as well.
    Mr. Kilmer. Great. Thank you.
    Thank you, Mr. Chair.
    Mr. Culberson. Thank you.
    Also, Mr. Horowitz, I have a keen interest in Judge 
Carter's question, so please copy me on that, would you?
    Mr. Horowitz. Yes. Absolutely.
    Mr. Culberson. And find out about the number of removals 
the judges are actually ordering. Are they following the law? 
Are they doing their job? And then also, the recidivism is an 
incredibly important point.
    And I think, Judge, I heard you say you discovered 42 
percent of all defendants sentenced since----
    Mr. Carter. It is in his testimony.
    Mr. Culberson. Forty-two percent sentenced in federal court 
are non-U.S. citizens, an incredible number.
    Mr. Horowitz. Yeah.
    Mr. Culberson. An incredible number.
    Mr. Fattah. And it has grown.
    Mr. Horowitz. It's growing.
    Mr. Fattah. Significantly from where it was two years ago. 
If I could, Mr. Chairman, very quickly I want to compliment 
Judge Carter and his great work that he did on the Fort Hood 
banner and made some progress there and the Purple Heart.
    Mr. Carter. Thank you.
    Mr. Fattah. And the amendment to the national 
authorization. And along this general point that the judge is 
making, the committee has done some work here on Justice 
Reinvestment. I am not dealing with the immigration side of 
this, but the broad issue of Justice Reinvestment.
    And now we have two former members leading a task force, 
Congressman Watts and Congressman Mollohan----
    Mr. Horowitz. Uh-huh.
    Mr. Fattah. With a group of nationally recognized experts 
looking at this question of, you know, how we could deal with 
what you say is the number one, number one of the seven issues 
is our prison population at the federal level. And it is a 
problem in our states, too. So, you know, we are very 
interested.
    And, two, do your offices have information that is helpful 
to use, data that is helpful, you know, as we go forward? I am 
looking at Rand Paul on a major piece of legislation, the 
REDEEM Act, in this regard.
    So there is some broad consensus between Republicans and 
Democrats that we need to do something different than what we 
are doing because we presently incarcerate more people than any 
other country in the world on a per capita basis.
    And the federal budget went from $1 billion now to what, $7 
billion on the federal prison population. You know, it is 
taking up a bigger and bigger slice of the DOJ budget.
    So thank you, Mr. Chairman.
    Mr. Horowitz. And be happy to work with the group on those 
issues because it is a staggering dollar figure for the 
department. A quarter of the department's budget goes to 
prisons, $1.1 billion to healthcare on inmates. Three to four 
percent of the department's budget goes to support inmate 
healthcare.
    Mr. Culberson. And which I see from your testimony----
    Mr. Horowitz. Yeah.
    Mr. Culberson [continuing]. Is getting only more expensive 
as the population ages in the prisons.
    Mr. Horowitz. Yeah.
    Mr. Culberson. Thank you. Thank you very much.
    Let me recognize Mrs. Roby. Oh, excuse me. Mr. Jenkins. 
Forgive me.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Good morning.
    Mr. Horowitz. Good morning.
    Mr. Jenkins. Let's continue down that road of healthcare 
and the prison overcrowding. Actually, I served on our justice 
reinvestment effort in the West Virginia legislature and we 
have made the concept meaning, of course, that you are going to 
take the savings that you would have spent as you do things to 
reduce some of the cost, some of the incarceration numbers, and 
reinvest those so you are not necessarily putting a lot of new 
dollars, although oftentimes it does require a little jumpstart 
investment on the front end before you see that reduced prison 
population.
    You know, I have read your testimony and I am curious. 
Again, you have identified a top priority of the concern of the 
pending crisis, as you label it, and you talk about 
overcrowding and you although acknowledge that we actually saw 
a dip in the federal prison population the last fiscal year. 
And it is expected actually to continue to drop at least for 
the next few years.
    And you point out the issue of despite a reduced prison 
population, costs continue. And you identify, as you just have, 
healthcare as being one of the drivers of that.
    Let's talk about why healthcare. And the only thing I saw 
from your testimony here that you mention is an aging prison 
population, older people, higher healthcare costs, but dig in a 
little bit more for me other than just saying, well, we have 
got an older population.
    I understand. I have a healthcare background, but what are 
the factors driving the healthcare delivery system in our 
prison system? The healthcare benefits and services that our 
prison population are entitled to, are these being delivered in 
the most efficient way?
    And I shudder to think that our prison population is 
getting equivalent to a gold or a bronze or a high-level plan 
that a normal non-incarcerated citizen might not have access 
to.
    What have you all done looking into the healthcare delivery 
system and what the cost drivers are other than just we have 
got an older population?
    Mr. Horowitz. We have done some research on the drug side 
and the increasing cost, for example, the hepatitis issues and 
how the costs have increased for those kinds of medications, 
but we are actually right now in the middle of looking at some 
of these issues both in the contract prison area and in the BOP 
space on, and working actually with HHS OIG----
    Mr. Jenkins. Is there a robust effort to look at the 
contract services and the healthcare? I assume this is almost 
like a bundled payment structure versus the non-contract 
provider of prison services and look at who is getting the 
appropriate outcomes, but who is also providing the services in 
a cost-effective manner.
    Mr. Horowitz. Yes. And that is what we are trying to do in 
looking at these issues. In some respects, the delivery of 
healthcare in the BOP is very decentralized. In other places 
like at Butner and Springfield, which are medical facilities, 
it is much more centralized within the prisons.
    I think from our standpoint, one of the things we are 
trying to look at is the issues of the management on a broader 
level is more centralized versus the decentralized. There are 
arguments obviously each way depending upon the locale, some 
prisons in very remote locations.
    But there are some very fundamental questions. For example, 
the contract prisons, the companies that run the contract 
prisons often have their own healthcare companies that are 
providing that service. And we are trying to get behind that.
    And, frankly, that is one of the reasons for the request on 
the auditors that I made is those are very complex arrangements 
that we are trying to get in the middle of.
    Mr. Jenkins. Is there a clear description of the types of 
services that a federal inmate must be provided? What I have 
heard you just describe is the complexities of the 
decentralization and the multifaceted approach to all these, 
but is there really a core set of what services or are we 
wrestling even with what a federal prison inmate in West 
Virginia is entitled to compared to in another facility?
    Mr. Horowitz. I think there are those issues.
    Mr. Jenkins. That is my sense.
    Mr. Horowitz. And then you have the overlay with the 
contract prisons and how those are being managed. That has been 
reported as the reason for some of the riots at some of the 
private contract prisons is healthcare delivery or the lack 
thereof.
    So we are trying to get in the middle of that and 
understand it better. And that is where I will put a plug in 
for HHS OIG which has been very helpful to us in understanding 
how they are looking at the Medicare, Medicaid systems and how 
do those compare and what prices are being paid through 
Medicare, Medicaid versus what prices are being paid in the 
prisons.
    Mr. Jenkins. Let me have one additional question, Mr. 
Chairman, time permitted.
    The other is, you know, again, having been through Justice 
Reinvestment, a Reverend Watts in Charleston, West Virginia 
once said, you know, we need to start focusing on people we are 
really scared of, not people we are just really mad at. That 
was a pretty profound statement with regard to our prison 
population challenges.
    But the President has in his base budget proposed a cut to 
drug courts, cutting federal funding to drug courts. I know in 
our state, drug courts have proven very effective. And there is 
an initiative under the DOJ relating to the smart crime 
initiative.
    Have you done an audit of or have any involvement in this 
research of the smart crime initiative, which I understand is 
ongoing, which is supposed to identify whether or not some of 
these initiatives are working, and I understand you do not have 
the results yet, but we are still seeing a President's budget 
that says we think drug courts apparently are not effective and 
we are going to cut their funding?
    Mr. Horowitz. We have not yet initiated on the smart on 
crime initiative. Our plan was to do that later this year. It 
will be about two years that it will have been implemented so 
that we get some solid data actually analyzed. So we have not 
yet initiated it. I can get back to you, though, on what we do 
have on drug courts because I could not agree with you more.
    One of the things we are trying to do actually is look at 
what the states have done because, frankly, in the prison 
reform area, the states are way ahead of the federal 
government. We have looked at the largest states, Texas, 
Florida, California, Georgia, and New York, the fifth state, 
and see what they have done. And be happy to talk with you and 
your staff about what the West Virginia model was.
    But we are trying to take a look at that and see what 
learning we can get at the state level, but also as we look at 
reentry, pretrial diversion, drug courts, all of these 
alternatives to incarceration.
    And on the Sentencing Commission when I was there back in 
2003 to 2009 period, we did a hearing and a review on 
alternatives to incarceration and drug courts seemed to be 
working very well.
    Mr. Jenkins. Uh-huh.
    Mr. Horowitz. So I am quite familiar with it and that is 
why I want to look at some of these models.
    Mr. Jenkins. Do you think we should be cutting back on drug 
courts?
    Mr. Horowitz. It surprises me that we would try and do that 
as we look at all of these alternatives to incarceration.
    Mr. Jenkins. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. The President's budget is, of course, just a 
recommendation.
    Mr. Horowitz. Yes.
    Mr. Culberson. Great questions.
    I recognize Mrs. Roby.
    Mrs. Roby. Good morning.
    Mr. Horowitz. Good morning.
    Mrs. Roby. Thank you, Mr. Chairman.
    Some of us just left a look on VA hearing about--you know, 
regarding military families, and as I heard through their 
testimony and see this amount of wasteful spending, $23 million 
does not fix our problems, but I think it is flat-out wrong 
that we are trying to use our military as a means to an end and 
we have all those budgetary issues.
    But when I look at this and I see the amount of wasteful 
spending that you have identified, those dollars add up and 
they add up throughout our federal government.
    Mr. Culberson. And that is just what they are auditing.
    Mrs. Roby. Right.
    Mr. Horowitz. Right.
    Mrs. Roby. So is the American people and our military 
families, when we just left this hearing, you know, they are 
looking at us saying, you know, you are trying to figure things 
out on our backs, all the while compromising letting this. And 
this is the kind of stuff that is in the budget that we are 
finding. But we need to deal with this, and so I fully 
appreciate--but I want to find out more about that $23 
million--as I look through your testimony--the questioned cost. 
If you could do into a little bit more detail about where those 
dollars are formed and what do you anticipate to find 
throughout the rest of this fiscal year?
    Mr. Horowitz. Well, a fair amount of those findings come in 
grant areas where the oversight has been lax or not 
sufficiently rigorous to make sure that funds were not 
commingled. Asset forfeiture issues that have arisen, we have 
looked pretty aggressively at asset forfeiture questions, and 
whether the monies were being used properly and appropriately. 
We have looked at various Department programs. We did a review 
of the ATF's use of its undercover training funds, for example, 
on the law enforcement side and found how those monies were 
being commingled and used in a way that was not consistent with 
the intent of the program or at least being able to account for 
it in a way that was consistent with the intent of the program.
    And we are moving forward progressively this year in our 
review of grants. We are also doing, and have initiated several 
contract-related audits. One of the contract-related audits 
that we are close to releasing and issuing which involves the 
second-largest contract at the Justice Department is the Reeves 
County correctional facility that is managed by a private 
company in Texas--it is a $500 million-plus contract--and we 
are going to be issuing a report in the next couple of weeks on 
what our contract auditors have found in that regard, and we 
have others that we are undertaking as well.
    So we are trying to cover where the risk--where the 
greatest risks are which tend to be in the grant area and, 
frankly, the contract area.
    Mrs. Roby. That was going to be my follow-up question with 
you. If you could recommend to this committee where you think 
the greatest scrutiny needs to take place, and then following 
up with your previous answer as well, you know, if we could 
have a more detailed list of where you intend to--or where you 
found that $23 million and then where you are looking.
    Mr. Horowitz. Absolutely.
    Mrs. Roby. But could you tell us where you think the most 
scrutiny should be applied?
    Mr. Horowitz. We have found over the years when the grant 
numbers were as high as they were, that those were where the 
greatest risks were, the highest risks were in terms of 
dollars. We, obviously, have a number of significant risks in 
areas we have done in non-monetary reviews, but focusing just 
on the dollar-related issues, and we think there are 
significant issues, as contracts are now a quarter of the 
Department's budgets, with those contracts and putting 
aggressive scrutiny on them to make sure that they are 
performing as required under the contract, as required by the 
federal acquisition rules, and a number of those contracts were 
in the prison area; therefore, by the contract prisons, they 
are for health care and that is what we are trying to do more 
work on and that is why we have asked for the enhancement.
    But we have also tried to partner with HHS OIG to make sure 
that we are able to do that kind of work.
    Mrs. Roby. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Culberson. As in each of your testimonies, I would be 
interested in what have you identified as best practices. This 
is just systemic. It just seems like in every federal agency--I 
got here in 2001. I came out of the state legislature in Texas. 
It is not as bad in state government, but it certainly seems to 
be just throughout the federal government, as Mrs. Roby was 
just saying that the waste and the fraud and the abuse is just 
maddening.
    And if you could, as part of your testimony, for NASA, the 
Department of Commerce, and for DOJ, if you have found examples 
of programs that, on an ongoing basis, have done a good job of 
flushing out fraud, waste, and abuse, please let us know. I 
think about, Medicaid, if you identify Medicaid fraud and are 
able to bring it to the attention of the government, you can 
actually institute a qui tam lawsuit, I think it is called----
    Mr. Horowitz. Right.
    Mr. Culberson. [continuing]. And recover five to ten 
percent of any fraud that you undercover.
    Mr. Horowitz. Right.
    Mr. Culberson. I think that would be great motivation for 
federal employees. Why not give them five percent of anything 
they can find. Is there anything like that in existing law that 
they can flush out and save the taxpayers a hundred million 
dollars. It would not be a bad thing to take home a $5 million 
payday. I think that would root out a lot of waste.
    Mr. Horowitz. Mr. Chair, I agree. [Laughter]
    Mr. Culberson. It probably would not apply to congressmen--
it would not apply to us, but federal employees.
    Yes?
    Mr. Fattah. In your new role as chair of the IG counsel, 
one of the big agencies that have all been challenged is the 
Department of Defense; they have never even been able to 
comply, even audited, so, you know, I mean at all.
    Mr. Horowitz. Yeah.
    Mr. Fattah. And I think the new goal is to be audit-ready 
by the time we get to 2025.
    Mr. Horowitz. Right.
    Mr. Fattah. Which to have an agency that cannot be audited 
is a concern. I know the IG counsel in the past had made very 
strong statements about that, but since it takes up such a 
large amount of the budget and it is so important to our 
national defense, it would seem to me that those of us who are 
interested in efficiency and effectiveness would be as focused 
on that in terms of pushing for the help now.
    Mr. Horowitz. Absolutely. Yeah.
    Mr. Culberson. I do want to point out that if there is any 
Marine Corps or Navy veterans in the room, that the--I 
understand that the Marine Corps, and now the Navy, are the 
first branches of the military to adopt generally accepted 
accounting procedures. So the Marine Corps and Navy can now be 
audited by an outside private accounting firm; is that your 
understanding as well?
    Mr. Horowitz. Right. That is my understanding.
    Mr. Culberson. Yeah, it is a good thing.
    Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman. I apologize for being 
late; I was with Mrs. Roby at the MilCon hearing as well. I 
apologize.
    And so if the question has already been covered feel free 
to share with me, but I was hoping, you know, the foundation of 
any IG is the independence of your office. And I followed the 
issue with the IG Act and the FBI's interpretation of 6(a) and 
how that has developed over the past year or two.
    Can you talk about kind of where things currently stand, 
and I guess the concern--and I think you raise it in your 
testimony, rightfully so--that finally the process now 
instituted by the Department requires the Department's approval 
for your request or admonition of your request to the FBI to 
actually achieve it, which undermines, then, the independence 
of an authority of your office. Can you talk about where that 
is right now, some of your specific concerns and remedies that 
would actually really effectuate, you know, the change you need 
or just enforcement of the current law.
    Mr. Horowitz. Yeah, absolutely.
    So where things currently stand is the FBI continues to 
maintain. It does not believe we have the right to access our 
own documents in its possession, citing several categories in 
particular, as a legal reason. The AG and the Deputy AG have 
put in place a process where the FBI reviews the documents that 
we have asked for, does not produce them all right to us--they 
have to go through and review. That delays and wastes money. I 
mean there are costs associated with that.
    Mr. Jolly. Reviewing it on what standard? I mean, what----
    Mr. Horowitz. Whether there is any grand jury, wiretap, 
Fair Credit Reporting Act information, Bank Secrecy Act, and 
several other categories.
    Mr. Jolly. Are they adopting the FBI's position, 
essentially, when they are reviewing that?
    Mr. Horowitz. That is essentially what is going on.
    Mr. Jolly. And the Department that you are in charge of 
serving as the IG for is actually taking the FBI--clearly, I 
mean, taking the FBI's interpretation of this, right?
    Mr. Horowitz. The status quo is the FBI's policy right now.
    Mr. Jolly. Okay.
    Mr. Horowitz. So not changing anything means we are living 
under the FBI's legal interpretation, which is, it has to do 
this review. We are being treated like a civil litigant at some 
level; it is what they do for their civil discovery.
    Mr. Jolly. Right. Right.
    Mr. Horowitz. So we are part of the Department, but we are 
a civil litigant.
    Mr. Jolly. Right.
    Mr. Horowitz. So they are reviewing the documents to decide 
what not to give us because of their legal reasons.
    Mr. Jolly. Uh-huh.
    Mr. Horowitz. They, then, need to share it with the Deputy 
and the AG, who have committed to giving us everything. So we 
are spending money to withhold records that the AG said we 
should get.
    Mr. Jolly. Right. Right.
    Mr. Horowitz. That is where the process currently stands, 
and for which we have never mishandled records ever. I am a 
former prosecutor, I understand the concern about these. We do 
not generally ask for records in the middle of the criminal 
cases, so we do not interfere. That has never been the reason 
they have raised. And the Department's proposed resolution--
this is how the Department wanted to proceed, that was we did 
not object----
    Mr. Jolly. Uh-huh.
    Mr. Horowitz. [continuing]. Was to send it to the Office of 
Legal Counsel last May. We were told at one point it would be 
done by October. I maybe should have asked which October, but 
we are now in February and this is not that complicated.
    Mr. Jolly. What is the impact of some of your 
investigations?
    Mr. Horowitz. I will just give you an example. We had one 
that took almost a year of delay because of these issues. We 
have the two whistleblower matters that I reported on that we 
asked for in September and October. FBI whistleblowers, just to 
get a sense of it, we have authority over FBI whistleblower 
retaliation allegations. In my mind--put aside any legal 
issue--the FBI should not be looking at those records, period; 
there is a conflict. They should be handing them to us, what we 
need.
    Mr. Jolly. Uh-huh.
    Mr. Horowitz. Instead, they are reviewing them to decide 
what to withhold from us so they can go to the AG and say, 
``Should we give it to them''?
    Mr. Jolly. Right.
    Mr. Horowitz. That has gone on for months on a 
whistleblower retaliation matter.
    Mr. Jolly. The IG Act is clear.
    Mr. Horowitz. I do not think that you could have made it 
much clearer.
    Mr. Jolly. So the question, I mean it is a bit intriguing, 
what is the legislative fix or is there one? Is it just----
    Mr. Horowitz. I thought Section 218 would work.
    Mr. Jolly. Right.
    Mr. Horowitz. I thought Section 218 would work.
    Mr. Jolly. Well, I mean it is a real question. Is there 
anything on the authorizing side in the statute that you would 
say needs tweaking or is it really just enforcement from the 
subcommittee?
    Mr. Horowitz. The problem that we have had on our side, on 
the IG's side, and in talking with members, frankly, is we do 
not know really what needs fixing.
    Mr. Jolly. Right.
    Mr. Horowitz. Which is where, I had mentioned earlier, any 
opinion at this point would be good, because then, at least, 
members of congress have a roadmap. We have a roadmap of how to 
fix it.
    Mr. Jolly. Right.
    Mr. Horowitz. We could reinforce--you could take what is in 
Section 218----
    Mr. Jolly. Right.
    Mr. Horowitz [continuing]. And make it absolutely clear----
    Mr. Jolly. Sure. Right.
    Mr. Horowitz [continuing]. In the actual statute, but you 
would be writing against some unknown legal opinion lurking out 
there----
    Mr. Jolly. Got it.
    Mr. Horowitz [continuing]. From the Department.
    The easier way to do this--and this would resolve it. I 
mean we are at a standstill now where the FBI's process is the 
process. There is no resolution. I have another potential 
Section 218 letter to come up, depending on what I learn from 
the FBI, and these are going to continue because they are not 
changing their process.
    Mr. Jolly. So the Office of Legal Counsel needs 
encouragement to issue their opinion----
    Mr. Horowitz. Right.
    Mr. Jolly [continuing]. And the FBI needs encouragement to 
actually comply with Section 6(a) of the IGL Act.
    Mr. Horowitz. Right. And I have talked with Director Comey 
and what he, I think, would say is, We just need the----
    Mr. Jolly. Yeah.
    Mr. Horowitz [continuing]. Then to tell us we can do--we 
can give it to you, because in our view, we do not think we can 
right now, as the lawyers tell me.
    Mr. Jolly. All right. Thank you. I appreciate it very much.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.
    And the Office of Legal Counsel is simply an advisory 
opinion; that is not binding on anybody?
    Mr. Horowitz. That is correct. The AG and the Deputy have 
to decide what--how they want to handle that opinion.
    Mr. Carter. Can I chime in for a second?
    Mr. Culberson. Yes, please.
    Mr. Carter. There is no resolution designed related to any 
of this; it is all--I mean you said that you are treated as a 
civil litigant?
    Mr. Horowitz. Yes.
    Mr. Carter. But in the dispute of the civil litigant, there 
is always the judge.
    Mr. Horowitz. Right. That is right.
    And do you know what is interesting?
    Mr. Carter. Yes?
    Mr. Horowitz. For the GAO, they can go to a judge.
    We do not have any such authority.
    Mr. Carter. Well, I mean at some point in time there has 
got to be a resolution to this thing, and if we need to write a 
resolution to the law, then we need to write a resolution to 
the law.
    Mr. Horowitz. Right.
    Mr. Carter. It is insane that you are supposed to oversee 
the activities of people--in fact, you are supposed to police 
them up.
    Mr. Horowitz. Yes.
    Mr. Carter. And the people you are policing up can say, We 
are not going to give you the evidence.
    Mr. Horowitz. Yes.
    Mr. Carter. I am sorry, that flies in the face of 
felonious.
    Mr. Horowitz. And I would just add, there is no rationale 
that I can think of that would explain why Congress created our 
office in 1988, why it authorized us in 2003, and the Attorney 
General Ashcroft authorized us a year earlier to oversee the 
FBI, the DEA and all the law enforcement components at the 
Justice Department, yet you all thought we should not see the 
evidence that they gather for the cases you want us to oversee.
    Mr. Carter. Right.
    Mr. Horowitz. If I cannot look at grand jury information at 
the FBI, wiretap information, I am not sure why you would want 
me to look at the FBI, right?
    Mr. Carter. That is a fixable problem, but it needs to be 
fixed.
    Mr. Horowitz. Yeah.
    Mr. Culberson. And, fundamentally, and I have come to view 
our role as appropriators as, obviously, we have to allocate 
precious, hard-earned taxpayer resources, but really to be the 
enforcers. Fundamentally, we are the enforcers. The law is only 
as effective as it is enforced, and that is ultimately up to 
us.
    I think you are exactly right, Mr. Jolly, that we will help 
motivate these folks and to do the right thing and follow the 
law.
    Mr. Horowitz. And just to give an example of what----
    Mr. Culberson. We can only appropriate our hard-earned 
taxpayers' dollars for lawful purposes, right?
    Mr. Horowitz. And just to give an example of how it has had 
a positive effect, we had three open requests with DEA when the 
law went into effect in mid-December. By New Year's Eve we had 
all three of those records. So there was notice taken.
    Mr. Culberson. Yeah. We will be sure to help with that.
    And, also, if they are producing documents--if the agency--
you identified documents that you needed to pursue your 
investigation of the whistleblower case, for example, and the 
agency has the ability to go over those documents, I bet they 
are pounding on some employees that are identified in there 
that might be peripherally involved, I suspect, and that is a 
real problem.
    Mr. Horowitz. And, frankly, our biggest crisis in IG is we 
do not know what we do not know. We are sitting here waiting 
for records, yet they are being reviewed and in whistleblower 
retaliation cases, there are all sorts of appearance issues, 
let alone what is actually happening, so----
    Mr. Culberson. We will be sure to help in any way we can.
    I have a number of other questions that I am going to 
submit for the record because I want to make sure that we are 
able to hear from the Department of Commerce and NASA. You have 
so many important responsibilities. I would like to meet with 
you separately----
    Mr. Horowitz. Absolutely.
    Mr. Culberson [continuing]. And certainly welcome any of 
the members who would want to join me in that, because you have 
covered a lot of really important topics in your audits, in 
your reports, and in your testimony today, and we deeply 
appreciate your service. And we will do everything we can on 
this subcommittee to help make sure that the law is enforced in 
a timely and appropriate fashion.
    Mr. Horowitz. I appreciate that.
    Mr. Carter. Mr. Chairman, if I may?
    Mr. Culberson. Yes, Mr. Carter.
    Mr. Carter. I would like to suggest that the staff of the 
subcommittee have a conversation with the judiciary committee 
on the issues that we have been talking about here, a dispute 
resolution solution. This is very important.
    I tried a--case. I spent almost two weeks resolving, yes, 
you can have that, and no, you cannot have that. I know that 
somebody has got to do it.
    Mr. Culberson. Yeah, you got to----
    Mr. Carter. You cannot just stand up there and look at each 
other and say, No, yes, you know?
    Mr. Jolly. Well, what scares me right now is that the 
person who says whether or not you can have it, is actually the 
office that they are supposed to be----
    Mr. Culberson. Exactly.
    Mr. Carter. It did not make sense.
    Mr. Horowitz. Yeah. Yeah.
    Mr. Carter. So I would suggest that we all get at the staff 
level some good communications going with the judiciary 
committee.
    Mr. Culberson. Absolutely. And we will, I assure you that 
the staff and this subcommittee will all work together to make 
sure that there is ongoing and aggressive encouragement.
    Mr. Horowitz. All right. I appreciate it.
    And I look forward to meeting with you and the staff going 
forward on any issues that you think would be helpful with, I 
look forward to it. I appreciate all of your support.
    Mr. Culberson. Any other questions?
    Thank you very much for your service to the country. I look 
forward to meeting with you privately and with other members of 
the committee.
    Mr. Horowitz. Thank you very much. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Horowitz.
    At this time we are going to recognize Todd Zinser, 
inspector general for the Department of Commerce.
    And, Mr. Kilmer, I understand you will substituting for Mr. 
Fattah right out of the gate.
    Mr. Zinser, we sincerely appreciate your service to the 
country. I enjoyed our visit in my office. I am looking forward 
to doing that with Mr. Martin as well and with Mr. Horowitz.
    And I will, of course, enter your statement--your testimony 
in its entirety into the record, if there is no objection, and, 
of course, would encourage your summarization of that hitting 
on the high points. And, again, I did not see it in here, but 
as I mentioned earlier, I would be very grateful to hear from 
you and from Mr. Martin if you found some examples of best 
practices. Are there existing, either programs or policies, in 
the Department of Commerce, for example, that have demonstrated 
a pretty good ability on an ongoing basis to undercover fraud, 
waste, abuse, duplication, that sort of thing. I would be 
interested in that. But we welcome your testimony, and thank 
you for your service to the country.
                                      Wednesday, February 25, 2015.

                  UNITED STATES DEPARTMENT OF COMMERCE

                                WITNESS

TODD J. ZINSER, INSPECTOR GENERAL
    Mr. Zinser. Thank you, Chairman, Ranking Member Fattah, 
Members of the Subcommittee. We appreciate the opportunity to 
testify today as you consider the fiscal year 2016 
appropriation for the Department of Commerce.
    As the Subcommittee is well aware, the Department of 
Commerce is very diverse and all of its bureaus do important 
work for the taxpayer. My testimony today will briefly 
summarize eight challenges and concerns that we have identified 
throughout our work.

                            NOAA SATELLITES

    First is NOAA's environmental satellite programs. The Joint 
Polar Satellite System, or JPSS, and the Geostationary 
Operational Environmental Satellite-R Series, or GOES-R, each 
has a current life cycle cost of about $11 billion. Our work is 
indicating the potential for a gap in polar satellite coverage 
of 10 to 16 months in fiscal year 2017, and the GOES-R program 
is at risk of not having a backup satellite in orbit this 
fiscal year and extending into 2016, and, again, with GOES-S in 
2017 and 2018. NOAA must focus on maintaining the current 
baseline of the cost, schedule, and performance of these 
acquisitions to avoid further delays--and also on its plans to 
mitigate any coverage gaps.

                         CYBERSECURITY CONCERNS

    Second, serious cybersecurity concerns persist at the 
Department. The Department must address, for example, security 
weaknesses in its incident detection and response capabilities, 
as well as persistent security deficiencies that make the 
Department vulnerable to cyber attacks. NOAA IT systems that 
support its satellite programs are a particular concern, 
including a recent hacking in the fall of 2014 that affected 
some of those systems.

                         2020 DECENNIAL CENSUS

    Third, the Census Bureau must design and implement a cost-
effective and accurate 2020 decennial. Even if the Census 
Bureau is able to maintain the cost-per-housing unit it 
achieved for the 2010 decennial, which averaged $94 per housing 
unit, the estimated cost of the 2020 decennial would be nearly 
$18 billion, or around $5 billion more than 2010. The Census 
Bureau and the Department must make significant 2020 design 
changes to achieve an accurate census while substantially 
containing those costs.

                     COST-SAVING FINANCIAL CONTROLS

    Fourth, the Department must strengthen controls over its 
finances, contracts, and grants. And this is an area where I 
think there are potential for cost-savings, Mr. Chairman. 
During the period of 2012 to 2014, the Department obligated 
over $7.6 billion in contracts and over $3.6 billion in grants, 
which represented nearly one-third of the Department's overall 
budget during that period. These included hundreds of millions 
of dollars in sole-source contracts, other high-risk contracts, 
and sensitive acquisitions. Our audits indicate that the 
Department must improve its awarding and monitoring of 
contracts and grants.

                            ISSUES AT USPTOC

    Fifth, the U.S. Patent and Trademark Office must 
reducepatent backlogs in pendency, address quality issues, and 
strengthen workforce management. For fiscal year 2016, USPTO is 
requesting authority to spend fee collections of $3.2 billion. USPTO 
faces challenges with reducing wait times for issuing determinations on 
new patent applications, appeals and other filings, as well as with 
responding to stakeholder concerns related to patent quality. As 
indicated in investigations last year, USPTO will also face significant 
challenges managing the time and attendance of its examiners in its 
telework programs.

                          FIRSTNET CHALLENGES

    Number six, FirstNet's implementation of a nationwide 
public safety broadband network. FirstNet has been authorized 
to spend $7 billion in mandatory funding to accomplish its 
mission. However, FirstNet's startup has posed many challenges. 
In December 2014, for example, we reported on ethics- and 
procurement-related issues. The Department has acknowledged our 
findings, concurred with our recommendations and undertaken 
corrective actions.

                      DEPARTMENTAL ACCOUNTABILITY

    Number seven, the Department must continue to foster a 
culture of accountability. In fiscal year 2014, OIG 
investigated and audited several high-profile matters directly 
resulting from a lack of compliance with laws, rules, 
regulations, and ethics guidelines, and which reflected serious 
mismanagement. This is an area that requires continued emphasis 
by OIG and Departmental management.

               CHALLENGES TO OIG INDEPENDENCE AND ACCESS

    Finally, Mr. Chairman, the Department must ensure that 
Office of Inspector General independence and access are more 
strongly supported. In August 2014, I was one of 47 Inspectors 
General, along with IG Horowitz and IG Martin, who signed a 
letter to Congress concerning access and independence issue. 
There are several current issues discussed in my written 
testimony, including a two-year delay from the Department's 
Office of General Counsel in processing audit policies to 
ensure OIG's direct and full access to records during OIG 
audits.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions.
    Mr. Culberson. Thank you very much, Mr. Zinser.

                           MANAGEMENT ACTIONS

    What, if any, consequences are there for a Federal 
employee, for example, a Department of Commerce--frankly, I am 
sure it applies elsewhere as well--when they fail to comply 
with laws, rules, regulations, and ethics guidelines?
    Mr. Zinser. Well, sir, the penalties vary. We have seen 
cases where the Department has not done anything. We had a case 
last year, for example, where it took 18 months for the 
Department to take any action on an investigative matter we had 
referred to them.
    Mr. Culberson. What action did they take?
    Mr. Zinser. I think, at the end of the day, there was a 
suspension in that case.
    Mr. Culberson. A suspension?
    Mr. Zinser. There are cases where there have been removals, 
but it varies greatly. We are doing some work at PTO, for 
example, where employees or examiners, for example, engage in a 
misconduct called ``patent mortgaging,'' where they submit work 
knowing that it is not sufficient or not completed and that is 
a case of misconduct.
    We found, and we are going to be issuing this audit in the 
near future, that the penalties for that varied very widely, 
so----
    Mr. Culberson. Such as?
    Mr. Zinser. Well, from no action to suspensions. I do not 
think anybody has been removed for that misconduct.
    Mr. Culberson. So the worst thing to do under Federal civil 
service guidelines, is a suspension?
    Mr. Zinser. I think that is the most common response. 
Management can remove employees, but suspensions are more 
common.
    Mr. Culberson. I will never forget this Exhibit A when I 
first got on a Military Construction VA Subcommittee--and Judge 
Carter may remember this as a fellow Texan--there was a 
cemetery director at the Houston VA cemetery in Houston who 
closed the chapel, removed the Menorah and the Bible, padlocked 
it, used it to store boxes, and turned off these--these guys 
had landed at Normandy Beach, I mean these wonderful old 
gentlemen who made it possible for us to be here--contributed 
money to build a carillon to chime bells--she turned that off 
and then forbid the families from praying over the grave of 
their deceased loved one.
    I cannot imagine it getting worse than that, and I was 
Chairman of the Subcommittee and they would not fire her, would 
not even suspend her. The only way that I was able to get her 
removed is, I just frankly just had to get on the phone with 
the Secretary of the VA. Of course the entire State of Texas 
and all of Houston was in an uproar, understandably; it was 
just an outrage. They still did not fire her. All they did was 
move her to headquarters and put her in charge of proofreading 
memos. Just unbelievable.
    What recommendations have you--would you make--and I would 
certainly welcome this from Mr. Martin, as well as Mr. 
Horowitz--to changes in personnel policy so that you can 
actually either penalize somebody? Obviously you also would 
want to reward them for good behavior, you know, award bonuses 
if you are doing a good job--but what recommendations would you 
have for us to change the law to allow for these agencies to 
actually ding people in the pocketbook and, frankly, remove 
them if necessary? For example, the polar satellite, someone 
who manages these incredibly expensive programs--if it is a 
technical problem, I understand it, but if it is incompetence--
you see this over and over and over again--Mr. Martin has seen 
it, I am confident, in some of the NASA satellite programs 
where you have got these massive cost overruns. What 
recommendations do you have for us about how we can hold people 
accountable?
    Frankly, as I am sure you know, Texas is an at-will State; 
if you do not do your job, you are fired. What do you recommend 
that we do at the federal level?
    Mr. Zinser. Well, it is a very complicated issue based on 
the number of different appeal avenues that employees have once 
management seeks to scrutinize performance and scrutinize 
misconduct. There are a number of avenues that employees take 
to avoid being accountable. So I think one area would be to 
take a performance action or a conduct action against an 
employee. Performance actions are very, very time-consuming. 
Management must be very detailed. They are very difficult----
    Mr. Culberson. Under the Civil Service Rules?
    Mr. Zinser. Under the current rules, and in many cases, 
when the poor performance is very evident, managers still have 
to go through a very tedious process to document and take 
action.
    Mr. Culberson. I would certainly welcome--I know all of us 
would--your specific suggestions on how we could help change 
the law because it is just an ongoing, absolutely maddening 
problem.
    Mr. Zinser. I would be happy to submit some 
recommendations.
    Mr. Culberson. If you cannot fire somebody for not letting 
a family pray over the grave of a deceased veteran, you cannot 
fire anybody. That just is absolutely incredible.

                               OIG ACCESS

    I gather you have similar problems, as Mr. Horowitz, in 
being denied access to information, and I want to ask if you 
could talk to us a little bit about the challenges you have had 
getting information for the Department of Commerce. Do you have 
any information requests pending, and has the Secretary been 
helpful in making various Commerce Bureaus work cooperatively 
with your staff?
    Mr. Zinser. Yes, sir.
    Access and independence issues are really just part of the 
landscape that IGs deal with, and some cases are more serious 
than other cases. We had a very serious case back in November 
2012 that this Subcommittee helped on where, two months after 
we issued a critical report of the polar satellite program, we 
were banned from attending their monthly program management 
council meetings, which we had attended for a long time.
    Mr. Culberson. No kidding?
    Mr. Zinser. And this Subcommittee wrote a letter on our 
behalf. That persisted from November 2012 until Secretary 
Pritzker came in, in the summer of 2013, and finally reversed 
that order. So that was a very serious issue.
    We have issues on a smaller scale: for example, I just had 
an auditor in one of the field offices for one of the bureaus, 
and the management there insisted on escorting my auditors from 
cubicle to cubicle if they had to interview employees. That is 
just not acceptable.
    So the issues vary. Currently, we have a request 
outstanding. For example, we are trying to do a data analytics 
project at the Census Bureau to look at the data that is 
created when employees enter and depart the building using 
their swipe badges. We have been denied access to that universe 
of data and the Department is citing the Privacy Act to assert 
that its systems of records notice does not permit the IG to 
have those records for that purpose. So we have been waiting 
for a year for the Department to change its systems of record 
notice.
    Mr. Culberson. Oh, please let us help you. We would be 
delighted.
    Mr. Zinser. I would be very grateful.
    Mr. Culberson. As Mr. Jolly said earlier, we are the 
enforcers.
    Mr. Zinser. I would be very grateful. In that case, the 
Census Bureau had 28 cases last year of time and attendance 
abuse by employees and we are concerned that it is a bigger 
problem than that.

                             FEDERAL GRANTS

    Mr. Culberson. One other quick question. If you are a grant 
recipient, State, local, or nonprofit, for example, and the 
agency is not doing proper oversight and the grant money has 
been misused in some way, what consequences, if any, are there 
for a grant recipient, as a general rule for the Department of 
Commerce?
    Mr. Zinser. Well the grant environment at Commerce is 
somewhat difficult to monitor because a lot of the grants are 
smaller-dollar amounts relative to other departments. But there 
are a lot of grants--as I mentioned in my testimony, over the 
past three years, Commerce has spent $3.6 billion in grants. 
The consequences should be that the grantee is required to 
repay the money.
    Mr. Culberson. Thank you. That is what I was looking for.
    Mr. Zinser. That, too, is something that you really have to 
stay on the agencies to get them to do that.
    Mr. Culberson. Does current law require a grant recipient 
who misuses the money or engages in fraud, waste or abuse, for 
example, to disgorge the money and return it? Is that current 
law or internal regulation guidelines for it?
    Mr. Zinser. Well, there are certainly laws against 
converting Federal funds for your own use. So we do have cases 
where grantees or principals of grantees steal money and, if 
they are caught, they get prosecuted.
    Mr. Culberson. But if they are not using it for the purpose 
for which the grant was intended, for example, they just buy 
the drone, they do not get FAA approval or whatever, do they 
have to disgorge it and return the money?
    Mr. Zinser. The Department can go through a process 
requiring them to return money under current regulation and 
law.
    Mr. Culberson. Okay.
    Mr. Zinser. But the Department has to have the will to do 
that.
    Mr. Culberson. That is another one I would be interested in 
pursuing.
    All right. Let me, if I could, recognize Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman.

                         CYBERSECURITY CONCERNS

    And thanks for being here. I was struck by your written 
testimony that the degree in which cybersecurity is a concern 
and a problem. You know, I know that your office submitted a 
lot of recommendations to NOAA following their cyber attack 
against NOAA in 2014.
    Do they have the capacity and the capability to actually 
maintain an IT infrastructure to avoid future cyber attack?
    Mr. Zinser. I believe they do. I just think it requires 
much greater attention and vigilance than what they have 
applied. And I think the other thing that we have run into, 
especially in the NOAA IT area, is a resistance to our 
oversight. If NOAA were more receptive to our oversight, and 
worked more closely with us in resolving some of those issues, 
it would be a lot better.
    Mr. Kilmer. So what is the issue and what is the concern 
they raise and why would not they adopt your recommendations?
    Mr. Zinser. Well, I think it is a matter of applying the 
resources to it, sir.
    Mr. Kilmer. Okay.
    Mr. Zinser. We made recommendations on one system back in 
2010 and the answer was that we are going to replace that 
system, so we do not want to put the resources into 
strengthening the security of that system. That system has not 
been replaced and it is 2015.
    Mr. Kilmer. Got it.
    Can you talk more about what else needs to be done to 
improve--outside of NOAA--everything from incident detection 
and response to cyber attack against the Department and the sub 
agencies?
    Mr. Zinser. I think one area where the Department is 
improving is they are centralizing some of the oversight 
requirements for IT security. They have two primary projects 
that they have underway. One is called ESOC, which is to set up 
a central facility to monitor the networks for suspicious 
activity.
    Mr. Kilmer. Uh-huh.
    Mr. Zinser. And they are making progress on that. And the 
other project is called ECMO, which is basically software 
programs that each of the bureaus are required to implement to 
guard against systems that are not properly patched or 
configured. It is a continuous monitoring program that they are 
instituting, and it costs each of the bureaus money to put that 
in place, and they have made some progress on that.

                       CONTRACTS AND ACQUISITIONS

    Mr. Kilmer. I want to also ask about the concerns around 
acquisition policy. Your testimony mentioned concern about the 
use of time and materials and labor hour-type contracts. You 
know, I do not think it is Congress' role to dictate how 
contracting officers specifically structure their contracts, 
but I think it is important that we make sure that they are 
educated about, and have the tools that they need to make good 
business decisions. So with that said, what do you think is 
driving the use of some of these more risky contracts and what 
do you think we ought to do to make sure that the use of those 
contracts is appropriate?
    Mr. Zinser. Thank you.
    The contracting choices that are made by contracting 
officers are certainly the bailiwick of the contracting 
officers. Regarding some of the issues we have found, though--
for example, on sole-source contracting--we have done audits 
where the justification for sole-source just is not adequate. 
And, of course, a contract that has been competed, 
theoretically, is more cost-effective than a sole-source 
contract. So sole-source contracts, by nature, are high-risk.
    I think the other shocking thing from our perspective is 
that, when we go in and look at contracting offices and 
contracting files, there are files that are missing. And even 
on files that are not missing, we find where some of the 
supporting documents for some of the payouts just is not 
present. So a lot of it is kind of simple hygiene in terms of 
the contract offices.
    Mr. Kilmer. So I guess just to put a fine point on it, is 
there something that you recommend that we do to try to drive 
better behavior in that regard?
    Mr. Zinser. Well, I think that the people in charge of 
those contracting offices are the folks that you have to look 
to to really put in place the rigor and the discipline of their 
contracting staff. And I think that the skill sets of the 
employees would be particularly important to look at because 
contracting staff is very competitive. The government is not 
only competing with other government agencies; it is competing 
for contracting talent in the private sector.
    Mr. Kilmer. Yeah.
    Mr. Zinser. So I think that there are steps being taken for 
training and schools for contracting officers, and I think that 
supporting those efforts would be good.
    Mr. Kilmer. Thank you.
    Thanks, Mr. Chair.
    Mr. Culberson. Thank you, Mr. Kilmer.
    And I recognize Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Zinser. I actually have a lot 
of questioning I promise you, you did not see coming this 
morning.
    Mr. Zinser. Okay.

                             NOAA FISHERIES

    Mr. Jolly. I am trying to figure out a way for local 
fishermen in my district to have more days to catch red snapper 
than the current nine days. I am telling you where I am trying 
to get to and this is where you come in. In your testimony, you 
talk about a continuing emphasis on compliance with the law. So 
the issue, and I am hoping that you can educate me--and, Mr. 
Chairman, this is a real priority for me on this Subcommittee--
so we have Magnuson-Stevens out there, it is up for 
reauthorization. And one of the issues that--and this has an 
enormous economic impact; it is not something to make light 
of--between commercial, recreational, for-hire, what it means 
for our economy, for the quality of life in our coastal 
communities around the Gulf--and Ms. Herrara Beutler is going 
to talk to you about salmon later.
    But here's the issue, and this is really where I want you 
to educate me. Currently under Magnuson, NOAA, NMFS, the 
science centers are required to consider third-party 
independent research when it comes to stock assessments. And I 
have put together a 30 or 40-person council in my district of 
all the different sectors. The one thing they keep saying is 
that the agency will not consider third-party data. And so the 
closures are based only on the internal data that they have and 
they are saying ``no, thank you'' to a lot of the third-party 
data.
    My question for you is really in the compliance of the law 
and how your office, on a macroissue like that, I mean we are 
talking simple statutory language, how do we push--because we 
have gone full circle with this--do we need to change the 
language in Magnuson and, frankly, it comes back to no; we just 
need the agencies to comply with what the existing statute 
says.
    Mr. Culberson. And enforce it through this subcommittee.
    Mr. Jolly. And enforce it regarding third-party data.
    Where does your office come into that in something as, you 
know, cumbersome as simple compliance with a statute like that?
    Mr. Zinser. Well, I think the simple answer on fish stocks 
is, as you were suggesting, better science. They have to rely 
on better science.
    Mr. Jolly. The amount of data, science, that solves all of 
this. So my question is how do we get the agency to consider 
what they are required to consider under the law when it comes 
to third-party data and science?
    Mr. Zinser. Well, we could certainly do some work to find 
the areas where they are not doing that. We did some work 
probably four or five years ago where we did look to see 
whether NOAA was using--the Magnuson-Stevens Act best-available 
science----
    Mr. Jolly. Right. That is right.
    Mr. Zinser [continuing]. Then NOAA decides what that is.
    Mr. Jolly. Right.
    Mr. Zinser. So we were not able to say that NOAA was not 
using best-available science because NOAA decides what the 
best-available science is.
    Mr. Jolly. Right.
    Mr. Zinser. I do not know whether our office would have the 
expertise to do it, but there are organizations out there, the 
National Academy of Science for example----
    Mr. Jolly. Sure.
    Mr. Zinser [continuing]. Who could do a study or provide 
some assistance on how we get beyond that issue of best-
available science.
    Mr. Culberson. But you could certainly help identify 
whether or not they are using third-party data, as required by 
the statute----
    Mr. Jolly. Yes. And then to evaluate their interpretation 
of best-available science. It is kind of like the last panel, 
if the agency is saying, ``Trust us'', we are using the best-
available science, it is hard for you to question that unless 
we have an outside review of how they actually are coming to 
that conclusion.
    And, NOAA and NMFS, they are in my district; they are a 
constituent entity in my district, so it is something I want to 
work with them on, but it is a serious impediment to our 
economy in the Gulf States and to the quality of life. And, if 
you talk to folks on the water, they say we have more red 
snapper than we have ever had before.
    And then you get into this conundrum because then the 
agency says, ``Right, see, it is working.''
    Mr. Zinser. Yes.
    Mr. Jolly. But at what point do you declare success and 
begin to open it up.
    Mr. Zinser. What I do not know is, for example, whether 
NOAA uses peer review for fish stock--and I should know this, 
but I do not--and, if it does, who sits on those peer reviews?
    Mr. Jolly. That is the issue, and Mr. Chairman, we can talk 
about this offline. I actually think there is a way to work 
with the agency on this through a cooperative research 
institute that still stays under the jurisdiction of NMFS, but 
aligns them--and there is precedent for this within the 
Department--a cooperative research institute where we know now 
that third-party inspect researchers, peer-reviewed, have a 
seat at the table and we know it has to be considered.
    So I would like to work with you on that.
    Mr. Culberson. I would be happy to help with that.
    It is a big issue in Texas----
    Mr. Jolly. I appreciate that.
    Mr. Culberson. And the Governor's Office just spoke to me 
about it last week.
    Mr. Jolly. Thank you, Mr. Chairman.
    Thank you very much.
    Mr. Zinser. Thank you.
    Mr. Culberson. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    And, good morning.
    Mr. Zinser. Good morning.

                        USPTO MANAGEMENT ISSUES

    Mr. Honda. Speaking in general, in your testimony, you 
mentioned challenges that USTPO has and has been facing in 
managing its telework programs and the Department and the USTPO 
have undertaken a number of initiatives to address these 
workforce management issues. So, very quickly, can you tell us 
more about the steps that have been taken to address this 
challenge and have you evaluated those changes, and if so, what 
can you tell us about those differences?
    Mr. Zinser. Yes, sir.
    First, I think PTO is very focused on it since issues came 
to light last summer. I know that they are not ignoring the 
issue. It has brought in an outside party, the National Academy 
of Public Administration, to do a study and that is still 
ongoing.
    We are having regular interactions with PTO management on 
the steps that it is taking; I can tell you a couple of them, 
for example. One is that it has allowed the supervisors to 
access records that they were not really easily approved to 
have before when they think an employee has not been answering 
calls and has not been responding to emails. In the past, they 
really were not able to use other computer records, for 
example, to see whether the employee logged on that morning. 
PTO has freed that up a little bit: the whole issue of holding 
the examiners accountable really boils down to the supervisors' 
interaction with their teams, and PTO is letting the supervisor 
now do more data gathering when they think that they have got 
an employee not reporting to work.
    Another example is that PTO is allowing the supervisors to 
look at their docket management more frequently. In the past, 
they would not really look at the production of the employee on 
a regular basis. So you ran into this phenomenon called end-
loading where, during a quarter, the patent examiner would have 
a number of applications assigned to him or her and there would 
be very little work done during the first part of the period, 
but at the end of the period the supervisor would be flooded 
with these applications. PTO is letting the supervisor now 
monitor the workload more frequently through the period to make 
sure that the employee or the examiner is working on a 
consistent basis.
    Mr. Honda. It sounds like it is an evaluation technique 
that you have to go through a long period of time in order to 
evaluate whether a supervisor or a examiner is doing their job 
in a timely manner and it seems like patents and trademarks are 
more kind of a time-oriented issue that needs to be dealt with. 
I do not hear that that is the kind of evaluation that is being 
placed upon this process to see if telework is the appropriate 
way to go. Given the time that you described, it seems to me 
that there needs to be more a refined approach to it, because 
the patent applicants, they want to know as soon as possible, 
or is that built into that evaluation? If you can give us 
something offline on that and share that with us, I would be 
very interested in it.
    Mr. Zinser. I would be happy to do that.
    Mr. Honda. Okay, because the USPTO is a very important 
agency that is based upon time. And I understand using 
technology would be helpful, but it seems to me that if you do 
not monitor the time and efficiency and the efficacy of 
returning information back to the patent holder becomes in 
danger.

                             EEO COMPLAINT

    Under the Equal Employment Opportunity, Inspector General, 
two weeks ago your office was found to have engaged in 
retaliation against an employee who filed an Equal Employment 
Opportunity complaint. To address this violation, the office 
has been ordered to compensate the employee for back pay and 
several Commerce Office of the Inspector General supervisors, 
including yourself, have been required to take EEO training.
    In addition, you were ordered to post a letter in your 
offices when the EEO investigation was completed on Friday, 
February 13th. I have a copy of the letter here and the letter 
describes the violation that occurred and reaffirms your 
office's commitment to ensure that all Federal Equal Employment 
Opportunity laws are followed and reaffirms your office will 
not retaliate against employees who file EEO complaints. 
However, it is my understanding that this public letter and 
statement has yet to be posted by you or your office.
    So the question, I guess, is have you posted the letter 
ordered by the Department of Commerce Office of Civil Rights, 
which found your office retaliated against a former employee, 
has that been done?
    Mr. Zinser. I do not think it is posted yet; we are in the 
process of doing that. My understanding is that the employee 
has an opportunity, a 30-day window, to appeal. So part of the 
issue is to determine whether the employee is in that appeal 
window, but we are in the process of posting that on both a 
physical posting site and our internet site, sir.
    Mr. Honda. Well, wait a minute. You said that the employee 
has a right to appeal a judgment that was in that person's 
favor?
    Mr. Zinser. Well, yes, sir, that is the way the process 
works. The Department----
    Mr. Honda. Well, it seems to me an appeal would be on your 
side rather than on--I am not an attorney, so you have to 
correct me. Why would a plaintiff appeal a judgment for them?
    Mr. Zinser. Yes, sir. Well, the judgment was called a final 
agency decision, which means somebody in the Department issued 
the judgment versus a judge. And in that case, for example, the 
employee made 40 allegations. In one of them, the Departmental 
official ruled in the employee's favor on one of them. So if 
the employee felt, for example, that that judgment was 
deficient, the employee can appeal to the Office of Federal 
Operations at EEO. The IG's Office has no right to appeal any 
of it and we are not interested in doing that. It is just a 
logistical thing in terms of posting the letter.
    Mr. Honda. This notice to employees that you were ordered 
to post by yourself and your offices, this notice is posted 
pursuant to a final agency decision of the U.S. Department of 
Commerce Office of Civil Rights dated Friday, February 13th, 
which found that a violation of Age Discrimination Employment 
Act as amended has occurred at this facility, and it seems to 
me that you were ordered to post this letter and you have not 
done that yet.
    Mr. Zinser. Yes, sir. We do have a period of time to do 
that and we are in the process of doing it; it is a logistical 
issue.
    Mr. Honda. February 13th and this is February 26th.
    Mr. Zinser. 25th.
    Mr. Honda. How long does it take for you to determine 
whether you should or should not follow the order of the Office 
of Civil Rights to post something?
    Mr. Zinser. Well, that order came down on a Friday; that 
Monday was a holiday. On Tuesday, OPM shut down the DC-area 
Federal government due to hazardous weather. On Wednesday, I 
did ask my staff to post the letter and I will go back to see 
whether or not it has been posted.
    Mr. Honda. So you asked or you told them to? I mean, this 
is an order.
    Mr. Zinser. Well, okay, I told them to, but I brought my HR 
director into my office, informed her of the decision, and 
asked her to get it posted.
    Mr. Honda. Did you give her a time definite?
    Mr. Zinser. Well, I asked her to work with our Counsel's 
office to get that accomplished, sir.
    Mr. Honda. How about ASAP? I mean, it seems like an order 
is an order. It did not tell you that you had any leeway.
    Mr. Zinser. We did have conversations with the Office of 
Civil Rights about that, sir, and, like I said, we are in the 
process of posting it.
    Mr. Honda. So----
    Mr. Zinser. We will get it up.
    Mr. Honda [continuing]. Can you tell us by when?
    Mr. Zinser. We will get it up, if today is Wednesday, no 
later than Friday.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Honda. I recognize Ms. 
Herrera Beutler.

                             NOAA FISHERIES

    Ms. Herrera Beutler. Thank you, and thank you for being 
here. In Southwest Washington, my district, it goes from the 
Pacific coast, from the mouth of the Columbia up to the tip of 
Willapa Bay, and the salmon hatcheries on the Columbia River, 
which are Mitchell Act funded, support recreational and 
commercial fishing. So it is kind of very two opposite ends of 
the country, but we both have fish issues, surprisingly. 
Different fish, mind you. These fisheries support thousands of 
jobs in our region. And actually, I should add, up the 
coastline it is an amazing resource that we love, protect and, 
as we protect it, it also takes care of us in the form of 
commercial activity, it provides for families. And despite the 
importance of these hatcheries, I feel like we are having some 
challenges that we cannot address that are threatening our 
livelihood. I was really upset to see NOAA requested $3 million 
less to the Salmon Management Activities account and those 
reductions target Mitchell Act hatcheries. And even under this 
spending level we know that the number of fish released is 
decreasing as costs escalate.
    We had certain answers on this information, but what I 
would like to understand, despite the fact that as you take 
away money and you allocate less resources and time to 
something, they are maintaining in their budget document that 
they are going to be able to meet their obligation for 
operation and maintenance and their obligation to meet the 
hatchery reform responsibilities, which I am not totally sure 
how they are going to do that. Do you have any insight--and I 
know this is really getting into the weeds--as to how they are 
going to meet those obligations despite putting time and 
attention into it?
    Mr. Zinser. Congresswoman, I do not have insight into the 
hatchery issues in Washington State, but it would be something 
we would be very happy to look into. I know that NOAA has spent 
a lot of resources on salmon, but I have not tracked its----
    Ms. Herrera Beutler. It gets specific quickly.
    Mr. Zinser. No, we would be happy to look at that.
    Ms. Herrera Beutler. I would appreciate that. The second 
concern I have relative to these hatcheries and those that are 
in the Puget Sound is the issue associated with hatcheries not 
having approved hatchery genetic management plans. And I know 
that they are required under ESA, but absent the HGMPs these 
hatcheries are vulnerable to third-party lawsuits and potential 
legal action that could halt the hatchery releases. And this is 
another--there are lots of salmon issues--this is another area 
where I would like to make sure that the backlog is addressed 
and that these get put forward and put through for approval, 
because by not doing them it just jeopardizes our effort, the 
time and the money that we are we putting into protecting these 
wild and hatchery species. So that is another area where I 
would welcome your help.
    Mr. Zinser. I would be happy to contact your office and run 
down these issues and make some inquiries.
    Ms. Herrera Beutler. That would be great. Great, that is 
it. When you talk about main issues, why you get on a Committee 
like this, that is a big one for us. So, thank you.
    Mr. Culberson. The President's budget is only a 
recommendation, as I always remind the Agency.
    Ms. Herrera Beutler. Yes, it is.
    Mr. Culberson. It is----
    Ms. Herrera Beutler. Yes, it is.
    Mr. Culberson [continuing]. Just one of many things we take 
into account, but we get to write the bill.
    Ms. Herrera Beutler. Thank you.
    Mr. Culberson. And I want to follow up, if I could, Mr. 
Zinser on a couple of areas. I will submit the majority of my 
questions for the record in the interest of time, but to follow 
up on the census.

                           NOAA WEATHER DATA

    By the way, I would like to ask though, because I am keenly 
interested in getting good data, as Mr. Jolly was just talking 
about--particularly when it comes to NOAA and weather data--I 
am keenly interested in making sure we have got accurate 
temperature data. I am fascinated to see a couple of articles 
here. Recently some studies have been done showing that the 
Goddard Institute that was tracking weather data while James 
Hansen was there was averaging numbers, and filling in blank 
spots. I would like to visit with your folks separately about 
that, but if you could ask anyone if you have any audits or any 
examination you have done of the NOAA weather data that they 
have been collected for years and would really be interested to 
know when they were just filling in blank spots with numbers 
they made up, or are they actually using--you just want good 
data, right? You want to make sure you are getting good, 
objective, accurate data, particularly on something as 
important as when they are going to try to impose a carbon tax 
on us based on it, for example.

                         2020 DECENNIAL CENSUS

    But I digress, let me get back to the census. I really want 
to follow up with you on that and Mr. Martin, accurate weather 
data, temperature data. As you mentioned in your opening 
statement, the cost of the census in 2010 was about $13 billion 
and you would think the cost the next time would go down. They 
have learned lessons from the last time and re-engineered it to 
hold the cost down below the 2010 census and currently the 
Census Bureau's cost model is predicting a cost of $12.6 
billion for the 2020 census. Do you believe that estimate is 
accurate?
    Mr. Zinser. I think the estimating is very complicated. 
Census uses what is called a Monte Carlo process for 
estimating, which takes in all kinds of different variables and 
comes up with a range. The $18 billion estimate is at 80 
percent of the Monte Carlo estimate. We have not gone in to 
audit that estimate; we are in the process of looking at it, 
though. It came up in the 2014 site test work that we are 
doing.
    Mr. Culberson. What additional steps would you recommend 
for the Census to take to keep the cost of the 2020 census 
below that of 2010?
    Mr. Zinser. Well, I think Census has to work in a number of 
areas; one is the address list. In 2010, it spent half a 
billion dollars going out and visiting every housing unit, 
putting in their GPS code and coming up with a master address 
file. That was very expensive and we think that there is 
technology they can use. Census is working very hard on this, 
to reduce that cost to not do a 100 percent address canvassing 
but more targeted address canvassing and use existing data from 
various private sector organizations that actually produce that 
kind of data.
    I think the other thing that Census is doing is they are 
preparing to use the Internet, but in connection with that it 
has to get an advertising campaign or a social media campaign 
to get people to respond to the census via the Internet. It is 
testing that in the 2014 site test and probably more rigorously 
in the 2015 site test down in Savannah. I think Census has to 
use administrative records, if it can. I think it will be 
easier to use administrative records on the address-list issue, 
more complex on the enumeration, and Census is working on that 
right now.
    And I think, finally, The bureau is going to reduce the 
number of local Census offices used in 2010 and will be able to 
do that by the way it re-engineered or restructured their field 
offices. It is going to be supervising enumerators from fewer 
local field offices based on technology.
    Mr. Culberson. What are your top three concerns about the 
cost, schedule and implementation of the 2020 Census?
    Mr. Zinser. Well, I think one of the biggest risks is the 
IT systems that Census needs to put together to process all the 
data. It has a very ambitious IT project to combine all the 
various IT systems into one. In 2010, Census spent $1 billion 
on a contract that actually scanned in all of the paper forms 
received and then processed that data. That contract will not 
be necessary if the Bureau is able to put this IT system in 
place. Without that system in place, we are going to revert to 
2010 and that would be very, very problematic.
    Mr. Culberson. That is a serious one. I have always been a 
big believer that our most important right is the right to be 
left alone and I have a lot of constituents that really object, 
as I do, to this very long survey form. That long survey form 
the Census is using, was that a creation of statute or internal 
regulations at the Census Department?
    Mr. Zinser. I believe it is by statute, sir. And what the 
Census Bureau did is, before 2010, use a long form and a short 
form. The Bureau did away with the long form during the 2010 
decennial and went to the American Community Survey instead. 
And it is the American Community Survey that generates the most 
complaints about intrusive questions and that is done 
throughout the year. That is not an every-ten-year issue; that 
is done on a consistent, ongoing basis.
    Mr. Culberson. I will submit more about that in detail. It 
is frankly offensive and intrusive. Our most precious right as 
Americans is just to be left alone. It is aggravating.
    I will submit a number of other questions for the record, 
so that we do not delay this unnecessarily, but let me see if I 
have got any followup. Yes?
    Mr. Honda. If I may piggyback on your----
    Mr. Culberson. Sure.
    Mr. Honda [continuing]. Comment. Intrusive and offensive 
questions in Census, it seems to me that the Census' job is to 
find information on the population aside from the numbers.
    Mr. Culberson. Right.
    Mr. Honda. So we can figure out what kind of program could 
we generate for their particular needs. I would be interested 
in the list of intrusive and offensive questions that you are 
talking about and the frequency of those, because one thing I 
know that we have to do is to keep it private and make sure 
that it is not available to the government as they used it on 
Japanese-Americans in 1942. But in order to provide the best 
data in order for people to generate their own programs, you 
know, we may have to ask some questions that could be asked in 
a socially, statistically and culturally sensitive appropriate 
way. Those would be my counter questions and I would really be 
interested in what that list of intrusive and offensive 
questions is.
    Mr. Zinser. Yes, sir. I do not know specifically what 
citizens view as intrusive. What we do know is that our hotline 
gets numerous calls from members of the public. The Census 
Bureau set up a separate point of contact for us to refer those 
individuals to. And so, when they come into our hotline, we do 
not really interview them about, well, which questions are you 
having problems with; it is more of a general complaint. We 
refer those to the Census Bureau, and the Census Bureau I 
believe has people who deal with those.
    Mr. Honda. Just through the Chair, if I may. To rebut that, 
though, the testimony you are giving right now could be 
construed as something we need to fix and take care of rather 
than look into deeper to make sure that we are protecting the 
privacy versus getting information that is appropriate in the 
census as we move forward in our development of this country.
    Mr. Zinser. Yes, sir. I would have to confirm this, but I 
do think that the Census Bureau has an effort underway to 
revisit some of the questions with a number of advisory groups 
that gives them feedback. And I can provide more information on 
that, but I do believe that the Census Bureau makes an effort 
to revisit the questions and the way to ask those questions.
    Mr. Honda. Thank you, Mr. Chairman, because I think that 
questioning properly is the way to find out information. One of 
the things that many communities are looking for is 
disaggregation of information, so that we know how to provide 
the appropriate funds and programs for our communities. Thank 
you.
    Mr. Culberson. Well, right. All they need to know is, how 
many people are in your house and what is your ancestry and 
age, fundamentally, is really all they are really looking for. 
And the questions, the long questionnaire form, I have seen 
one, they have sent it to my constituents and it is 
objectionable. And they also can fine you. I mean, they are 
threatening our constituents with all kinds of penalties if you 
do not comply with answering all these frankly intrusive 
questions.
    And I am also really concerned about the protection of the 
privacy of the information. In Mr. Horowitz's analysis and the 
testimony he gave us for the Department of Justice he points 
out that there was an April, 2014 GAO report that analyzed just 
a statistical sample of fiscal year 2012 cyber incidents across 
24 federal agencies, including the Department of Justice. GAO 
estimated that these federal agencies did not effectively or 
consistently demonstrate any action taken in response to the 
cyber attack in 65 percent of the cases. So I do not trust--and 
this is a great publication and I highly recommend it to all 
you guys. It is spooky. I object to the intrusive form of the 
question and, frankly, once it is in a Federal computer, if 
they are not even spotting 65 percent of the hacks----
    Mr. Honda. Will the Chairman yield?
    Mr. Culberson. Yes, sir.
    Mr. Honda. I am not arguing about cyber security, I am 
talking about when we want information and how many folks you 
have in your family, how many families are living in the 
household, languages that are spoken. I think languages are 
very important.
    Mr. Culberson. Just the basics, that is all they need.
    Mr. Honda. But to disaggregate that, it takes a little bit 
of time. And to not mention things that are important like 
language and other kinds of ways that communities operate----
    Mr. Culberson. Yes, the fundamentals are fine.
    Mr. Honda. So I just did not want to make it cyber security 
versus the information that our families can provide us. Thank 
you.
    Mr. Culberson. Privacy is a really important issue, I know 
for your constituents as it is for me. Texans do not like the 
government poking around their business. They are liable to get 
an unpleasant surprise if they come poking around too much. I 
had to put that in the record.
    Mr. Jolly, any other questions, followup?
    Mr. Jolly. No. I would like to get the Census Bureau to 
count red snapper in the Gulf.
    Mr. Honda. What language does red snapper speak? Would it 
be croakers? They are croakers, right?
    Mr. Jolly. They are croakers.
    Mr. Culberson. As long as you get accurate data, that is 
what matters. Mr. Kilmer, any followup?
    Mr. Kilmer. No, thank you.
    Mr. Culberson. I have a number of questions I will submit 
for the record. We will meet with you again to follow up on all 
this. And thank you very much for your testimony and your 
service to the country, Mr. Zinser.
    Mr. Zinser. Thank you.
    Mr. Culberson. Thank you. We will next move to Paul Martin, 
Inspector General for National Aeronautics and Space 
Administration.
    Mr. Martin, thank you for your service to the country. I 
remember you from previous hearings and thank you for being 
here today. I will of course enter your statement without 
objection into the record in its entirety.
    Mr. Culberson. We welcome your testimony today and look 
forward to hearing from you, sir. Thank you.
    Mr. Martin. Thank you, Mr. Chairman, and thank you for 
saving the best for last.
    Mr. Culberson. Of course. You know how I feel about the 
space program.
    Mr. Martin. Very much so. And thanks to Mr. Kilmer and Mr. 
Jolly for sticking through this, I appreciate it.
    Like many government agencies, NASA continues to grapple 
with its IT security and IT governance, project management, 
aging infrastructure, and contract and grant oversight issues. 
But unlike other agencies, NASA sends people and stuff into 
space. And so my remarks this morning will address a single 
challenge: managing NASA's human space exploration programs.
    Two recent examples illustrate the highs and lows 
associated with NASA's unique mission: the successful test 
flight of the Orion Multi-Purpose Crew Vehicle in December and 
the failure of an Orbital Sciences rocket to the International 
Space Station in October that destroyed all cargo aboard and 
caused at least $15 million damage to the Wallops Flight 
Facility.
    Since the end of the Space Shuttle Program, the United 
States has lacked a domestic capability to transport astronauts 
to the Station. Consequently, the U.S. will pay Russia more 
than $2 billion between 2012 and 2017 to transport 26 NASA and 
international partner astronauts.
    To address this lack of capacity, NASA established the 
Commercial Crew Program, which is presently in its fourth and 
final phase. In September, NASA awarded two sets of firm fixed-
price contracts, a $4.2 billion award to Boeing and $2.6 
billion to SpaceX, for up to six flights each to the Station 
beginning in late 2017. Two years ago, the OIG reviewed NASA's 
management of Commercial Crew and identified several issues at 
the time, including unstable funding, the need to provide 
contractors with timely certification guidance, and 
coordination issues with other Federal agencies. Given its 
importance, we plan to open up a follow-on audit of the program 
later this year.
    Apart from the Station, development of the SLS, Orion, and 
related launch infrastructure is critical to the success of 
NASA's human exploration efforts beyond low Earth orbit. We 
examined the Orion Program in 2012 and found that NASA is using 
an incremental development approach under which it allocates 
funding to the most critical systems necessary to achieve the 
next development milestone rather than developing multiple 
systems simultaneously, as is common in major spacecraft 
programs. Prior OIG reviews have shown that delaying critical 
development tasks increased the risk of future cost and 
schedule problems. While NASA officials admit this incremental 
development approach is not ideal, they contend it was the only 
feasible option given their funding levels. Again, in light of 
Orion's importance, we recently opened up a follow-up review to 
examine the program's ongoing development.
    Mr. Culberson. Do you agree that was their only option in 
light of their funding constraints?
    Mr. Martin. I am not a technical scientist. They were 
pretty convincing, though, given the scope of the program and 
the funding.
    Mr. Culberson. Forgive me. Continue.
    Mr. Martin. Sure. To support SLS and Orion, NASA is 
modifying launch infrastructure at Kennedy, including the 
crawler-transporter, the Mobile Launcher, the Vehicle Assembly 
Building, and Pad 39B. In several weeks, we plan to issue an 
audit assessing NASA's progress in this effort. In the 
companion review we issued last year, we examined the 
challenges NASA is facing in attracting commercial space flight 
companies to Kennedy.
    In addition, the OIG continues to monitor implementation of 
the 27 recommendations made by the National Academy of Public 
Administration in its January 2014 report. Actions taken by 
NASA thus far include hiring additional counter-intelligence 
officers, reviewing export control training materials, and 
improving identity management and credentialing programs.
    Finally, I wanted to recognize the NASA Deputy Inspector 
General, Gail Robinson, sitting behind me, and Jim Morrison, 
the head of our audit office, and the rest of the OIG team for 
the significant work that they do. And I also want to thank and 
wish outgoing Clerk Mike Ringler happy trails in his future 
endeavors--we appreciated working with you.
    Let me wrap with, Mr. Chairman, you asked about best 
practices, let me just mention two very briefly. At the OIG-
level, we are developing a data analytics capability to get our 
arms around the mountains of data, contracting data, and grant 
data, that NASA has at its disposal but perhaps is not delving 
into. We are going to use it to better target our audit and 
investigative resources.
    At the department-level best practices, NASA's record with 
project management, as you well know, has been spotty at best. 
And so we have an ongoing review now looking at one of the 
tools they are using that NASA has touted as improving project 
management. It is something called the Joint Confidence Level 
tool, the JCL tool. We are about halfway through an audit, 
drilling down on a project-by-project basis to see whether or 
not it is frankly going to stand up to the claims that NASA has 
made with respect to how useful it is in keeping projects on 
cost and schedule.
    And, with that, we will stop.
    Mr. Culberson. And those projects are often managed by a 
specific flight center depending on the type of mission and----
    Mr. Martin. They often are, the very large projects are 
pieced out to different Centers. There is an aspect that 
perhaps Johnson would handle, an aspect that Kennedy would 
handle or Marshall would handle.
    Mr. Culberson. Have you seen a difference in the way 
different flight centers handle? Are some more efficient than 
others?
    Mr. Martin. Haven't really seen a difference in the way 
different Centers handle it, but we certainly have seen a 
higher quality project management on a project by project 
basis. And part of it is, we find, the experience of the 
project manager; part of it is does he or she have the 
flexibility to assemble their own team; and part of it, 
frankly, is the complexity of the project itself.
    Mr. Culberson. I noticed in the documentation that 
accompanied your testimony that in the manned space program--
there was an analysis, you mentioned the program--on Page 4, 
``The program's independent government cost estimates project 
significantly higher costs when NASA purchases flights from 
commercial companies rather than Russia.''
    Could you talk to us a little bit about what we are paying 
today for flights from the Russians? It varies up to I think 
you said $70 million a flight, how and why will the cost will 
go up once NASA begins to purchase flights from Commercial?
    Mr. Martin. Right. There are a couple different things 
going on here. I think the figure that you are referring to 
there is when we looked at NASA's efforts to extend the life of 
the International Space Station beyond 2020 into 2024, and NASA 
projects that over the next 10 years they will spend between $3 
and $4 billion.
    We question some of the assumptions underlying that $3 to 
$4 billion. Specifically, I think NASA is using the cost--the 
average cost, I think is $74 million of a current seat on the 
Soyuz--as a placeholder when considering transportation costs 
to get astronauts up to the International Space Station.
    We question that because we think that is, frankly, low-
balling the amount that it is going to take, that NASA is going 
to spend on Commercial Crew capability.
    Mr. Culberson. How much do you anticipate the average cost 
will be for Commercial Crew?
    Mr. Martin. You know, it is unclear. As I indicated in----
    Mr. Culberson. How much is your charge in this average of 
$74 million----
    Mr. Martin. Right.
    Mr. Culberson [continuing]. What do you anticipate? What 
makes you think that that cost is going to go up?
    Mr. Martin. Well, when I look at the size of the Commercial 
Crew contracts that have been let, the $4.2 billion to Boeing 
and the $2.6 billion to SpaceX. Again, I think there is at 
least two things going on, probably many more. One, is having a 
domestic capability for this technology. We have to have----
    Mr. Culberson. Which is vitally important.
    Mr. Martin. Which is vitally important, right. The fact on 
a per seat basis, will it be more expensive in the short term? 
It may very well be, we haven't done those calculations yet. 
But I think the overarching goal is to have this robust 
commercial capability.
    Mr. Culberson. So the principle reason this independent 
government cost estimate projected a significantly higher cost 
was based on what they anticipate is going to be a larger cost 
per flight using Commercial.
    Mr. Martin. I believe that is correct, yes.
    Mr. Culberson. You would anticipate then that the cost per 
flight for Commercial is going to be significantly higher than 
the Soyuz average of $74 million?
    Mr. Martin. Well, again--and part of it depends on how many 
astronauts NASA puts on each of its commercial flights--I 
think--and correct me if I'm wrong, crew back here--I think 
they are contracting for up to six astronauts, but the capacity 
in International Space Station probably cannot handle that. So 
it may be three, it may be four depending how many bodies you 
put in that flight.
    Mr. Culberson. Have you all prepared any estimates of what 
we, the Congress, needs to appropriate to make sure that the 
manned space program is back up and flying as fast as humanly 
possible, and that it is adequately funded? Because I note that 
is a recurring theme in the time that I've been on the 
subcommittee. I am just devoted to the space program, and 
scientific research, and space exploration, but it does seem to 
have been chronically under funded.
    Have you come up with an estimate of what you anticipate 
would be necessary in order for NASA to stop doing, or be able 
to do? For example, as you mentioned earlier a lot of these 
complicated space flights are analyzing a number of systems 
simultaneously, and NASA has begun to prioritize those, as you 
said, and only work on a few of the most critical ones first in 
an effort to save money. What do they need, do you think--have 
you done that estimate?
    Mr. Martin. We have not done that overall estimate. Again, 
we have looked at discreet programs like Commercial Crew and I 
will--I am sorry?
    Mr. Culberson. Have you seen any estimates like that done 
that I am not aware of?
    Mr. Martin. I think NASA, big NASA we call them, they 
probably have those estimates. But when we looked at Commercial 
Crew, I bring the Committee's attention, I believe the funding 
level for Commercial Crew has been increasing over the last 
several years in the neighborhood of $800 million this year, 
and I believe the President put a request in for $1.2 billion 
in fiscal year 2016. So as far as Commercial Crew, they have 
been asking for additional money. But my understanding of the 
budget requests that they have been making for the SLS and 
Orion Programs, they have been relatively flat over the last, 
at least, 3 years.
    Mr. Culberson. I have learned over the years--and you will 
see this, Mr. Kilmer, I know from your experience from working 
with Mr. Young--that Office of Management and Budget is 
basically the source of these estimates and I do not find them 
to be very accurate and reliable. I would rather get the 
estimates directly from NASA, and one of the things that I will 
be pursuing, and I would love to have the help of anybody and 
everybody in this subcommittee to do so, is to have the 
agencies submit their recommendations for what money they think 
they need to accomplish their mission directly to Congress and 
bypass OMB as does--does Legal Services count?
    Voice. Legal Services counts.
    Mr. Culberson. Directly to the Congress, because then we 
are getting an accurate estimate from the professionals that 
know what they need and not a bunch of bean counters over at 
OMB filtering it, and low-balling them, and making it more 
difficult for us. Again, it is a budget recommendation, but it 
does make it more difficult for us when they come in at a low 
number.
    Mr. Martin. Sure.
    Mr. Culberson. And our wonderful staff got to beat--we got 
to beat our brains out trying to find the additional money that 
you guys need. And NASA's a strategic, vital, absolutely vital 
to the nation's security and prosperity for the future and it 
just is maddening, I know, for all of us. I am sure there is 
strong support in Washington State for the space program----
    Mr. Martin. You bet.
    Mr. Culberson [continuing]. Certainly I know Florida is 
partial to it, and we sure love them in Texas. But let me ask a 
couple of areas if I could, let me ask quickly about your 
ability to get access to the information.
    Mr. Martin. We have not had the same problems. I did sign 
the letter, I was one of the 47 Inspectors General to show 
solidarity, because this was said at length, you know, 
independence is the coin of the realm. We have not had a 
problem at NASA. Sometimes we get frustrated, it takes a tad 
bit longer, but I am talking days, I am not talking weeks or 
months, so nothing like Michael or Todd experienced.
    Mr. Culberson. Okay. That is good news. That is good news. 
Can you provide us with an example or two of recommendations 
where--just two examples where NASA has implemented your 
recommendations to save money or create efficiency?
    Mr. Martin. Can I give you an example of where they 
haven't?
    Mr. Culberson. Yes.
    Mr. Martin. Okay. Which is, I think, more important. Like 
the other Inspectors General mentioned, we make a lot of 
recommendations that would suggest revisions to policies that 
may not show tangible dollar results at the time but hopefully 
will increase oversight of grants, oversight of projects, 
project management.
    One review we did a couple years back looked at an 
environmental cleanup effort that NASA was involved in outside 
of--about 35 miles--outside of Los Angeles, it was called Santa 
Susana.
    Mr. Culberson. Yes, I saw that in here.
    Mr. Martin. Yes. NASA entered into an agreement with the 
State of California to clean up its portion of the Santa Susana 
test facility, NASA did rocket tests----
    Mr. Culberson. California would do it on behalf of NASA.
    Mr. Martin. I am sorry?
    Mr. Culberson. California would do it on behalf of NASA.
    Mr. Martin. Well, no, NASA would pony up the money. It is 
in the purview of the California Department of DTSC--it is 
called the Department of Toxic Substance Control--but NASA 
agreed to clean its soil and ground water down to what is 
called a background level, which is essentially like tests had 
never occurred on it. Pristine dirt, if you will, and ground 
water.
    When, in fact, we found that NASA entered into that 
agreement and would, if they were held to make that so, NASA 
would spend upwards of $200 million, far in excess of what was 
needed for the eventual use of that facility, which was going 
to be recreational.
    So there are different levels. There is background level, 
there is residential level, and there is recreational level. 
The recreational level, as an example, would cost $25 million, 
is the estimate.
    Mr. Culberson. Is the recreational level, background level 
under Federal law?
    Mr. Martin. Those are under Federal law. That is my 
understanding.
    Mr. Culberson. This is cleaning it to California law?
    Mr. Martin. This hasn't started yet, but, no, they have 
agreed----
    Mr. Culberson. Neither have signed.
    Mr. Martin [continuing]. They have agreed, they have agreed 
under----
    Mr. Culberson. California standards.
    Mr. Martin. Correct. Well, to the standards that were 
negotiated I guess with the California----
    Mr. Culberson. Okay.
    Mr. Martin. And so we have encouraged in our audit to NASA 
to crack back open that agreement and take a hard look at it 
because it is just spending, from our perspective, an 
inordinate amount of money to--and there is no doubt that the 
soil and the groundwater need to be cleaned, but it is the 
question of looking at the intended use of the property.
    Mr. Culberson. True.
    Mr. Martin. They are not going to be growing apples out 
there.
    Mr. Culberson. Thank you, I did not mean to take so long. 
Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chair. I spent the previous 2 
years on the House Science, Space, and Technology Committee, 
and there is a lot of interest in that committee not just in 
space but around commercialization of research and the SBIR 
program, and I read in the written testimony that there were a 
couple of incidences of fraud related to NASA's SBIR program. 
Just wanted to get a sense, is that a systemic problem or are 
these a couple bad actors, or----
    Mr. Martin. I believe it is a bushel of bad actors more 
than just a couple of bad actors. I think it is a systemic 
problem. I believe there are 11 agencies across the Federal 
government that are required under legislation to provide SBIR 
grants and enter into contracts for this work.
    I do not want to diminish that there is some terrific work 
that is done under the regime, the SBIR regime, but we have 
seen across the Government--and we do a lot of interagency work 
with the National Science Foundation and other folks who also 
give SBIR--we see a number of deficiencies including 
individuals who apply for an SBIR award to NASA but may put the 
same proposal before DOD and NSF and are funded by multiple 
agencies for the exact same research. Then the back end we have 
also seen where the research that is provided is substandard. 
And so we have seen a fair amount of fraud in the Program.
    Mr. Kilmer. Is there, given that it is a systemic problem, 
suggestions in terms of what the systemic response should be? 
Whether it be legislative or other sort of direction to those 
who issue the SBIR awards?
    Mr. Martin. Sort of on the ground level, we are working 
cooperatively with other Offices of Inspector General to share 
techniques that we have to identify for fraud awareness, to 
identify characteristics that more likely lead to fraudulent 
use of this money.
    I think, again, on an agency-wide level, or multi-agency 
level, we need to define data sharing capabilities so that we 
are able to identify when an individual, potential SBIR 
grantee, is putting the same proposal in to multiple agencies, 
been awarded by one, but again attempts to double or triple 
dip.
    Mr. Kilmer. That is (indiscernible) feedback. Given the 
conversation around commercial activity, that is something that 
we are actually seeing some involvement on in my neck of the 
woods. Have you seen NASA developing any capabilities that 
duplicate or compete with capabilities being developed within 
the private sector?
    Mr. Martin. Well, again, NASA, under charge from the 
Congress and cooperation of the Administration, is working with 
contractors to develop the SLS and the Orion. Then you have 
Orbital and you have SpaceX and others that are developing 
their own private, both if they handle cargo and they handle 
crew. I am not sure--I mean there are rockets, there are 
different types of rockets, they can do different things, 
different purposes, carry, you know, commercial satellites--I 
am not sure that there is a duplication in that sense.
    Mr. Kilmer. Okay. I yield back. Thank you, Chairman.
    Mr. Culberson. Mr. Jolly.
    Mr. Jolly. Thank you. Mr. Chairman, I want to follow up a 
little on questions from Mr. Kilmer and the new era where we 
are relying now on more contractors, private launch, et cetera. 
There is several folks who met with us on this notion of 
equitable bidding requirements and whether or not the soft 
cross of infrastructure support or other engineering services, 
or launch support that might be provided by NASA are actually 
calculated in the bid process for some of the private 
contractors. Have you done any work in that area or is that a 
solution in search of a problem?
    Mr. Martin. Well, I do not know if it is a solution in 
search of a problem. We have done some fairly extensive work 
looking at NASA's infrastructure. In particular, we probably 
spent the most time down at Kennedy. As I mentioned in my 
opening statement, we looked at Kennedy's attempts. There is a 
significant number of unused facilities, big, expensive 
facilities like the airfield, like the VAB, like some of the 
test stands that NASA no longer needs with the retirement of 
the Space Shuttle Program.
    And so we are encouraging, and this is the way NASA should 
handle it, identifying what you know you will not need. 
Recommission, sell, give out, you know, those, and then if 
there are some things that you may need but you do not need 
them right now, look to private entities or other Government 
agencies to lease or to use so that they can supplement your 
maintenance costs and things like that. And so we have looked 
at those issues extensively at the Kennedy Space Center.
    Mr. Jolly. Okay. And related to that, and it is really just 
between the disposal of excess assets or the lease of those 
assets ensuring it is a level playing field.
    Mr. Martin. Right.
    Mr. Jolly. As we are continuing to expand the use of 
private contractors, ensuring that the agency is doing it in a 
manner that is not choosing favorites is including, you know, 
creating an equitable bidding environment, if you will, for the 
contractors now that we are increasingly relying on.
    Mr. Martin. And we have done work in that area, again, 
particularly with some of the unused or under-used assets in 
Kennedy, NASA's process for making potential bidders or folks 
aware that there is an opportunity for them to lease. And 
NASA's process has been evolving. We made a series of 
recommendations to NASA to create that level playing field and 
that awareness.
    Mr. Jolly. Have they been adopting or implementing those 
recommendations?
    Mr. Martin. They have.
    Mr. Jolly. Okay. Very good. Thank you very much.
    Mr. Martin. Thank you, sir.
    Mr. Jolly. Yield back, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Jolly. Well, we have had 
several people contact our office concerned that your OIG 
office is over-classifying reports particularly about 
Commercial Crew, and Orion, and SLS, and I wondered if you 
could talk to me about any of those, and what process you go 
through in deciding what to classify?
    Mr. Martin. That issue is--I was telling the staff 
beforehand--that is a puzzler because I have no idea what that 
complaint might refer to. Now, we do not classify--I am not 
even sure that I have classification authority--we do not 
classify anything.
    Mr. Culberson. Okay.
    Mr. Martin. I mean, 99.5 percent of what my office does, we 
release publically on the Internet. The 0.5 percent is if we 
had done an IT review that identified specific----
    Mr. Culberson. We are not aware of anything that you have--
any information in your office that you have classified unless 
it dealt with somebody's personal information or a criminal 
investigation. Other than that----
    Mr. Martin. Absolutely not a clue.
    Mr. Culberson. Good, good, good.
    Mr. Martin. Right. I am trying to guess what that may refer 
to. ASAP, the Aerospace Safety Advisory Panel, put out their 
annual report at the end of last year. Where ASAP complained 
that they were not given information from big NASA about the 
Commercial Crew issues, they were sort of being frozen out by 
saying that it was involved in a bid protest or some other 
issues. But that, again, that was ASAP that was not OIG's 
office.
    Mr. Culberson. Let me also ask about the weather data, that 
I mentioned earlier with Mr. Zinser. Have you ever analyzed the 
data quality? Weather data collected by, for example, I know 
Goddard was involved previously in data collection, analyzing 
old records of temperature, for example. Have you ever analyzed 
any----
    Mr. Martin. Not in the 5 years that I have been Inspector 
General.
    Mr. Culberson. Okay.
    Mr. Martin. Right.
    Mr. Culberson. Something I would like to explore a little 
more with you separately.
    Mr. Martin. Sure.
    Mr. Culberson. And we have a couple of highlights in here, 
areas where I had some questions. You mentioned in your 
September 2014 report that you found that ``the agency will not 
be able to meet its goal of cataloging 90 percent of near-Earth 
objects by 2020.'' Could you talk to me a little bit about that 
and what problems you identified there, because it is a low 
likelihood that it would happen but the effect would, 
obviously, be catastrophic.
    We saw the reentry of the large meteor over Russia last 
February, because of the dash cams they all have. It came in 
from the sun, nobody even knew it was there. And talk to us 
about the problems with a near-Earth orbit program.
    Mr. Martin. We did a specific audit that looked at NASA's 
efforts to identify first and then potentially mitigate these 
near-Earth objects. There is a congressionally cited sort of 
deadline, I believe it was 2020 and I cannot come up with the 
size of it.
    Mr. Culberson. 2020?
    Mr. Martin. Right. It is the big ones.
    Mr. Culberson. About 140 meters in diameter.
    Mr. Martin. Yes, definitely the big ones.
    Mr. Culberson. Big around, yes.
    Mr. Martin. The ones that you would yell, duck, and things 
like that, yes.
    Mr. Culberson. City killers.
    Mr. Martin. Exactly. What we found, in essence, was one 
individual at NASA who had, I do not want to say sole 
responsibility, but he had sole responsibility for managing 
this program and he was completely overworked, and the Program 
itself was underfunded, and so we made a series of 
recommendations to increase both the staffing and the ability 
of this office, and therefore NASA----
    Mr. Culberson. September report?
    Mr. Martin. That was in our September report. Right.
    Mr. Culberson. All right, sir, we will go through that and 
do whatever we can to help. It is an important part of NASA's 
function. And, frankly, to my mind, a little better use for the 
asteroid retrieval is to develop the next generation of rocket 
propulsion to demonstrate that they can actually move one of 
these asteroids if it was headed our direction.
    Also I am concerned that there is a gap, potentially, 
coming up in the tracking and data relay satellite program. 
What are some of the recurring patterns you see, what is 
causing some of the problems in the management? Whether it be--
you heard the testimony about NOAA and the joint polar 
satellite, there were too many chiefs overseeing it when it was 
split between Defense, Commerce, and NASA, I think now it is 
just Commerce and NASA handling it. What are some of the common 
themes you see that cause some of these problems with, for 
example, there are some techno problems with the James Webb 
Space Telescope, for it to jump from--what is it 3 billion 
originally estimate to now over 8?
    Mr. Martin. 8.6 billion I believe.
    Mr. Culberson. And climbing.
    Mr. Martin. Right.
    Mr. Culberson. I mean, it is a spectacular instrument and 
vital that we get it up and flying, it was a top priority of 
the Decadal Survey which we should always follow. But the cost 
overruns and the delays, it just seems to be, systemic and 
constant.
    Mr. Martin. I appreciate you raising the SCAN Program, 
which is the Space Communications and Navigation Program, that 
you refer to with the TDR satellites. We are doing a series of 
four audits, one of which we have released and that dealt with 
the TDR satellites, and the problems there, again with many 
things, it is the TDR satellites that are up there are beyond 
their useful life, they're antiquated, and it is quite 
expensive, I think in the neighborhood of $300, $350 million to 
create another one and to launch it up. And so it is a 
significant issue that NASA needs to have a certain 
configuration, I forget if it is six or seven working at one 
time, to have communication with the Station and other low 
Earth orbiting satellites.
    We are in the middle right now of winding up looking at the 
Deep Space Network. And this is where NASA has at least three 
installations--one in Goldstone, California; one in Madrid, 
Spain; and one in Canberra, Australia--at which they have an 
array of antenna. And the problem there is again antiquated 
equipment and very expensive upkeep.
    And so while NASA's doing some programmatic things to try 
to save money, and we think they make sense, there has got to 
be--there have been cuts to the budgets of those programs, and 
they had a replacement cycle, an upgrade cycle and those 
upgrades and replacements are slipping behind, and that is 
obviously critical.
    It makes no sense to spend billions and billions of dollars 
to send, you know, robotic missions out well beyond low-Earth 
orbit if you cannot communicate with them because you cannot 
receive the wealth of information they are sending back. So it 
is a very serious issue.
    Mr. Culberson. Mr. Jolly.
    Mr. Jolly. I am good.
    Mr. Culberson. Any follow-up?
    Mr. Jolly. No, thank you.
    Mr. Culberson. What common themes or threads do you see in 
each one of these large satellite programs or spacecraft 
designs where they seem to have a problem in meeting their cost 
estimates, they fall behind schedule, they go over budget. Are 
there any common themes that you see looking across NASA?
    Mr. Martin. It is inconsistent project management. And we 
have seen that, in fact, we put a--it was kind of an unusual 
audit for us. Usually when you go in and audit, there is a 
discreet issue, you drill down, look for money issues, look for 
fraud, waste, abuse, things like that. We did a piece about two 
and a half years ago that looked at NASA's historic issues with 
keeping its big projects on cost and on schedule, and I commend 
that to the committee and to the public.
    Several themes emerge from that, in particular, that there 
is a mind set, certainly historically, at NASA that as long as 
the project works at the end of the road--and that road may be 
many years beyond at a much higher dollar than what was 
promised--all sins will be forgiven leading up to that point. 
Hubble Space Telescope did, in fact they call it the Hubble 
Philosophy, it is not a term that I coined. That Hubble 
produces extraordinary pictures, and we are very thankful to 
have that. But at what cost?
    If you look at the rather tortured development of the 
Hubble Space Telescope, including post launch, it was well over 
budget and well over time. But all those things are forgiven 
because it produces beautiful pictures. And so it is the 
discipline, I think, that NASA needs to insist in its project 
management.
    Mr. Culberson. I will go back and look at that report.
    Mr. Martin. Sure.
    Mr. Culberson. Let me also ask you about the concerns that 
Chairman Wolf quite correctly had about Chinese nationals. The 
Chinese Space Program is owned lock, stock, and barrel by the 
People's Liberation Army, and we have prohibitions in our Bill 
that I will make sure we continue, it is really important to 
keep the Red Chinese out of our space program. In looking at 
the requirements and the law, that NASA makes sure they do not 
have any interaction with the Chinese Space Program. Talk to us 
about NASA's compliance with those requirements that Chairman 
Wolf quite correctly put in our Bill.
    Mr. Martin. Right. I think NASA has complied, they have 
identified and notified this subcommittee and the Congress when 
they have had any kind of communication or any travel related 
to China. I would cite two other issues, one I mentioned in the 
testimony, NASA's follow-up on the 27 recommendations issued by 
NAPA, they have taken the recommendations quite seriously and 
so they are moving down the road there.
    Another area that my office has done extensive work in is 
in IT security. So you brought your point out, it is a concern 
to have any foreign national, improperly at a NASA center. 
Frankly I think the larger concern is the penetration of NASA's 
IT network and IT security, by not only the Chinese but other 
foreign and domestic hackers.
    Mr. Culberson. You said there are over 1,200 Web 
applications that are potentially vulnerable that--how is NASA 
dealing with that?
    Mr. Martin. Yes, it was shocking when we looked at this. 
NASA maintains more than half of all the civilian non-military 
Websites. I had no idea. One agency maintains over--in fact, 
they had 1,500 when we began the audit, by the end of the audit 
they had reduced to 1,200 and they are still working.
    And what that does, as you can imagine, it just provides--
the target area is just so rich, it is so wide open. Part of 
the reason NASA has so many is because of its statutory mandate 
to share the results of its research. So they are speaking to 
the public, they are speaking with researchers, they are 
allowing ways for NASA employees into NASA systems. So 
maintaining proper IT security is an incredibly important 
issue, and our office has done a ton of work in that area.
    Mr. Culberson. How is NASA dealing with it though? I mean 
are you satisfied that they are making----
    Mr. Martin. I am satisfied that they appreciate the gravity 
of the situation. Am I satisfied that NASA is where they need 
to be with IT security? Absolutely not. And partly what the 
fundamental root of NASA's IT security problem is the broader 
IT governance concerns.
    NASA, up until I would say a year or two ago, fundamentally 
they were run--the IT governance was decentralized, run center 
by Center. NASA's CIO had control over only 11 percent of the 
Agency's $1.5 billion IT spend each year. The agency CIO, 11 
percent. The programs, the missions, controlled 63 percent, and 
the Centers controlled the rest of that.
    Now, you talk about the Appropriations Committee shaking 
the, you know, the stick, that is the stick, you are writing 
the checks at the end of the day. Well, if the CIO doesn't 
control the checkbook at NASA, it is very difficult. He could 
be as persuasive as possible, but he is not holding the 
checkbook. So I still have concerns about, significant 
concerns, about NASA's IT governance. Do they get it? Are they 
heading in the right direction? Absolutely.
    Mr. Culberson. Talking, if I could, a little bit about 
keeping foreign nationals out of some of our flight centers. I 
know that--I was searching for this and just found it--you are 
referencing foreign nationals entering Ames's Flight Center, 
potentially having access to ITAR restricted information. ``On 
two occasions a senior Ames manager inappropriately shared 
documents with unlicensed foreign nationals.'' I think I saw in 
here that these foreign nationals are actually working with a 
university in the area and because the university was doing 
some research at Ames were given access.
    Mr. Martin. I believe at the point these foreign nationals 
were not, I think they were actually NASA employees at the 
time. NASA goes through--and I think the government goes 
through--before you bring a foreign national on they have to 
pass varying levels of background checks.
    Mr. Culberson. Even if they are with the university?
    Mr. Martin. Yes. The requirement is, if the contract is 
through the university they need to go through these background 
checks.
    Mr. Culberson. I would be very interested in your help and 
your office----
    Mr. Martin. Sure.
    Mr. Culberson [continuing]. Making sure that those 
standards are followed because I had heard that that is not 
necessarily happening at Ames. I was just out there a few weeks 
ago.
    Mr. Martin. Okay. We can chat with you and your staff on 
that.
    Mr. Culberson. And I will go through some of these with 
you, and I will submit others for the record and meet with you 
separately and privately. I do not want to take too much of 
your time. We are going to face tight budgets and I do, if I 
could, really want to call on your help and the help of your 
staff in helping us find savings that we can use to help make 
sure that NASA gets the funding they need to do their job.
    Mr. Martin. I look forward to the opportunity.
    Mr. Culberson. And the freedom that they need and stability 
so they can do their job.
    Mr. Martin. Absolutely.
    Mr. Culberson. Without the fear of having the rug jerked 
out from underneath them.
    Mr. Martin. Right.
    Mr. Culberson. Deeply appreciate your service.
    Mr. Martin. Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    



    
                           W I T N E S S E S

                                                                   Page
Comey, J. B......................................................     1
Horowitz, M. E...................................................    59
Zinser, T. J.....................................................    83

                                  [all]
</pre></body></html>
